<html>
<title> - THE FISCAL YEAR 2009 BUDGET PROPOSAL TO SUPPORT U.S. BASIC RESEARCH</title>
<body><pre>[Senate Hearing 110-1107]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1107
 
  THE FISCAL YEAR 2009 BUDGET PROPOSAL TO SUPPORT U.S. BASIC RESEARCH

=======================================================================

                                HEARING

                               before the

          SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, AND INNOVATION

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 11, 2008

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                  U.S. GOVERNMENT PRINTING OFFICE
72-808                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7116011e311204020519141d015f121e1c5f">[email&#160;protected]</a>  


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            GORDON H. SMITH, Oregon
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
MARIA CANTWELL, Washington           JOHN E. SUNUNU, New Hampshire
FRANK R. LAUTENBERG, New Jersey      JIM DeMINT, South Carolina
MARK PRYOR, Arkansas                 DAVID VITTER, Louisiana
THOMAS R. CARPER, Delaware           JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director, and General Counsel
                  Paul Nagle, Republican Chief Counsel
                                 ------                                

          SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, AND INNOVATION

JOHN F. KERRY, Massachusetts,        JOHN ENSIGN, Nevada, Ranking
    Chairman                         JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         KAY BAILEY HUTCHISON, Texas
    Virginia                         GORDON H. SMITH, Oregon
BYRON L. DORGAN, North Dakota        JOHN E. SUNUNU, New Hampshire
BARBARA BOXER, California            JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
MARK PRYOR, Arkansas
CLAIRE McCASKILL, Missouri
AMY KLOBUCHAR, Minnesota


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 11, 2008...................................     1
Statement of Senator Kerry.......................................     1
Statement of Senator Klobuchar...................................    49

                               Witnesses

Bement, Jr., Dr. Arden L., Director, National Science Foundation.    18
    Prepared statement...........................................    20
Marburger III, Ph.D., Hon. John H., Director, Office of Science 
  and Technology Policy..........................................     4
    Prepared statement...........................................     5
Turner, Dr. James M., Acting Director, National Institute of 
  Standards and Technology, U.S. Department of Commerce..........    26
    Prepared statement...........................................    27

                                Appendix

Leshner, Ph.D., Alan I., Chief Executive Officer, American 
  Association for the Advancement of Science and Executive 
  Publisher, Science, prepared statement.........................    65
Response to written questions submitted by Hon. Maria Cantwell 
  to:
    Dr. Arden L. Bement, Jr......................................    72
    Hon. John H. Marburger III, Ph.D.............................    71
Stevens, Hon. Ted, U.S. Senator from Alaska, prepared statement..    65
Vest, Dr. Charles M., President, National Academy of Engineering, 
  President Emeritus, Massachusetts Institute of Technology, 
  prepared statement.............................................    70


  THE FISCAL YEAR 2009 BUDGET PROPOSAL TO SUPPORT U.S. BASIC RESEARCH

                              ----------                              


                        TUESDAY, MARCH 11, 2008

                               U.S. Senate,
          Subcommittee on Science, Technology, and 
                                        Innovation,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John F. 
Kerry, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. Good morning. This hearing will come to 
order. Thank you, gentlemen for being here. We appreciate it. I 
apologize for being a few moments late.
    We're all very well aware of the challenge that we face as 
a nation to maintain our dominance in the fields of science and 
technology. The sheer volume of recent undergraduate degrees 
awarded worldwide in science and engineering underscores this 
concern.
    In 2004, China graduated more than 600,000 engineers while 
India graduated over 350,000, the U.S. graduated fewer than 
70,000. Some have tried to do a sort of comparative population 
analysis on that, but I think the raw numbers annualized really 
speak for themselves and raise enormous issues, not to mention 
that in recent travels, as I've been to various countries, it 
is quite remarkable how much money, effort, public commitment, 
private commitment, other countries are making to this endeavor 
and anybody who isn't watching what these other countries are 
doing is missing the big picture of this challenge to our 
country.
    It's well established that in order to remain competitive, 
we're going to need to invest in basic research and that's the 
type of research that is not targeted to produce a short-term 
financial gain.
    A generation ago, this type of research was being performed 
by the private sector, specifically by the private sector 
leaders in the laboratories that we all became so familiar with 
as we grew up, whether it was the Bell Laboratories or others, 
but today, the demands have really shifted, driven by the 
quarterly earnings reports, Wall Street, and a different way of 
looking at investment and so private sector research budgets 
have really been shifted toward the type of applied research 
that produces a quick turnaround on investment.
    From the Council on Competitiveness to the National 
Academies of Sciences, the call has been made for the Federal 
Government to step up and fill the void. Already in the 110th 
Congress, we've taken some steps, big steps toward addressing 
what Bill Gates referred to last March as our ``contentment 
with living off the investments of previous generations.''
    Last year, we passed the COMPETES Act, which set a course 
for doubling the research budgets at critical agencies, at NSF, 
N-I-S-T, NIST, and the DOE, Office of Energy, within the next 
several years. Among its many contributions, the COMPETES Act 
authorizes the Technology Innovation Program and the TIP, which 
replaces the successful Advanced Technology Program, is 
designed to provide Federal grant funding to promote the kind 
of high-risk, high-reward research that is too often avoided by 
risk-averse private investors.
    The COMPETES Act also reinforces our commitment to 
struggling manufacturing companies by reauthorizing the 
Manufacturing Extension Partnership, a program designed to 
transfer expertise in technologies developed under the NIST 
programs to specifically help small and mid-sized U.S. 
companies, manufacturers.
    While the President's budget adds back a portion of the 
funding that was eliminated during the last gasps of the Fiscal 
Year 2008 appropriations process, it just doesn't come close to 
providing the level of funding authorized under the COMPETES 
Act. So, on the one hand, we have Congress embracing a national 
policy and on the other hand, we have an administration that 
is, frankly, choosing to ignore those authorized levels and 
submit its own lesser numbers.
    In fact, even after considering proposed increases for 
NIST, NSF and the Department of Energy's Office of Science, the 
fact is that funding for basic and applied research across all 
agencies will fall by .5 percent. In real terms, if the 
President's budget proposals were to be enacted, the Federal 
R&D investment would have fallen by 9 percent in inflation-
adjusted dollars between 2004 and 2009 and that, I would 
respectfully suggest, is the only honest way to measure where 
we're heading.
    To top it off, the administration remains inexplicably 
steadfast in its commitment to eliminating the Technology 
Innovation Program and the Manufacturing Extension Partnership, 
and I don't really completely understand either of those 
choices, folks, for the simple reason that there are scores of 
success stories generated from the very modest Federal 
investment in these two programs.
    It was an ATP partnership that led to the creation of the 
digital mammogram. In my state of Massachusetts, it's estimated 
that the MEP has generated nearly $500 million in increased or 
sustained sales over the past 5 years, translating into more 
than 4,400 new or sustained jobs.
    It just makes no sense to eliminate funding for programs 
that retain and create high-paying, high-tech jobs while Asia 
and the European Community are implementing precisely what 
we're busy eliminating: large-scale, long-term R&D projects.
    Government policy cannot and should not singlehandedly 
dictate events and we all feel that very strongly. We're not 
trying to pick winners over losers, but creating incentives and 
committing to exploration in certain sectors advances the 
ability of the private sector to make its choices with respect 
to those sectors and ultimately to create competitive entities 
within those sectors.
    The government can do a great deal to encourage innovation 
by investing in a certain kind of research that is largely 
ignored by today's corporate structure and that means investing 
in long-term solutions that address priorities, such as 
broadband infrastructure, energy technologies, basic science 
and research, and high school and college education, and 
government can certainly do more to assist manufacturing 
companies that are struggling to keep up with global 
competition. I'm not talking about a bailout, I'm talking about 
providing the tools to be able to compete and thrive.
    The purpose of today's hearing is to examine the budgets 
and programs of our Federal science agencies. We're delighted 
to have before us the Nation's preeminent science and 
technology agencies, and I welcome the leaders of those 
agencies. You have broad expertise in the programs that you 
administer, provide enormous opportunities for strengthening 
the American economy. They also act as a tremendous resource 
for addressing some of the most critical policy challenges of 
our time.
    One of the key areas obviously for Federal research is the 
area of clean energy and climate change. Since this time last 
year, the warnings from the scientific community about the 
magnitude of this threat have become increasingly stark, 
increasingly clear, and, I might add, increasingly urgent.
    An article in yesterday's Washington Post highlighted the 
latest science which cites the needs to reduce emissions to 
practically zero, in all effect to zero, by mid century. We 
need our best minds and our best technology working at full 
capacity to find the solutions to this challenge as well as to 
the challenge of alternative fuels as a substitute eventually 
for fossil fuels which would indeed be the fastest way to move 
to zero emissions, and we know that the companies that provide 
these transformational energy technologies and green products, 
whether it's more efficient batteries, cleaner engines, more 
efficient appliances, electronics that consume less, all of 
those are going to be companies that make a lot of money for 
someone.
    Our challenge is to fund research and development that can 
enable the green revolution in energy and consumer products and 
to educate our students to invent, manufacture, and distribute 
these products to the global community as rapidly as possible.
    So, I look forward to hearing from our distinguished panel, 
Dr. John Marburger, the Director of the Office of Science and 
Technology Policy; Dr. Arden Bement, Director of the National 
Science Foundation; and Dr. James Turner, National Institute of 
Standards and Technology. I will grant unanimous consent that 
the written testimony provided by the American Association for 
the Advancement of Science be included in the record.
    [The testimony is included in the appendix.]
    Senator Kerry. So, thank you, gentlemen, each of you, for 
being here again. We welcome you back, appreciate it, and Dr. 
Marburger, why don't you lead off?

   STATEMENT OF HON. JOHN H. MARBURGER III, Ph.D., DIRECTOR, 
            OFFICE OF SCIENCE AND TECHNOLOGY POLICY

    Dr. Marburger. Thank you very much, Senator, members of the 
Subcommittee. I am pleased to come once again to present the 
President's Fiscal Year 2009 R&D Budget, and I thank you. My 
written testimony has quite a bit of detail about the----
    Senator Kerry. I'll put everybody's written testimonies 
into the record as if read in full, and if you want to 
summarize, that'd be great, then we can have a dialogue about 
it.
    Dr. Marburger. Thank you. So, I'll just say a few words 
about some high points.
    I would like to thank this subcommittee for its support of 
the President's American Competitiveness Initiative through 
passage of the America COMPETES Act of 2007 that you referred 
to, Senator, in your opening remarks. The President does remain 
committed to the ACI and is once again requesting funds to 
ensure our future economic competitiveness.
    The President's Fiscal Year 2009 Budget substantially funds 
authorizations under the COMPETES Act. Of the $13.8 billion 
authorized for Fiscal Year 2009 and the Act, the President's 
Budget would fund 12.25 billion or about 85 percent of the 
authorized level. This total compares favorably with the 82 
percent level at which Congress funded the Act in the 2008 
Omnibus bill.
    If the President's request is funded, COMPETES Act budgets 
would grow by almost 15 percent. To place this in context, the 
President's overall request for all non-defense R&D increases 
by 6 percent compared with the remainder of the non-security 
discretionary budget which increases by less than 1 percent.
    Total Federal R&D in the 2009 budget stands at a $147 
billion, an increase of $4 billion over Fiscal Year 2008 
appropriated, which represents $1 out of every $7 requested by 
the President in the discretionary budget. This is a growth of 
61 percent during this Administration.
    My written testimony summarizes the President's requests 
for several key research programs that cut across agencies and 
gives some detail for agencies under the jurisdiction of this 
subcommittee. Overall, the President's requests an increase of 
$850 million in the basic research category for a total of 
$29.3 billion which includes a 15 percent increase of $1.6 
billion for the three agencies prioritized in the ACI, the 
National Science Foundation, Department of Energy, Office of 
Science, and the laboratories of the National Institute of 
Standards and Technology.
    I might add that basic research at the Department of 
Defense would grow by 19 percent in this budget or $270 million 
over the Fiscal Year 2008 request.
    The budget provides for key multiagency science programs. 
$2 billion for climate science which is up 12 percent over the 
2008 enacted budget, an increase of about 9 percent for the 
entire range of climate-related activities, including science, 
technology, international assistance and tax incentives. It's a 
climate package of nearly $9 billion in all of the provisions 
of the budget.
    The budget includes increased funding for a number of earth 
observation programs, $74 million for NOAA for climate sensors 
that had been de-manifested from the National Polar-orbiting 
Operation Environmental Satellite System or NPOESS, $103 
million for NASA to begin a series of Earth-observing missions 
recommended by the National Research Council's Decadal Survey, 
and $102 million for ocean science and research at NOAA, NSF, 
and the U.S. Geological Survey.
    There are increases for the information technology, for 
nanotechnology, and a number of other important programs 
related to our future competitiveness.
    At the agency level, you'll hear more detail about the 
National Science Foundation from Dr. Bement, but the NSF budget 
would increase 14 percent to $6.85 billion, more than $800 
million above the Fiscal Year 2008 appropriation. Physical 
science directorates, which are important there, would receive 
increases of about 20 percent.
    Dr. Turner is here to describe the NIST budget proposal. 
The NIST core research and facilities budgets would receive 
$634 million in 2009, an increase of 22 percent over the 2008 
Omnibus provisions.
    I've already mentioned the new earth-observing programs at 
NASA. The NASA budget would increase by 3 percent over Fiscal 
Year 2008 enacted to about $17--more than $17 billion.
    NOAA. The 2009 budget request for NOAA provides $383 
million for oceanic and atmospheric research and again requests 
$20 million for ocean science research as part of a $40 million 
interagency effort for the ocean research priorities plan.
    And finally, my own office, OSTP, which sustained a 6 
percent reduction in Fiscal Year 2008, is requesting $119,000 
above the 2008 appropriation but is $215,000 below the Fiscal 
Year 2008 request on a budget of $5.3 million.
    FY 2009 takes us through the end of the current 
Administration and the beginning of next year, and I believe 
the increased funding is important for this transition.
    I'm also requesting that the Science and Technology Policy 
Institute continue to be funded within the NSF budget and I 
would be glad to explain why this is important.
    So, thank you for this opportunity to highlight the 
President's Fiscal Year 2009 Budget. I think it's a strong 
proposal and I urge your support of it, and I'll be glad to 
respond in more detail to your questions either in today's 
hearing or in writing.
    Thank you.
    [The prepared statement of Dr. Marburger follows:]

  Prepared Statement of Hon. John H. Marburger III, Ph.D., Director, 
                Office of Science and Technology Policy

    Chairman Kerry, Ranking Member Ensign, and members of the 
Subcommittee, I am pleased to appear before you once again to present 
the President's Fiscal Year 2009 research and development (R&D) budget. 
In the eighth and final year of this Administration, today's hearing 
provides an opportunity to take stock of how far we have come, where we 
are today, and, most importantly, what remains to be done for U.S. 
science and technology. Last year I came before this Subcommittee 
seeking your support for the American Competitiveness Initiative (ACI). 
With Congressional passage and enactment of the America COMPETES Act 
you delivered that support.
    Now I am asking for your help again. The basic research programs 
prioritized in the ACI and authorized in the America COMPETES Act 
remain critically important to the long-term strength of our Nation's 
economy, and should be fully funded at the level of the President's 
request for 2009. The National Science Foundation, the Department of 
Energy's Office of Science, and the National Institute of Standards and 
Technology's core lab research and facilities provide basic research 
infrastructure for every field of science, and produce the new 
knowledge that make technology breakthroughs possible. This 
Subcommittee has a commendable history of bipartisan support for 
science funding, for effective advocacy of basic scientific research, 
and for its technical applications that benefit every part of our 
society. On behalf of the Administration, I thank the Subcommittee for 
the good working relationship it has established with the science 
agencies and with my office, and look forward to campaigning together 
for robust funding of our mutual innovation and competitiveness agenda.
    Overall, Federal R&D in the 2009 Budget is $147 billion, $4 billion 
more than FY 2008. That represents one out of every seven dollars 
requested by the President in the discretionary budget. This total 
exceeds the Fiscal Year 2001 amount by $56 billion and represents 
growth of 61 percent since then. Over these 8 years, the cumulative 
Federal R&D investment will total over $1 trillion.
    The growth in non-defense R&D is even more dramatic in the 2009 
Budget. The President is seeking a 6-percent increase in this category. 
By comparison, the remainder of the non-security discretionary budget 
is up less than 1 percent. And I draw your attention to the chart of 
Federal non-defense spending over time (see Attachment #1). With the 
2009 Budget, real growth in outlays for the conduct of non-defense R&D, 
with the effect of inflation factored out, is up 31 percent in 8 years. 
Real non-defense R&D growth for the previous 8 years was 11 percent. 
The President's commitment to the government's R&D enterprise is 
strong, and the advancement of science remains among his top budget 
priorities.
    The most recent and dramatic evidence of this commitment can be 
found once again in the President's State of the Union address in 
January. In the President's words:

        ``To keep America competitive into the future, we must trust in 
        the skill of our scientists and engineers and empower them to 
        pursue the breakthroughs of tomorrow. Last year, Congress 
        passed legislation supporting the American Competitiveness 
        Initiative, but never followed through with the funding. This 
        funding is essential to keeping our scientific edge. So I ask 
        Congress to double Federal support for critical basic research 
        in the physical sciences and ensure America remains the most 
        dynamic nation on Earth.''

    Increased funding for critical basic research in the physical 
sciences is my highest budget priority. This Subcommittee has led by 
fully authorizing these basic research increases in the bipartisan 
America COMPETES Act. Unfortunately, the Subcommittee's good work was 
not ultimately realized in the 2008 Omnibus funding bill (see 
Attachment #2), but I urge you to maintain your commitment. We now must 
succeed in implementing ACI/COMPETES with actual funding. If we fail, 
it will significantly impair and delay all our efforts to strengthen 
long-term economic competitiveness through innovation-enabling basic 
research in the physical sciences and engineering. Lost research time 
delays innovations, slows development, misses market opportunities, and 
costs jobs and economic growth.
    ACI: As described above, the centerpiece of the Administration's 
basic research agenda is the American Competitiveness Initiative. The 
2009 Budget calls for a 15 percent or $1.6 billion increase for the 
ACI's three priority civilian science agencies: the National Science 
Foundation; DoE's Office of Science; and the laboratories of the 
National Institute of Standards and Technology. This level of total 
funding, $12.2 billion, is necessary to restore the doubling path we 
all committed to last year (see Attachment #3).
    In addition, planned basic research at the Department of Defense 
will grow by $270 million over the FY 2008 request--a 19 percent 
increase, yielding a total of $1.7 billion--consistent with the 
President's commitment to support high value research in the physical 
sciences. These investments are made to support national security but, 
due to the broad effects of basic research, also contribute to ACI 
innovation goals as well.
    I know this Committee is as disappointed as I am at the current 
shortfall. In order not to lose yet another year of enhanced and 
expanded high-impact innovation research, this year Congress must 
complete the FY 2009 budget process on time.
    America COMPETES Act: With respect to programs authorized by 
America COMPETES in the President's budget, the Administration's 
approach is straightforward: among the many activities in the bill, 
establish priorities to ensure that limited resources are allocated 
where they are needed most. To this end, the Administration has 
accepted the conclusions of many studies and reports that funding for 
ACI basic research is most important and needs to be addressed first. 
This prioritization reflects a broad endorsement by the business and 
academic communities, most recently as part of last year's ``American 
Innovation Proclamation,'' which states as its first conclusion that 
``Congress must act to: Renew America's commitment to discovery by 
doubling the basic research budgets at the National Science Foundation, 
the National Institute of Standards and Technology, the Department of 
Energy's Office of Science and the Department of Defense'' (see 
Attachment #4).
    Prioritizing within the constraints of budget realities necessarily 
means that some of the programs and activities authorized in America 
COMPETES could not be requested in this Budget (see Attachment #5). The 
lack of funding in the FY 2008 Omnibus appropriations bill for the 
priority basic research increases authorized in the COMPETES Act makes 
it even more imperative to address these priorities in the forthcoming 
fiscal year. The President signaled this policy when he signed America 
COMPETES in August of last year, stating that ``These new programs . . 
. and excessive authorizations will divert resources and focus from 
priority activities aimed at strengthening the basic research that has 
given our Nation such a competitive advantage in the world economy. 
Accordingly, I will request funding in my 2009 Budget for those 
authorizations that support the focused priorities of the ACI, but will 
not propose excessive or duplicative funding based on authorizations in 
this bill'' (see Attachment #6).
    As just one example of this prioritization, the Budget does not 
request funding for the new Commerce Department Technology Innovation 
Program or new math and science education programs at NSF. This is 
because the Administration believes very strongly that the fundamental 
research programs at NIST and NSF are a higher leverage investment and 
in greater need of funding than new programs, especially given the 
devastating impacts of last year's Omnibus appropriations bill on these 
agencies.
    Earmarks: Before summarizing this year's Federal R&D budget, 
because research earmarks returned in the 2008 appropriations, I want 
to express my concern about the very serious deleterious impacts 
earmarks have on the science budget. I make these remarks knowing that 
this Subcommittee fully understands the impact of the problem and 
supports best practices in the allocation of research funding.
    In FY 2008, DOD basic and applied research earmarks total about 
$1.1 billion (about 1/6 of DOD research's total budget); $124 million 
of the DoE Office of Science is earmarked; and $83 million in earmarks 
and unrequested grants seriously dilute the core research and 
facilities proposed at the National Institute of Standards and 
Technology. Altogether, research earmarks are estimated at $2 billion 
of the $16.8 billion of overall appropriations earmarks government-wide 
in FY 2008. In nominal terms, this is more than the $1.8 billion 
increase in the overall FY 2008 Federal Science & Technology (FS&T) 
budget and earmarks therefore result in an actual real cut in merit-
reviewed research at the agencies that are included in the FS&T budget. 
As we discuss the importance of pursuing the best science to contribute 
to U.S. competitiveness, I hope the Congress will significantly reduce 
research earmarks in the FY 2009 appropriations process, as it did in 
Fiscal Year 2007. Earmarks that divert funding from a merit-based 
process undermine America's research productivity. The Administration 
commends Congress for not subjecting NSF and the National Institutes of 
Health to this debilitating practice. It is now time to end this 
practice for all research programs.
    Basic Research: Looking at overall basic research in the 2009 
Budget, $29.3 billion is requested, an $850 million increase. Since the 
effect of FY 2008 earmarks only enhance this difference and make the 
real programmatic increases even bigger, in my view this is a clear 
indication of the Administration's strong focus on fundamental research 
and the discovery of new knowledge as a leading mission of the Federal 
Government. I want to emphasize that this favorable treatment of basic 
research is occurring in a year of spending reductions for many other 
domestic programs, indicating the high priority this Administration 
places on the importance of this activity.
    Climate Science: While basic research in the physical sciences for 
long-term innovation and competitiveness is the priority driver in the 
2009 Federal R&D budget, other science areas remain very important to 
our Nation's goals. Since FY 2001, the Administration will spend 
approximately $14.6 billion on climate change science research through 
the multi-agency Climate Change Science Program, and the President's 
2009 CCSP budget exceeds $2 billion, a 12 percent increase over FY 2008 
enacted. The U.S. leads the world in advancing climate change policy 
and programs, with planned expenditures of nearly $9 billion in 
climate-related science, technology, international assistance, and tax 
incentive programs proposed in FY 2009--much more than any other 
country and a 9 percent increase over 2008 enacted levels.
    Earth Observations and Ocean Initiative: In other programs relevant 
to the environment, the 2009 Budget includes increased funding for a 
number of Earth Observations programs, most notably $74 million for the 
National Oceanic and Atmospheric Administration (NOAA) to sustain the 
highest priority climate measurement capabilities that once were part 
of the National Polar-orbiting Operational Environmental Satellite 
System (NPOESS) program, and $103 million for NASA to embark on the new 
series of space-based Earth observing missions recommended by the 
National Research Council's recent Earth Sciences Decadal Survey. A new 
National Land Imaging Program office to ensure long-term continuity of 
multi-spectral imaging of the Earth's surface is established in the 
U.S. Geological Survey (USGS). This year's budget again includes the 
Administration's Ocean Initiative, which calls for $102 million in 2009 
funding for ocean science and research at NOAA, NSF and the USGS.
    Information Technology: President Bush's 2009 Budget of $3.5 
billion for Networking and Information Technology R&D (NITRD) 
represents a doubling since 2001. This brings the 8 year total 
investment in this area to more than $20.9 billion. The 2009 Budget 
emphasizes the NITRD priorities of high-end computing R&D and 
infrastructure, advanced networking, and cyber security and information 
assurance. The tools and capabilities that result from the NITRD 
program affect every area of science and technology and enhance the 
Nation's competitiveness.
    Nanotechnology: This Administration's National Nanotechnology 
Initiative (NNI) continues strongly with over $1.5 billion in FY 2009 
for this well-coordinated multi-agency, investment in fundamental 
research, multi-disciplinary centers of excellence, and development of 
focused cutting-edge research and education infrastructure. With the 
2009 request, nearly $10 billion will have been invested in nanoscale 
R&D in 7 years. The NNI includes important research on the societal 
implications of nanotechnology, including human and environmental 
health and methods for managing potential risks.
    Office of Science and Technology Policy (OSTP) As you know, this 
Subcommittee also oversees OSTP itself. After sustaining a 6 percent 
cut in FY 2008, we are requesting $5.3 million in the 2009 Budget. This 
amount is $119,000 above the FY 2008 appropriation, but $215,000 below 
the FY 2008 request. FY 2009 will take OSTP through the end of the 
current Administration and into the beginning of the next. Full funding 
of the OSTP request is important for both of these transition phases to 
proceed smoothly. The next Administration will undoubtedly propose an 
organization and funding level for OSTP to fulfill the agency's 
functions in FY10 and beyond. The current request reflects our desire 
to continue to fulfill OSTP's mission in a robust manner to the end of 
the current term, and to provide the new Administration with 
flexibility to bring OSTP rapidly to an effective level of operation.
    OSTP also seeks full funding for the Science and Technology Policy 
Institute (STPI) within NSF's request. STPI is a Congressionally-
chartered federally funded research and development center that 
provides excellent objective, technical support to OSTP and other 
agencies. Because the congressional statute mandates that NSF sponsor 
STPI, OSTP requests that this amount be fully funded within the NSF 
budget in support of OSTP's mission. We have included such language in 
the OSTP budget narrative in response to the 2008 Omnibus report 
language that directed OSTP to request this funding. We respectfully 
request the Subcommittee's support.

Agency Budget Highlights
National Science Foundation (NSF)
    Funds are requested to increase the budget for NSF to $6.85 billion 
in FY 2009, 14 percent or $822 million above 2008's $6.03 billion. As 
one of the three key agencies in the American Competitiveness 
Initiative, NSF is the primary source of support for university and 
academic research in the physical sciences, funding potentially 
transformative basic research in areas such as nanotechnology, advanced 
networking and information technology, physics, chemistry, material 
sciences, mathematics and engineering. The NSF physical sciences 
directorates receive increases of about 20 percent.
    NSF leads two previously mentioned Administration priority research 
areas that promise to strengthen the Nation's economy: the National 
Nanotechnology Initiative (NNI) and the Networking and Information 
Technology R&D program (NITRD). NSF-funded nanotechnology research, 
sustained at $397 million in FY 2009, a 165 percent increase since 
2001, has advanced our understanding of materials at the molecular 
level and has provided insights into how innovative mechanisms and 
tools can be built atom by atom. This emerging field holds promise for 
a broad range of developing technologies, including higher-performance 
materials, more efficient manufacturing processes, higher-capacity 
computer storage, and microscopic biomedical instruments and 
mechanisms. NSF's investments in NITRD, funded at $1.1 billion in 2009, 
up $159 million over 2008 and 71 percent since 2001, support all major 
areas of basic information technology (IT) research. NSF also 
incorporates IT advances into its scientific and engineering 
applications, supports using computing and networking infrastructure 
for research, and contributes to IT-related education for scientists, 
engineers, and the IT workforce. NSF will continue to support the 
development of a petascale computing capability widely accessible to 
the science and engineering community. A new $20 million cross-
Foundation investment that is part of both the NNI and NITRD, Science 
and Engineering Beyond Moore's Law, is a multidisciplinary effort to 
advance the fundamental science and technology of semiconductor 
electronics.
    The 2009 NSF Education and Human Resources (EHR) budget will 
continue efforts to prepare U.S. students for the science and 
engineering workforce with a 9 percent overall increase (+$65 million) 
over the level in the 2008 Omnibus. Specifically, the 2009 EHR budget 
provides a 5 percent increase for the Math and Science Partnerships 
program at NSF, and a 7 percent increase for the Noyce Scholarship 
program. NSF-wide Graduate Research Fellowships are proposed for a 32 
percent increase and will support an additional 700 graduate students.
    NSF's investment in Cyber-enabled Discovery (CDI), begun in FY 
2008, more than doubles for a total of $100 million in FY 2009. The CDI 
investment promotes the advancement of science and engineering along 
fundamentally new pathways opened by computational thinking.
    NSF will continue to fund research on cybersecurity foundations, 
network security, and systems software that supports the objectives of 
the Federal Plan for Cyber Security and Information Assurance Research 
and Development. Emphasis will be placed on usability, privacy, and 
theoretical foundations.

Department of Energy (DOE)
    DOE is the lead agency for the President's Advanced Energy 
Initiative (AEI). The 2009 AEI investment of $3.2 billion in energy-
related science and technology, a 25 percent increase over FY 2008 
enacted, will keep us on track to meet the President's goal of reducing 
greenhouse gas intensity 18 percent by 2012 and on an achievable path 
to energy independence. Perhaps most critically, the FY 2009 AEI 
includes over $788 million in basic research at DOE's Office of 
Science, a 55 percent increase, to overcome major technical barriers to 
the use of solar energy, cellulosic ethanol, energy storage, hydrogen 
fuel cells, and fusion energy, including critical commitment support 
for the ITER international fusion energy research project. Before 
leaving this topic I should note that ITER represents a long-term 
solution to an energy future without fossil fuel, and I was alarmed to 
learn that the FY 2008 Omnibus eliminated the U.S. contribution to this 
international project.
    The 2009 AEI budget proposes:

  <bullet> $588 million for the Coal Research Initiative, R&D focused 
        on coal gasification and carbon sequestration processes and 
        systems, including $156 million for the FutureGen program to 
        demonstrate these technologies;

  <bullet> $343 million for biomass R&D to help enable cellulosic 
        ethanol to become practical and competitive;

  <bullet> $225 million for solar R&D to accelerate development of 
        cost-effective photovoltaic materials;

  <bullet> $238 million for R&D on hydrogen production, storage, 
        distribution and use;

  <bullet> $103 million for R&D of hybrid electric systems including 
        $49 million for high-energy, high-power batteries for hybrid-
        electric and ``plug-in'' hybrid vehicles;

  <bullet> $53 million for wind energy research to help improve the 
        efficiency and lower the costs of wind technologies for use in 
        low-speed wind environments;

  <bullet> $30 million for geothermal research; and

  <bullet> $544 million for the GNEP and Nuclear Power 2010 initiatives 
        to demonstrate advanced fuel cycle technologies, to expand the 
        domestic use of nuclear power, and to provide for safe, 
        environmentally responsible global nuclear energy systems that 
        support nonproliferation objectives.

    Full funding of $215 million for the U.S. contribution to the ITER 
international fusion energy project is imperative to meet our 
international commitment.
    The Office of Science in DOE (DOE SC) is another of the three 
priority research agencies in the President's American Competitiveness 
Initiative, providing many of the major cutting-edge scientific 
facilities and labs for a wide range of basic research related to 
potentially significant economic innovations. The 2009 Budget provides 
$4.72 billion for DOE SC, an increase of 19 percent over the FY 2008 
omnibus. The budget includes funding for priorities such as 
nanotechnology ($300 million), materials science research facilities 
($719 million), basic research in support of hydrogen production, use 
and storage ($75 million), the advanced energy initiative including 
electrical battery storage and an advanced nuclear fuel cycle ($788 
million), and advanced scientific computing facilities and research 
($368 million). The budget also includes funding ($93 million) to begin 
construction of the National Synchrotron Light Source II, a new x-ray 
light source that will enable the study of materials properties and 
functions at a level of detail and precision (nanoscale) never before 
possible. It continues support for construction of the Linac Coherent 
Light Source ($37 million)--a materials research facility that will 
provide laser-like x-rays allowing an unprecedented real-time glimpse 
of chemical and biological processes, fully funds operations for the 
five nanoscale science research centers, and provides $29 million for 
the upgrade of the Continuous Electron Beam Accelerator Facility.
National Institute of Standards and Technology (NIST)
    The Department of Commerce's NIST ``core'' research and facilities 
receive $634 million in 2009, an increase of 22 percent over the 2008 
Omnibus after accounting for earmarks and unrequested grants. In 2009, 
the American Competitiveness Initiative proposes NIST funding increases 
of nearly $114 million for new initiatives in research and measurements 
in high-leverage areas such as nanotechnology manufacturing; expanding 
NIST's neutron facility to aid in characterizing novel materials in 
high-growth research fields; and improving our understanding of complex 
biological systems to accelerate innovations and enable investment in 
biosciences, including disease diagnosis and treatment.

Department of Education (ED)
    ED is the lead agency for academic competitiveness and the 
President requested the following under America COMPETES authority:

  <bullet> $95 million for the Math Now program which authorizes 
        competitive grants to improve instruction in mathematics for 
        students in kindergarten through 9th grade. Grantees will 
        implement research-based mathematics programs to enable all 
        students to reach or exceed grade-level achievement standards 
        and prepare them to enroll in and pass algebra courses.

  <bullet> $70 million under the America COMPETES Act for a new vision 
        for advanced placement, as embodied in the President's American 
        Competitiveness Initiative, the purpose of which is to support 
        state and local efforts to increase access to advanced 
        placement classes and tests for low-income students in order to 
        better prepare them for success after high school. The new 
        authority targets Federal support more specifically on the 
        preparation of teachers to teach classes in the critical 
        subjects of mathematics, science, and the critical foreign 
        languages, and on encouraging more students from high-need 
        schools to take and pass AP and IB courses and tests in those 
        subjects.

  <bullet> $24 million for Foreign Language Partnerships, which is part 
        of the Administration's National Security Language Initiative. 
        These funds would support partnerships between institutions of 
        higher education and school districts, in order to increase the 
        number of American students who are proficient in languages 
        that are critical foreign languages to national security.

    The President's American Competitiveness Initiative also called for 
the creation of an Adjunct Teacher Corps to support qualified math and 
science professionals to become adjunct high school teachers. The 
President's 2009 Budget requests $10 million for this program.
    Additionally, the President's National Mathematics Panel will issue 
the final report within the next month. The panel's recommendations 
will help teachers teach all K-7 students pre-algebraic concepts so 
that every student can take and pass more rigorous courses in middle 
and high school, particularly Algebra I in middle school and Algebra II 
in high school.
    Science, Technology, Engineering and Math (STEM) education programs 
in the COMPETES Act and ACI are but a small subset of the total number 
of such programs--roughly 100 at 12 Federal agencies for which the 
President is proposing $3.6 billion in FY 2009. The 12 agencies are 
continuing to work together to implement the recommendations of the 
Academic Competitiveness Council to improve coordination and 
effectiveness of these STEM education investments.

National Aeronautics and Space Administration (NASA)
    The President's 2009 Budget for NASA is $17.6 billion, a 3 percent 
increase over FY 2008, reflecting a steady commitment by the 
Administration to the continued pursuit of the Vision for Space 
Exploration and to using the Shuttle to assemble the International 
Space Station until the Shuttle retires in 2010. Maintaining NASA 
budget appropriations is extremely important for the continued 
viability of its programs.
    In 2009, NASA requests $3.5 billion in direct costs for exploration 
systems including the Orion Crew Exploration Vehicle (CEV) and the Ares 
I launch vehicle that will carry astronauts to the Moon. 2009 will see 
the Ares I-X test flight, the first test flight of the Ares I launch 
vehicle. Ares I-X will involve a first stage with a functional four 
segment solid rocket booster and an inactive fifth segment, and an 
upper stage mass simulator. Ares I-X will test first-stage flight 
dynamics, controllability, and separation of the first and upper 
stages. Having already initiated the acquisition process for certain 
elements of this architecture during 2006, NASA now has all Orion CEV 
and Ares I elements under contract with the first crewed-flight planned 
to occur in 2015.
    The 2009 Budget requests $4.44 billion in direct costs to continue 
operating the nearly 60 spacecraft of NASA's Science Mission 
Directorate and to support investments in future Earth and space 
science missions, vital technologies, and frontier research. NASA will 
launch seven new Earth observing missions in the next several years, 
including projects such as the Landsat Data Continuity Mission and the 
Global Precipitation Measurement mission. In a significant new 
initiative, NASA also will embark upon a series of high-priority, 
space-based Earth observing missions, informed by the recommendations 
of the National Research Council's recent Decadal Survey on Earth 
Sciences. At the same time, NASA will continue its roles in the 
interagency Climate Change Science Program and the international 
initiative on the Global Earth Observing System of Systems. NASA will 
expand its program of scientific exploration of the Moon through a new 
series of low-cost robotic missions that will advance our knowledge of 
Earth's closest neighbor as we prepare for a human return to the Moon. 
Following up ongoing missions to Mars, Saturn and Mercury, NASA also 
will send ever-more-capable spacecraft to Mars and other outer planets. 
In addition, NASA will continue its vibrant astrophysics and astronomy 
efforts through programs such as Beyond Einstein and the Great 
Observatories, and will upgrade the Hubble Space Telescope in late 2008 
to provide five more years of productive on-orbit life. NASA also will 
maintain its important heliophysics research through projects such as 
the Radiation Belt Storm Probes.
    In December 2007, the President approved the Nation's first 
National Plan for Aeronautics R&D and Related Infrastructure. 
Consistent with this Plan, the 2009 NASA aeronautics budget prioritizes 
fundamental aeronautics research, the improvement of aviation safety, 
and research supporting the development of the Next Generation Air 
Transportation System. In addition, NASA will continue to address 
infrastructure upgrades and maintenance requirements for aeronautical 
test facilities across NASA centers that are of vital importance to the 
Nation. The 2009 budget requests $447 million for NASA aeronautics 
direct costs.

National Oceanic and Atmospheric Administration (NOAA)
    For NOAA in the Department of Commerce, the 2009 Budget provides 
$383 million for Oceanic and Atmospheric Research (OAR), 22 percent 
more than in FY 2001. OAR provides for ongoing research on climate, 
weather, air quality, and ocean processes.
    The FY 2009 NOAA budget again requests $20 million for oceans 
science and research (with another $20 million from NSF and USGS) as 
part of a $40 million interagency effort to implement the Ocean 
Research Priorities Plan called for in the President's U.S. Ocean 
Action Plan. Unfortunately, the 2008 Omnibus provided about 25 percent 
of the $40 million requested. Nevertheless, the President remains 
committed to enhancing ocean science that will make our oceans, coasts 
and Great Lakes cleaner, healthier and more productive and is again 
requesting new funding to support efforts in these areas. The $20 
million will address the four near-term ocean research priorities 
established by the Ocean Research Priorities Plan and Implementation 
Strategy, published in January 2007. The NOAA budget also proposes $8 
million to continue extended continental shelf scientific analysis to 
define and map its U.S. outer limits and an additional $21 million to 
develop an operational ocean monitoring network.

National Institutes of Health (NIH)
    The budget sustains biomedical research at the current FY 2008 
level of $29.3 billion in the FY 2009 NIH budget. The budget includes 
an additional $38 million, an 8 percent increase, for the NIH Common 
Fund, bringing the total to $534 million for this interdisciplinary 
incubator for new ideas and initiatives that will accelerate the pace 
of discovery across the NIH Institutes and Centers. The 2009 Budget 
also includes increased funding to assist young scientists as they 
begin their independent research careers. The Pathway to Independence 
program is funded at a total of $71 million to lower the age at which 
young scientists get their first grant award and to encourage future 
generations to pursue careers in science. With the 2009 Budget, NIH 
discretionary budget authority is up $8.9 billion since FY 2001; that's 
44 percent--more than the 31 percent average for overall Federal S&T.

U.S. Geological Survey (USGS)
    The FY 2009 request for the USGS in the Department of the Interior 
is $969 million, 10 percent more than FY 2001. The USGS portion of the 
Landsat Data Continuity Mission remains steady at $24 million, while a 
new National Landsat Imaging Program office is established. $31 million 
is targeted for climate change; an $8 million increase is proposed for 
the Water for America initiative, including a national water census; 
and for the interagency ocean science initiative referred to in NOAA, 
$3 million is requested for the Ocean Research Priorities Plan and $4 
million for extended continental shelf mapping. Since State and local 
governments, industry and universities should pay for their own mineral 
assessment products, the Minerals Resources Program is again proposed 
for reduction by half to $25 million and accounts for most of the 
difference with FY 2008.

Environmental Protection Agency (EPA)
    The FY 2009 budget for science and technology funding at EPA is 
$790 million, $4 million more than FY 2008. Research priorities include 
supporting the agency's nanotechnology program, funded at $15 million, 
an increase of $5 million over 2008 enacted. Additionally, to ensure 
EPA's ability to attract and retain the highest caliber scientists, the 
budget proposes expanded special authority that will allow EPA to hire 
up to 40 scientists quickly and competitively. $35 million is also 
requested to support high priority Water Security activities.

Department of Agriculture (USDA)
    USDA science and research programs total $1.95 billion in the 2009 
Budget, a $235 million reduction from FY 2008 mostly due to the removal 
of earmarks and lower priority projects and a reduction of formula 
grants. Still at 9 percent more than FY 2001, the Administration favors 
competitive research grants which are allocated based on an objective 
peer-reviewed process. This is reflected in a requested 74 percent 
increase for the National Research Initiative since FY 2001.

Department of Transportation (DOT)
    The FY 2009 Budget request for highway-related research is $430 
million, the same as current funding and consistent with the level in 
the multi-year surface transportation research authorization. Highway 
research includes the Federal Highway Administration's transportation 
research and technology contract programs as well as some programs 
administered by the Research and Innovative Technology Administration. 
These research programs include the investigation of ways to improve 
safety, reduce congestion, improve mobility, reduce life-cycle 
construction and maintenance costs, improve the durability and 
longevity of highway pavements and structures, enhance the cost-
effectiveness of highway infrastructure investments, and minimize 
negative impacts on the natural and human environment.
    The 2009 Budget request for Federal Aviation Administration (FAA) 
Research, Engineering, and Development is $171 million, 16 percent more 
than current funding and includes $56.5 million focused on the 
advancement of the Next Generation Air Transportation System (NextGen). 
FAA's Air Traffic Organization account also includes $41.4 million for 
NextGen R&D. This NextGen R&D is coordinated by the inter-agency Joint 
Planning and Development Office.
    In addition, the 2009 Budget requests $12 million for the Research 
and Innovative Technology Administration to coordinate and advance the 
pursuit of transportation research that cuts across all modes of 
transportation, such as hydrogen fuels, global positioning and remote 
sensing. DOT research programs also support the National Nanotechnology 
Initiative, the U.S. Climate Change Technology Program, and the 
President's Hydrogen Fuel Initiative.

Department of Defense (DOD)
    DOD's FY 2009 R&D budget (including pay for military personnel 
engaged in the research, development, test and evaluation enterprise) 
is over $80 billion. This level of funding will support the 
Department's transforming commitment to reorient its capabilities and 
forces for greater agility, while enabling effective responses to 
asymmetric and uncertain challenges of future conflicts. These funds 
will also help address emergent threats through countermeasures to 
biological agents and novel technologies to detect and neutralize 
improvised explosive devices, mines, rockets and mortars.
    The Science and Technology (S&T) component of the overall DOD R&D 
budget includes basic research (6.1), applied research (6.2), and 
advanced technology development (6.3). At $11.5 billion in the 2009 
Budget, DOD S&T exceeds the 2001 enacted level by $2.5 billion. From 
2000 to 2008, Congressional ``adds''--almost all of which would be 
classified as earmarks according to Congress' and the Administration's 
definitions--to DOD S&T quadrupled. For 2008, there were 999 adds 
(totaling over $2.3 billion) that must be identified and tracked down, 
advertised in a way specific to the Congressional mark, evaluated, 
negotiated and awarded, all separate from other potential awards. This 
means that those awards consume several times the staff and management 
resources of the average research award, and may not even target a 
military-specific research need. The large number of such additions 
creates impediments to the creation of effective research programs 
throughout the Department, and, when seen in the big picture, should be 
cause for concern to Congress as well as to the Administration.
    A record $1.7 billion is provided for DOD basic research (6.1) in 
2009. That's $270 million or 19 percent above the 2008 request, 
consistent with the ACI and the FY 2009 OSTP-OMB Federal R&D Priorities 
Memorandum. $1.7 billion is also $65 million over the nominal basic 
research (6.1) appropriated level in FY 2008 even with non-program 
earmarks included. In the 2009 Budget, DOD basic research represents 
14.8 percent of the DOD S&T budget, more than last year's 13.3 percent 
share.

Department of Homeland Security (DHS)
    The President's FY 2009 request includes $869 million for the DHS 
Directorate of Science and Technology. $564 million is also requested 
for the Domestic Nuclear Detection Office, $79 million or 16 percent 
over FY 2008 funding. R&D continues to play a key role in securing the 
Nation against the terrorist threat. The President's 2009 Budget 
maintains an aggressive investment in scientific research, technology 
development, and research infrastructure aimed at continuing to enhance 
our Nation's security. Priority research areas include: $360 million 
government-wide in transformational R&D aimed at enhancing our ability 
to detect, identify, prevent and attribute nuclear and radiological 
materials; $96 million at DHS for explosives countermeasures research; 
$691 million in USDA, HHS and DHS to improve food and agriculture 
defense, and $280 million government-wide to fund cyber security and 
information assurance R&D.

Conclusion
    Making choices is difficult even when budgets are generous, but 
tight budgets require focused priorities and strong program management. 
This year's R&D budget proposal provides robust levels of investment 
that allow America to maintain its leadership position in science and 
move ahead in selected priority areas. The ACI properly focuses R&D 
investments in areas that will increase our economic competitiveness.
    America leads all nations in research and development expenditures. 
In 2006, U.S. R&D investment at $340 billion exceeded that of all the 
other G7 nations combined. After a worldwide slowing in R&D 
expenditures in the early 1990s, R&D spending rebounded in the late 
1990s, with the United States experiencing the most robust growth. Our 
scientists collectively have the best laboratories in the world, the 
most extensive infrastructure supporting research, the greatest 
opportunities to pursue novel lines of investigation, and the most 
freedom to turn their discoveries into profitable ventures if they are 
inclined to do so. Combined with the merit review process that has 
ensured the quality of American science in the past half century, these 
factors make American science the strongest in the world.
    This budget will sustain this leadership and maintain science and 
technology capabilities that are the envy of the world. I ask that 
Congress fully fund the R&D initiatives advanced in the President's 
2009 Budget.
    I would be pleased to respond to questions.

                              Attachment 1

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              Attachment 2

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              Attachment 3

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              Attachment 4

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              Attachment 5

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              Attachment 6

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Kerry. Thanks very much. I appreciate it.
    Dr. Bement?

   STATEMENT OF DR. ARDEN L. BEMENT, JR., DIRECTOR, NATIONAL 
                       SCIENCE FOUNDATION

    Dr. Bement. For the 2009 fiscal year, NSF proposes an 
investment of $6.85 billion to advance the frontiers of science 
and engineering research and education. Our budget request 
includes an increase of $789 million or 13 percent over Fiscal 
Year 2008. This increase is necessary to put NSF back on the 
course that was charted by the America COMPETES Act and the 
President's American Competitiveness Initiative. This budget 
reflects the Administration's continued resolve to double 
overall funding for the NSF within 10 years.
    Let me begin by expressing my sincere appreciation of this 
subcommittee's support for the America COMPETES Act. I would 
also like to thank you for recognizing the importance of our 
agency operations in the Agency Operations and Award Management 
Account in the 2008 Omnibus Appropriation. Our stewardship 
activities allow us to serve award recipients with tools, such 
as the new grants management website, Research.gov.
    The timing of this testimony coincides with a period of 
economic uncertainty in our country. I have come here today to 
tell you that an investment in the National Science Foundation 
is an investment in America's economic security.
    NSF provides the two essential ingredients of a healthy 
high-tech economy: basic research discoveries and a highly 
trained workforce. For over 50 years, NSF has been the 
foundation of innovation, fostering great ideas and the great 
minds who discover them. NSF discoveries have led to many of 
the technological innovations you and I take for granted today 
and yet for Fiscal Year 2008, NSF's budget increase fails to 
keep up with inflation.
    By contrast, other nations of the world are steadily 
increasing their investments in STEM education and basic R&D. I 
assure you multinational companies will have no problem 
relocating their operations to the countries where they can 
find the best trained workforce and the latest research ideas.
    The world is changing. Lead times for new products are 
shrinking. Now more than ever, basic research discoveries are 
essential to keeping the wheels of innovation turning in 
America's high-tech companies. It is not merely enough to 
maintain the Federal R&D investment status quo. It is our 
solemn obligation to keep up with corporate America's demand 
for innovative people and ideas.
    At NSF, we are responsive to emerging potentially 
transformative areas of research. I would like to highlight 
some of our new cross-cutting multidisciplinary initiatives. We 
created these initiatives in response to the input that we 
received from the research communities we serve.
    We request $100 million to continue Cyber-enabled Discovery 
and Innovation, our bold two-year initiative to apply 
revolutionary computational tools and concepts to all fields of 
science, engineering and education.
    Our request includes $20 million for Science and 
Engineering Beyond Moore's Law. This initiative aims to 
position the United States at the forefront of communications 
and computation, moving us beyond the limitations of current 
systems.
    We are requesting $15 million to fund Adaptive Systems 
Technology, our new effort aimed at using all aspects of 
biological science to inspire transformative new technologies.
    Our request of $10 million for the Dynamics of Water 
Processes in the Environment initiative will bring together 
researchers from various disciplines to enhance our ability to 
understand the complexities of freshwater systems of regional 
and local waters.
    In addition to our ongoing efforts in transformative 
research, we believe that a truly competitive workforce is one 
that reflects the full potential and diversity of the American 
people themselves. Our efforts to broaden participation in 
science and technology target students at all educational 
levels and from all geographic areas.
    We train the Nation's skilled workforce by providing 
research opportunities for undergraduates, graduate students 
and postdocs. We research and evaluate effective STEM curricula 
for the Nation's K-12 classrooms and provide opportunities for 
teacher education, and we develop innovative programs for 
informal science and technology learning for students young and 
old, in museums, through the mass media, and through our 
outreach activities that touch the imaginations of millions of 
Americans.
    Mr. Chairman, time does not permit me to describe the other 
numerous activities NSF sponsors to strengthen and support our 
Nation's science and technology research and education. NSF's 
relatively small size belies its catalytic impact on all 
sectors of the economy.
    I'm hardpressed to think of another example in which the 
taxpayers derive such a tremendous return on investment.
    Thank you for extending me the invitation to speak with 
this subcommittee today, and I look forward to answering your 
questions.
    [The prepared statement of Dr. Bement follows:]

       Prepared Statement of Dr. Arden L. Bement, Jr., Director, 
                      National Science Foundation

    Chairman Kerry, Ranking Member Ensign, and members of the 
Subcommittee, I am pleased to present the National Science Foundation's 
budget for the 2009 fiscal year.
    The National Science Foundation (NSF) proposes a Fiscal Year 2009 
investment of $6.85 billion to advance the frontiers of research and 
education in science and engineering. Our budget request includes an 
increase of $789 million--or 13 percent--over the current Fiscal Year 
2008 amount. This increase is necessary to put NSF back on the course 
that was charted by the President's American Competitiveness Initiative 
(ACI) and by the America COMPETES Act. This year's budget reflects the 
Administration's continued resolve to double overall funding for the 
ACI research agencies within 10 years.
    An investment in the National Science Foundation is a direct 
investment in America's economic security. In fact, without a solid 
basic research foundation for our high-tech economy, no economic 
security is possible. Basic research underpins all of the technology 
that constitutes the lifeblood of today's global market. America's 
sustained economic prosperity is based in part on technological 
innovation resulting from previous fundamental science and engineering 
research. Innovation and technology are engines of the American 
economy, and advances in science and engineering provide the fuel.
    While the United States still leads the world in its level of 
public and private R&D investment, our counterparts around the globe 
are well aware of the importance of funding R&D. A string of recent 
reports have found evidence that China is rapidly accruing global 
technological standing, including an OECD finding that China was set to 
become the second-highest investor in R&D among world nations in 2006, 
behind only the United States.\1\ \2\ \3\ Over the last two decades, 
U.S. Federal support of research in the physical sciences, mathematics, 
and engineering has been stagnant when adjusted for inflation. As a 
percentage of GDP, the U.S. Federal Government has halved its 
investment in physical science and engineering research since 1970. 
Conversely, the Chinese government has more than doubled its GDP 
percentage expenditure in R&D since 1995.\3\
---------------------------------------------------------------------------
    \1\ http://www.oecd.org/document/26/
0,2340,en_2649_201185_37770522_1_1_1_1,00
.html.
    \2\ http://www.tpac.gatech.edu/hti2007/HTI2007ReportNSF_012208.pdf.
    \3\ http://www.nsf.gov/statistics/nsf07319/pdf/nsf07319.pdf.
---------------------------------------------------------------------------
    More than a dozen major studies have now concluded that a 
substantial increase in Federal funding for basic scientific research 
is critical to ensure the preeminence of America's scientific and 
technological enterprise.
    Just recently, Norman Augustine, former CEO of Lockheed Martin, 
released a follow-up to ``The Gathering Storm'' report entitled, ``Is 
America Falling Off the Flat Earth?'' His message is clear: ``Unless 
substantial investments are made to the engine of innovation--basic 
scientific research and development--the current generation may be the 
first in our country's history to leave their children and 
grandchildren a lower sustained standard of living.'' \4\
---------------------------------------------------------------------------
    \4\ Augustine, Norman. Is America Falling off the Flat Earth? 
National Academies Press.
---------------------------------------------------------------------------
    For over fifty years, NSF has been a steward of the Nation's 
science and engineering enterprise. NSF investments in discovery, 
learning, and innovation have been important to increasing America's 
economic strength, global competitiveness, national security and 
overall quality of life.
    With its relatively small size, NSF delivers an enormous ``bang for 
the buck'' of Federal Government research and development (R&D) 
investment. NSF represents just 4 percent of the total Federal budget 
for research and development, but accounts for a full fifty percent of 
non-life science basic research at academic institutions. NSF is the 
research funding lifeline for many fields and emerging interdisciplines 
at the frontiers of discovery. In fact, NSF is the only Federal agency 
that supports all fields of basic science and engineering research.
    NSF relies on a merit-based, competitive process that is critical 
to fostering the highest standards of excellence and accountability--
standards that have been emulated at other funding agencies around the 
world.

NSF Supports American Innovation
The Foundation of Innovation
    NSF often funds a technology in its earliest stages, frequently 
before other agencies or industries get involved. NSF funding was 
involved in the developmental phase of the technology used in magnetic 
resonance imaging (MRI) now ubiquitous in diagnostic medicine, the 
research that led to the development of silicon-coated glass used in 
flat panel displays, and the early investigations that led to green and 
blue light-emitting diodes used in cell phone displays and traffic 
lights. In 1952, Caltech professor Max Delbruck used one of NSF's first 
grants to invent molecular biology techniques that enabled one of his 
students, James Watson, to discover the molecular structure of DNA, and 
another Nobel laureate, David Baltimore, to unravel some of its 
mysteries.
    In a more recent example, NSF CAREER awardee Jay Keasling, now the 
head of the NSF-sponsored Synthetic Biology Engineering Research Center 
at the University of California-Berkeley, and two postdoctoral 
researchers from his lab founded Amyris, a company that is taking a 
revolutionary approach to chemical manufacturing by harnessing 
metabolic processes in microorganisms. Through genetic engineering, the 
researchers ``program'' the microbes to churn out useful chemicals, 
bypassing traditional, more expensive methods. Amyris has engineered a 
strain of yeast that can produce large quantities of artemisinic acid, 
a precursor to a compound found naturally in a plant that fights 
malaria but is currently in short supply. Amyris is also developing a 
fermentation process to deliver a biofuel gasoline substitute. NSF 
funding of the early research conducted at Berkeley enabled the 
discoveries that led to this promising new company, named 2007 
``Business Leader of the Year'' by Scientific American magazine.
    NSF as an agency is itself the origin of transformative practices. 
One new NSF innovation is Research.gov, which is fulfilling our vision 
of a seamless interface between government funding agencies and the 
investigators we support. Research.gov is a one-stop shop, where 
researchers can go to manage their existing portfolio of grants and 
explore new opportunities. Research.gov is a tool that streamlines the 
process of applying for Federal grants, making it easier and more cost-
effective for the Federal Government to serve its customers.

Educating Tomorrow's Workforce
    Beyond all of our efforts to advance the frontiers of knowledge and 
spur innovation, NSF is dedicated to educating and training the 
Nation's skilled labor force. NSF plays a role in science, technology, 
engineering, and math (STEM) education at every educational level. Our 
contribution to education may ultimately be NSF's most profound and 
meaningful legacy.
    The scientists, technologists, engineers, and mathematicians 
trained through NSF's integration of research and education transfer 
the latest scientific and engineering concepts from universities 
directly to the entrepreneurial sector when they enter the workforce.
    Our graduate research fellowship (GRF) program has supported 
several notable technologists and scientists early in their 
professional training. Prominent economist Steven Levitt, co-author of 
the popular book Freakonomics, was an NSF GRF recipient from 1992 to 
1994. Sergey Brin, co-founder of Google, was an NSF graduate research 
fellow in the mid-1990s when he began thinking about how to create an 
Internet search engine. NSF's GRF program is as old as the foundation 
itself, and gives young scientists an early career charge, allowing 
them to go on to greatness. At least three Physics Nobel Prize winners 
are former NSF GRF recipients. We are extremely pleased with the 
proposed $29 million increase in the GRF program's funding for Fiscal 
Year 2009 which will enable us to fund an additional 700 promising 
young American investigators. A recent article from the National Bureau 
of Economic Research suggests that an increase in the number of GRF 
awards would help to supply an increased demand for talented 
individuals in the American science and technology workforce that will 
result from an increase in R&D spending.\5\
---------------------------------------------------------------------------
    \5\ Freeman, Richard. The Market for Scientists and Engineers. NBER 
Reporter, 2007, No. 3, pp. 6-8.
---------------------------------------------------------------------------
    At some point in their careers, nearly 200 Nobel Prize-winning 
scientists received NSF funding for research in chemistry, physics, 
medicine, and economics. And scores of NSF-supported scientists shared 
a measure of the 2007 Nobel Peace Prize as members of the United 
Nation's Intergovernmental Panel on Climate Change.
    To strengthen the educational institutions that benefit from NSF 
awards, the Directorate for Education and Human Resources (EHR) 
program, Innovation through Institutional Integration (I3), challenges 
institutions to think strategically about the creative integration of 
NSF-funded awards. This provides the opportunity for NSF-grantees at 
particular institutions to cooperate and share a common vision for 
improved educational excellence at their institution.

America COMPETES Act Compliance
    The America COMPETES Act contains several requirements for NSF. We 
are actively processing those directives and devising plans to 
implement them in a timely manner. In the FY 2009 request, activities 
that overlap with the President's American Competitiveness Initiative 
receive top priority. These priority areas do include strong links to 
other fields, and our request includes across-the-board increases for 
all directorates.
    We are currently evaluating how to best ramp up the Robert Noyce 
Teacher Scholarship Program to bring an infusion of talented teachers 
into the Nation's K-12 education system. To launch such a large-scale 
program, we will carefully evaluate what we need to do to maximize its 
societal impact and success. We will apply what we have learned from 
our other successful scholarship programs to ensure the program is 
administered in the best possible way.
    We are also working how best to evaluate grant applicants' plans 
for training undergraduates, graduate students, and postdocs in 
responsible and ethical conduct of research. A number of our programs 
including our Centers and the Integrative Graduate Education and 
Research Traineeship (IGERT) program already contain ethics components. 
We will add a new certification requirement for institutions, which 
will require the institution to have a plan in place to provide 
appropriate training and oversight in the responsible and ethical 
conduct of research for all undergraduates, graduate students, and 
postdocs participating in the NSF-funded research project.
    Open access to research results is an essential component of a 
strong and healthy scientific enterprise. We currently make available 
the citations of NSF-funded research on both the NSF website and on 
Research.gov. To further the goal of disseminating the results of NSF-
funded research, we will develop revised reporting guidelines for NSF 
principle investigators (PIs). These guidelines will enable the PIs to 
summarize the key accomplishments of their NSF-funded work, including 
scientific findings, student training, and professional development 
activities. This information will be made available on the NSF website.

2009 Budget Request Highlights
    At NSF, we understand that new discoveries are the main driving 
force behind societal progress. As the Nation's premier funding agency 
for basic research, our mission is to advance the frontiers of 
knowledge, where high-risk, high-reward research can lay the foundation 
for revolutionary technologies and tackle complex societal problems. 
The NSF budget for 2009 reflects this vital agenda, and I'm pleased to 
present it to you today.
    Let me begin with the big picture. As noted earlier, the President 
is requesting $6.85 billion for the NSF in FY 2009. That's an increase 
of almost $789 million, or 13 percent above the current 2008 
appropriated amount. While it seems like a large increase, this level 
is necessary to fulfill the President's vision for physical science and 
basic research set forth in the American Competitiveness Initiative. 
The FY 2009 request is squarely in line with the goal of doubling of 
ACI research agency budgets over 10 years. This increased investment 
will reinforce NSF's leadership in basic science and engineering and 
allow us to preserve America's preeminence in the global technology 
economy.
    In this year's proposed budget, funding levels increase for every 
major NSF appropriations account. Research and Related Activities 
investments increase by 16 percent, and our Education and Human 
Resources account is increased by 8.9 percent. We need rapid progress 
in these areas to stimulate the discoveries in research we need to 
maintain our standing in the global marketplace, and to keep our 
students engaged and ready to perform in the global workforce. Our 
budget includes increases for every Directorate and Office within NSF.
    Here are highlights of some of the key investments we are 
emphasizing in our 2009 budget.

Cyber-enabled Discovery and Innovation
    Cyber-enabled Discovery and Innovation (CDI) is expected to create 
revolutionary science and engineering research results using 
``computational thinking''--thinking that encompasses all possible 
computational concepts, methods, models, algorithms, and tools. 
Computational thinking is relevant to all fields of science, 
engineering and education, and promises to have a profound impact on 
our Nation's ability to generate and apply new knowledge. We expect CDI 
research to produce paradigm shifts in our understanding of a wide 
range of science and engineering phenomena, and we anticipate socio-
technical innovations to create new wealth and enhance the national 
quality of life. By investing in CDI, NSF continues its leadership in 
enabling the United States to preserve its role as the world leader in 
information technology.

Requested Funding Level: $100 million
Science and Engineering Beyond Moore's Law
    ``Moore's Law'' refers to the empirical observation made in 1965 by 
Intel co-founder Gordon Moore that the speed of computer processing 
based on semiconductor integrated circuits doubles about every 18 
months. With current silicon technology, we expect to reach the 
physical and conceptual limits of Moore's Law within 20 years. If we 
are ever to solve the computational challenges inherent in today's 
great scientific questions, we must find a way to take computing power 
and communications beyond Moore's Law. To get there, we'll need 
entirely new scientific, engineering, and conceptual frameworks. 
Fundamental research across many disciplines will be called upon to 
deliver the new hardware, architectures, algorithms, and software of 
the computers of tomorrow.

Requested Funding Level: $20 million
Adaptive Systems Technology
    Recent progress in probing the secrets of biological systems has 
been explosive. We are only just beginning to see the application of 
these new and transformational discoveries to the development of 
engineered systems, especially at the interface between human and 
machines. We call our new interdisciplinary endeavor--research at the 
convergence of human and mechanical systems--Adaptive Systems 
Technology (AST). New applications and technologies resulting from AST 
have already demonstrated substantial economic potential. Artificial 
retinas and cochlea, electronic language translators, and smart hand-
held electronics are just a handful of the products that have already 
come to market at the human-machine interface. NSF's broad portfolio 
encompasses the diverse research areas involved in this new 
interdisciplinary effort. Biologists uncover nature's progression from 
simple to complex nervous systems; physicists and chemists explain the 
fundamental processes underlying complex neural organization and 
communication pathways; mathematicians, computer scientists and 
cognitive scientists explore how systems compute; learning and 
behavioral scientists provide insights into how organisms learn and 
adapt to their environment; while engineers allow the design, analysis 
and construction of systems that mimic living nervous system networks. 
By working together, these scientists and engineers can benefit from 
the knowledge and experience of experts in other fields, developing new 
concepts through collaboration and idea-sharing.

Requested Funding Level: $15 million
Dynamics of Water Processes in the Environment
    This activity will build upon NSF's considerable track record on 
fundamental water research, while utilizing our unique ability to cross 
disciplinary boundaries to bring together the separate communities of 
researchers working on the varying aspects of water science. Water is 
fundamental to every economic activity in the country, and yet, we do 
not have a full understanding of the effects of human interventions and 
changing environmental conditions on the availability and quality of 
fresh water. The economic driving forces for understanding water 
processes are compelling: droughts alone cause average damages of $6 to 
$8 billion dollars annual in the United States. Understanding water 
dynamics is also essential to understanding climate and environmental 
change. NSF's investment in Dynamics of Water Processes in the 
Environment will enhance our ability to understand complex freshwater 
systems at regional and local levels, taking advantage of advanced 
observation networks, cyberinfrastructure, and integrated data bases.

Requested Funding Level: $10 million
National Nanotechnology Initiative
    NSF leads the U.S. nanotechnology research effort, and we remain 
strongly committed to supporting this vital emerging industry. Our goal 
is to support fundamental research and catalyze synergistic science and 
engineering research and education in emerging areas of nanoscale 
science and technology. We are also committed to research directed at 
the environmental, health, and safety impacts of nanotechnology. Novel 
materials, devices, and systems--with their building blocks designed on 
the scale of nanometers--open up new directions in science, 
engineering, and technology with potentially profound implications for 
society. With the capacity to control and manipulate matter at this 
scale, science, engineering, and technology are realizing revolutionary 
advances in areas such as individualized pharmaceuticals, new drug 
delivery systems, more resilient materials and fabrics, catalysts for 
industry, and order-of-magnitude faster computer chips.

Requested Funding Level: $397 million
Climate Change Science Program
    Scientists predict that the climate of the earth is changing 
rapidly, and we have much to learn about how climate affects human 
activities, how human activities affect climate, and what we can do to 
protect human life and health in the face of disruptive climate events. 
The Climate Change Science Program (CCSP) was established in 2002 in 
response to the challenge of understanding climate and climate 
variability. Science-based knowledge is absolutely essential to our 
ability to predict the changes that are likely to take place, and 
devise informed plans to mitigate the negative impacts of climate 
change on humanity. The CCSP engages thirteen U.S. agencies in a 
concerted interagency program of basic research, comprehensive 
observations, integrative modeling, and development of products for 
decision-makers. Consistent with the FY 2009 Interagency Implementation 
Priorities memo, NSF provides support for the broad range of 
fundamental research activities that form a sound basis for other 
mission-oriented agencies in the CCSP, and the Nation at large.
    Building on our agency's particular strengths, NSF encourages 
interdisciplinary activities and focuses particularly on Earth system 
processes and the consequences of change. Our priorities include the 
management of enormous amount of data necessary for accurate global 
change modeling and research, the refinement and improvement of 
computational models, and the development of new, innovative earth 
observing instruments and platforms.

Requested Funding Level: $221 million
International Science and Engineering
    International collaboration is essential to the health of the 
Nation's research enterprise. The importance of international 
partnership continues to increase as globalization ``shrinks'' our 
world. Consequently, our funding request for the Office of 
International Science and Engineering is increased by nearly 15 percent 
to $47.4 million. A major focus in our budget is the Partnerships for 
International Research and Education (PIRE) program, which increases by 
$3.0 million to $15.0 million. This program funds innovative, 
international collaborative research projects that link U.S. 
institutions and researchers at all career levels with premier 
international collaborators to work at the most promising frontiers of 
new knowledge.

Broadening Participation
    NSF remains a leader in efforts to broaden participation in science 
and engineering, so that America's science and engineering enterprise 
is as diverse as the Nation from which it draws its workforce. Our 2009 
request for the Experimental Program to Stimulate Competitive Research 
(EPSCoR) program increases to $113.5 million. We are also increasing 
our request for several programs designed to reach out to 
underrepresented groups, including Alliances for Graduate Education and 
Professoriate (AGEP), the Historically Black Colleges and Universities-
Undergraduate Program (HBCU-UP), the Louis Stokes Alliances for 
Minority Participation (LSAMP), and Centers of Research Excellence in 
Science and Technology (CREST).

Enhancing Opportunities for Beginning Researchers (CAREER)
    The 2009 request provides an increase of approximately $14 million 
for funding of the CAREER program. This increase will allow us to award 
some 34 more CAREER awards than in FY 2008. CAREER awards support 
exceptionally promising college and university junior faculty who are 
committed to the integration of research and education. Our experience 
with previous CAREER awardees has proven that these faculty become the 
research leaders of their respective fields, and this program is vital 
to fostering the success of emerging science and technology leaders.

Requested Funding Level: $182 million
Stewardship
    NSF's Stewardship goal, to support excellence in science and 
engineering research and education through a capable and responsive 
organization, remains a priority in the 2009 budget, with a 13 percent 
increase to $404.3 million. Our request increases the NSF workforce by 
50 staff to enable us to manage our growing and increasingly complex 
workload. Investments in information technology (IT) increase by 32 
percent to $82.0 million, with an emphasis on increasing the 
efficiency, productivity, and transparency of NSF's business processes. 
In this request, NSF's IT portfolio is realigned to tie funding for 
mission-related activities more directly to NSF's programs.

Requested Funding Level: $404 million
Major Research Equipment and Facilities Construction (MREFC) Account
    NSF will continue to support a portfolio of ongoing projects in the 
Major Research Equipment and Facilities Construction account (MREFC), 
including the Atacama Large Millimeter Array, Ice Cube, and Advanced 
LIGO.
    The Foundation continues to be committed to the Alaska Regional 
Research Vessel (ARRV), the National Ecological Observatory Network 
(NEON), and the Ocean Observatories Initiative (OOI). However, in 
keeping with new NSF policies, Administration and Congressional 
mandates, and guidance from the National Science Board, NSF has adopted 
more stringent budget and schedule controls to improve our stewardship 
of taxpayer dollars. We are postponing requests for additional funding 
for those projects until they have undergone a final design review, 
completed a risk management plan, and developed a rigorous baseline 
budget, including carefully considered contingencies.
    NSF's MREFC portfolio includes late-stage design-phase funding for 
the proposed Advanced Technology Solar Telescope (ATST), which if 
carried into the construction phase would be the first large U.S. solar 
telescope built in the past 30 years. ATST would reveal critical 
information needed to explore crucial mysteries such as: What are the 
mechanisms responsible for solar flares, coronal mass ejections and 
space weather, with their associated impact on satellites, 
communications networks, and power grids? What are the processes that 
cause solar variability and its impact on the Earth's climate and 
evolution? The ATST project is managed by the National Solar 
Observatory, which administers the world's leading collection of solar 
telescopes.

Requested Funding Level: $2.5 million
Concluding Remarks
    Mr. Chairman, I've touched on just a handful of programs found in 
NSF's diverse and vibrant portfolio. NSF's research and education 
activities support the Nation's innovation enterprise. America's 
present and future strength, prosperity and global preeminence depend 
directly on fundamental research. This is not merely rhetoric; the 
scientific and economic record of the past 30 years is proof that an 
investment in R&D is an investment in a secure future.
    NSF may not be the largest agency that funds science and 
engineering research, but our size serves to keep us nimble. Our 
portfolio is continually evolving as we identify and pursue new 
research at the frontiers of knowledge. An essential part of our 
mission is to constantly re-think old categories and traditional 
perspectives. This ability is more important than ever, as conventional 
boundaries constantly shift and disappear--boundaries between nations, 
between disciplines, between science and engineering, and between what 
is basic and what is applied. NSF, with its mandate to support all 
fields of science and engineering, is uniquely positioned to meet the 
needs of researchers exploring human knowledge at these interfaces, 
whether we're organizing interdisciplinary conferences, enabling cyber-
sharing of data and information, or encouraging new collaborations and 
partnerships across disciplinary and national borders. No other 
government agency comes close to our flexibility in STEM education and 
basic research.
    In today's high-tech economy, the supply of new jobs is 
inextricably linked to the health of the Nation's innovation endeavor. 
NSF is involved in all aspects of innovation; NSF not only funds the 
discoveries that directly become the innovations of tomorrow, we also 
fund discoveries that lead to still more discoveries that lead to the 
innovations of tomorrow, and, perhaps most critically, we train the 
technologists who dream up the discoveries that lead to the discoveries 
and innovations of tomorrow.
    Industry increasingly relies on government support for high-risk, 
high-reward basic research. If we fail to provide adequate support of 
the technological sector now, we may well reduce our own economic 
security. It is no accident that our country's most productive and 
competitive industries are those that benefited the most from sustained 
Federal investments in R&D--including computers and communications, 
semiconductors, biotechnology, and aerospace.
    As we look to the century ahead of us, we face the reality that the 
other nations in this world are eager to create jobs and robust 
economies for their citizens. In this context, ``globalization'' is 
shorthand for a complex, permanent, and challenging environment that 
calls for sustainable, long-term responses, not just short-term fixes. 
Regardless of our action or inaction as a nation, the world is full of 
highly motivated and increasingly skilled workers who are working hard 
to improve their economic standing and well-being. We can either 
innovate, and keep our economic prosperity, or stagnate, and suffer the 
consequences of inaction.
    Despite some of the more pessimistic forecasts of some observers, I 
believe that America can continue to be on the leading edge of ideas 
and research. Through strong Federal leadership, we can maintain the 
standing of our businesses and universities. We must not only maintain 
our position, we must actively seek to increase our strengths: 
leadership in fundamental discovery, including high-risk, high-reward 
transformational research, state-of-the-art facilities and 
infrastructure, and a world-class S&E workforce. With a firm commitment 
to these fundamental building blocks of our high-tech economy, we can 
solidify America's role as the world leader in innovation.
    Mr. Chairman and members of the Committee, I hope that this brief 
overview has given you a taste of just how very important the National 
Science Foundation and its activities are to the future prosperity of 
the United States. I look forward to working with you in months ahead, 
and I am happy to answer any questions you may have.

    Senator Kerry. Thank you very much, Dr. Bement.
    Dr. Turner?

       STATEMENT OF DR. JAMES M. TURNER, ACTING DIRECTOR,

        NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY,

                  U.S. DEPARTMENT OF COMMERCE

    Dr. Turner. Chairman Kerry, thank you for the opportunity 
to present the President's Fiscal Year 2009 budget request for 
NIST.
    This budget puts us back on the doubling path as envisioned 
in the President's American Competitiveness Initiative, and as 
reflected in the America COMPETES ACT, that Congress enacted 
last year. I want to thank you, sir, and the ranking member for 
your leadership in the America COMPETES Act.
    The Fiscal Year 2009 request of $638 million includes $634 
million for NIST core research programs, encompassing NIST 
research and facilities, and $4 million for the Hollings 
Manufacturing Extension Partnership.
    The funding level decisions for the MEP as well as for the 
TIP Program were very difficult and tough choices that had to 
be made in tight budget times. The budget for NIST core 
programs represents a 22 percent increase over the Fiscal Year 
2008 appropriations for these programs.
    The president's request focuses on high-impact research 
that will spur economic growth and improve the quality of life 
and thereby accomplish NIST's mission to advance innovation in 
industrial competitiveness.
    The ACI and the America COMPETES Act enable NIST to 
continue to aggressively lay the science and technology 
foundation recommended by so many reports and proclamations on 
U.S. innovation and competitiveness. It is paramount for the 
sake of innovation and competitiveness that NIST move rapidly 
and wisely toward realizing the vision of being the world's 
leader in creating critical measurement solutions and promoting 
equitable standards. Well targeted measurement in standards 
investment is a proven path to stimulate innovation, foster 
industrial competitiveness, increase economic security, and 
improve the quality of life for all Americans.
    The Fiscal Year 2009 budget proposal contains a total of 17 
initiatives. These initiatives were developed using a rigorous 
process that includes talking with industry, stakeholders, and 
our visiting committee or VCAT. Five of the initiatives are new 
for Fiscal Year 2009. The rest were previously proposed in the 
Fiscal Year 2008 budget but to all of our collective 
disappointment, the Fiscal Year 2008 budget took us off the 
doubling track.
    At NIST, it has a real consequence. Three hundred new 
employees and guest workers were not hired, a number of 
important research projects were stopped or delayed, and the 
maintenance of facilities will slow down, increasing the risk 
of equipment and facility failures.
    Our experience last year makes this year's budget request 
that much more important. We must not lose this historic moment 
to make significant necessary investment in basic research.
    Let me briefly describe our initiatives. We have grouped 
the initiatives in three major areas. First, addressing urgent 
environmental, safety and security needs which includes 
initiatives in nanotechnology, climate change, biometrics, 
earthquake hazards and disaster resilient structures.
    The second, investing in strategic and rapidly advancing 
technologies which includes initiatives in bioscience 
measurements, quantum, cyber security, optical light 
communications, hydrogen fuel and manufacturing supply chain 
integration.
    And finally, third, building our science and engineering 
capacity and capability which includes a proposed expansion of 
the JILA Facility in Boulder, a new Boulder lab facility, an 
expansion of the NIST Center for Neutron Research in 
Gaithersburg, and an increase for our major repairs and 
maintenance.
    For a 107 years, NIST research has been critical to our 
Nation's innovation and competitiveness. The increased funding 
in the President's Fiscal Year 2009 budget for NIST will 
directly support technological advances in broad sectors of the 
economy that will quite literally define the 21st century as 
well as improve the safety and quality of life for all of our 
citizens.
    This is an historic moment. The ACI was truly a once-in-a-
generation opportunity to enable cutting edge advances in 
measurement science that will ensure the U.S. drives 
technological change.
    I look forward to working with you, Mr. Chairman, and 
members of this subcommittee, throughout this process.
    Thank you very much, sir.
    [The prepared statement of Dr. Turner follows:]

 Prepared Statement of Dr. James M. Turner, Acting Director, National 
   Institute of Standards and Technology, U.S. Department of Commerce

    Chairman Kerry, Ranking Member Ensign, and members of the 
Subcommittee, thank you for the opportunity to appear before you today 
to present the President's Fiscal Year 2009 budget request for the 
National Institute of Standards and Technology (NIST). This budget 
reflects NIST's growth path under the President's American 
Competitiveness Initiative (ACI) and under the America COMPETES Act 
(P.L. 110-69) that this committee passed last year. The levels 
reflected in this budget will further enhance NIST's ability to provide 
the Nation's critical measurement and standards needs.
    NIST will meet this challenge by relying on partnerships with 
industry and academia to plan and carry out research and provide 
services. These partnerships also allow NIST to stay abreast of current 
high priority needs and to anticipate emerging needs. More than 1,800 
guest researchers work with nearly 3,000 NIST staff members in NIST 
laboratories and facilities on several campuses to provide the Nation 
with the most advanced measurement and standards research and services.
    The FY 2009 request of $638M includes $634M for NIST's core 
programs (encompassing NIST's research and facilities) and $4M for the 
Hollings Manufacturing Extension Partnership. The budget for the NIST 
core represents a 22 percent increase (excluding Congressionally-
directed grants) over the FY 2008 appropriations for these programs. 
The President's request focuses on high-impact research that will 
address critical national needs, spur economic growth and accomplish 
NIST's mission to advance innovation and industrial competitiveness.

Supporting Innovation and the Economy
    The well-being of U.S. citizens is affected every day by NIST's 
measurement and standards work. Virtually every segment of the 
economy--transportation, computers, banking, food processing, health 
care and communication--depends on NIST research, products and 
services. More broadly, the quality of the water we drink, the air we 
breathe, and the food we eat depends in part on that work. NIST 
standards--which are not regulatory--ensure that consumers are 
confident of the quantity and quality of the product purchased whether 
it is a gallon of gasoline or the amount of electricity used and stated 
in the monthly bill. They protect our banking at ATMs and our online 
purchases. Soon, these standards will help to protect the privacy of 
our health records.
    They improve the accuracy of our medical tests and treatments and 
help to make sure that we know the nutritional content of what we are 
eating. They help to convict criminals and free the innocent through 
more accurate and faster DNA tests. They provide crucial timekeeping 
that we depend upon for navigation, telecommunications, financial 
transactions, and basic research. And they improve the readiness of our 
first responders and our homeland security. The measurement and 
standards infrastructure provided by NIST paves the way for U.S. 
innovation and economic competitiveness. In many instances, NIST work 
in measurement science is the critical path to discovery and 
innovations.
    While companies strive to make their latest products and services 
as easy to use and as simple for consumers as possible, the underlying 
knowledge and technology base that makes this possible is certainly not 
simple. Consider the web of fiber optic networks that makes broadband 
communication--from long distance telephone, to cable television, to 
high-speed Internet--possible. The system includes dozens of 
independent networks, tens of thousands of connections and millions of 
miles of optical fibers, each fiber capable of carrying hundreds of 
separate signals simultaneously. Yet, despite its already mind boggling 
complexity, this fiber optic system that our economy depends on may 
soon suffer with the same kind of traffic congestion currently clogging 
highways around many major metropolitan areas.
    To prevent this, communications manufacturers and service companies 
need faster, more accurate ways to measure the quality of optical 
signals, data analysis tools to diagnose transmission problems, and 
nanoscale monitoring systems for ultra fast microchips that use light 
instead of electrons to store and process information. NIST is uniquely 
positioned to help meet these challenges. NIST has the right 
combination of world class scientists and engineers, outstanding 
scientific facilities, and strong ties with both the industrial and 
service sectors to provide the tools needed to realize next-generation 
optical technologies. As a result, the consumer will receive 
information faster, with fewer disruptions, and be able to interconnect 
between networks to get work done that suits their needs.
    Medicine is facing a similar complexity explosion. As the project 
to decode the 3 billion ``letters'' of the human genome has 
demonstrated, the frontiers of medicine have moved in the last few 
decades from often qualitative assessments to increasingly quantitative 
measures down to the level of individual biological molecules. As a 
result, medical researchers skilled in the biological sciences are 
increasingly finding that they need to integrate physical scientists, 
and their quantitative measurement skills into their research teams.
    Just as a systems engineer might study an entire fiber optic 
network from its individual components to its overall efficiency, life 
science researchers are beginning to treat medical and biological 
research problems with a ``systems approach'' long used in engineering 
and the physical sciences. Life sciences researchers are attempting to 
fully integrate what they know at the nano and microscale of molecules, 
DNA, and proteins with the macroscale problems of disease and other 
medical problems experienced by patients. Again, NIST, with its 
interdisciplinary research staff and expertise in creating 
groundbreaking new measurement methods and standards, can provide the 
tools needed to advance the field. The payoff will be faster 
development of new drugs, more personalized medicine, and better 
prediction, diagnosis, and understanding of disease. This approach 
leverages NIST's core competencies.
    Similar opportunities exist for NIST to undertake the equally 
complex measurement challenges involved in safely exploiting the 
promise of nanotechnologies or transforming the field of computer 
modeling and visualization to a truly quantitative, predictive science.
    To accomplish all of these goals and to meet the challenges of the 
ACI, NIST must continue to update and expand its own laboratory 
facilities. Consequently, this budget also includes a request for the 
final year of funding for the continued construction of an extension to 
NIST facilities at its laboratory in Boulder, CO (Building 1) to 
provide new high performance space; a new request for an expansion of 
facilities and capacity to train future U.S. scientists in cutting edge 
atomic, molecular, and optical physics at JILA-NIST's world renowned 
joint institute with the University of Colorado at Boulder; as well as 
funding for the third year of a program to expand and upgrade NIST's 
Center for Neutron Research-the Nation's leading facility of its kind 
and a critical research tool for more than 2,200 researchers annually 
who work in nanotechnology, advanced materials, biotechnology, and 
other fields.

FY 2008 Impacts
    The ACI and the passage of the America COMPETES Act provide an 
unprecedented opportunity to further enhance and accelerate NIST's 
contributions to innovation and competitiveness.
    Unfortunately, FY 2008 appropriations were well below the requested 
level. Those appropriations do not provide funding for NIST's 
laboratory research and facilities efforts at the President's request 
level for the ACI. We are pleased that the President's FY 2009 request 
would restore NIST to the path to double over a ten-year period its 
core research activities. NIST will make every effort to optimize the 
funds provided, but the lower 2008 funding provided compared to the 
President's budget request will have negative impacts on NIST and its 
customers and partners in industry, academia, and other agencies. Those 
impacts include a real loss in timely research that yields positive 
benefits for the Nation. The FY 2008 omnibus appropriation included 
$83M in earmarks and unrequested grants for NIST, the impact of which 
is to slow down or limit the core research and facilities proposed at 
NIST. This means that research areas critical to U.S. innovation will 
not be advanced as aggressively as originally proposed in critical 
areas such as nanotechnology, quantum computing, climate change and 
earthquake and other disaster resistant structures.
    It also means that NIST falls $13.5M short of the amount needed to 
cover salary increases and other anticipated costs, requiring several 
actions. Consequently, NIST will slow down new hires with specialized 
skills and will not be able to bring on board the estimated 300 
additional staff and guest researchers anticipated with the budget 
initiatives requested by the President. NIST managers are reviewing 
laboratory and administrative activities to ensure that ongoing high 
priority projects receive the funding that they need and that all funds 
are used as efficiently as possible.
    As part of the ACI, NIST received $79.1M of its requested $93.9M 
for two new facilities initiatives and for operational maintenance, 
major repairs and safety of the NIST campuses. To compensate for the 
shortfall, NIST has adjusted its overall facilities plans in order to 
proceed with the two major projects. NIST will slow down its plans to 
reduce the backlog of deferred maintenance projects on existing 
facilities. This increases the chances of unanticipated major equipment 
outages and temporary loss of facilities use, resulting in higher 
repair costs and loss of researchers' productivity.
    The President's FY 2009 request for NIST would get the Institute 
back on a doubling track--enabling NIST to continue to aggressively lay 
the science and technology foundation recommended by so many reports 
and proclamations on U.S. innovation and competitiveness. It is 
paramount that NIST move rapidly and wisely toward realizing the vision 
of being the world's leader in creating critical measurement solutions 
and promoting equitable standards. Well-targeted measurement and 
standards investments is a proven path to stimulate innovation, foster 
industrial competitiveness, increase economic security, and improve the 
quality of life of all Americans.

FY 2009 President's Budget
    NIST's FY 2009 budget request totals $638M, which includes $634M 
for core research and facilities programs, a 22 percent increase 
(excluding Congressionally-directed grants) over the FY08 
appropriations for these same core programs. The increased funding for 
NIST's core programs provided through the FY 2009 request will directly 
support innovative advances in broad sectors of the economy as well as 
improve the safety and quality of life for our citizens. The FY 2009 
budget contains a total of 17 initiatives. Five of the initiatives have 
not been requested before. The balance of the initiatives was proposed 
in the FY08 budget. After being updated, all went through a rigorous 
internal process to assess their value and connection to NIST's 
mission. Their relevance, technical merit, and priority were 
reaffirmed.
    The following table summarizes the proposed FY 2009 budget. In this 
table, we show both the FY 2007 and FY 2008 enacted levels without 
Congressionally-directed projects for comparison.

          National Institute of Standards and Technology (NIST)
   FY 2007-FY 2009 Budget Excluding Congressionally-Directed Projects
                         [Dollars in Thousands]

                                                               FY 2009
                                       FY 2007    FY 2008    President's
                                       Enacted   Enacted *     Budget

National Institute of Standards and
 Technology (NIST)

  Scientific and Technical Research    434,371    439,624       535,000
   and Services (STRS)
  Construction of Research              58,686     79,148        99,000
   Facilities (CRF)
                                     -----------------------------------
  NIST Core Subtotal (STRS + CRF)      493,057    518,772       634,000

    Percentage increase from
     preceding fiscal year
                                           14%         5%           22%
  Industrial Technology Services
   (ITS)

    Advanced Technology Program         79,078        N/A             0
     (ATP)
    Technology Innovation Program          N/A     65,200             0
     (TIP)
    Hollings Manufacturing Extension   104,741     89,640         4,000
     Partnership (MEP)
                                     -----------------------------------
      Subtotal, ITS                    183,819    154,840         4,000
                                     -----------------------------------
      NIST Total                       676,876    673,612       638,000

* The FY 2008 amount for Scientific and Technical Research and Services
  appropriation does not include $893,000 for a Congressionally-directed
  project. The FY 2008 amount for Construction of Research Facilities
  appropriation does not include $51.3M in Congressionally-directed
  projects and $30M for a new competitive construction grant program
  that was not requested by the President.

    The total request of $638M for NIST is divided into three 
appropriations accounts:

    I. Scientific and Technical Research and Services (STRS) $535M. 
This category includes $526.5M for NIST laboratory research and $8.5M 
for the Baldrige National Quality Program. Major components of the FY 
2009 request include four new STRS initiatives (in italics nine 
initiatives requested--but not funded--in FY 2008.
Addressing Urgent Environment, Safety and Security Needs (+$26.2M)

   <ctr-circle> Nanotechnology: Environment, Health and Safety

   <ctr-circle> Climate Change Science: Measurements and Standards

   <ctr-circle> National Earthquake Hazards Reduction Program

   <ctr-circle> Disaster Resilient Structures and Communities

   <ctr-circle> Biometrics: Identifying Friend or Foe
Investing in Strategic and Rapidly Advancing Technologies (+$42.8M)

   <ctr-circle> Innovation in the Biosciences Measurements and 
            Standards

   <ctr-circle> Comprehensive National Cyber Security Initiative: Leap-
            Ahead Technologies

   <ctr-circle> Optical Communications and Computing

   <ctr-circle> Quantum Information Science

   <ctr-circle> Nanotechnology: Discovery to Manufacture

   <ctr-circle> Innovations in Measurement Science

   <ctr-circle> Enabling the Use of Hydrogen as a Fuel

   <ctr-circle> Manufacturing Innovation through Supply Chain 
            Integration

    II. Construction of Research Facilities (CRF) $99M. This category 
includes $37.3M in base funding for operational maintenance, major 
repairs and safety of the NIST sites; and $63.7M for three initiatives 
outlined below.
Boosting U.S. Science/Engineering Capacity and Capability ($63.7M)

   <ctr-circle> A Building Expansion: Pushing the Scientific Frontiers

   <ctr-circle> Boulder Building 1 Extension: 21st Century Tools

   <ctr-circle> Safety, Capacity, Maintenance and Major Repairs

   <ctr-circle> NIST Center for Neutron Research (NCNR) Capacity and 
            Capability

    III. Industrial Technology Services (ITS) $4M. The Hollings 
Manufacturing Extension Partnership (MEP) program and the Technology 
Innovation Program (TIP) compose NIST's Industrial Technology Services 
account.
    The budget also reflects the Administration's focus on its highest 
priorities--including basic research, consistent with the American 
Competitiveness Initiative--and the need to restrain spending. The 
request for the Hollings Manufacturing Extension Partnership is $4 
million, enough for an orderly end to Federal funding for the program, 
while no funds are requested for the Technology Innovation Program.

FY 2009 Initiatives in Detail
    The initiatives are described in more detail below. They are 
organized within appropriations accounts and by FY 2009 initiative 
categories.

I. Scientific and Technical Research Services (STRS)
Addressing Urgent Environment, Safety and Security Needs (+$26.2M)
Nanotechnology: Environment, Health and Safety Measurements & Standards 
        (+$12M)
    Products made with nanometer-scale components and materials--a 
thousand times thinner than a human hair and smaller--are already 
dramatically improving the performance of current products from stain-
resistant pants to fuel-efficient aircraft. Many more applications 
beckon such as targeted cancer drugs, ultrafast electronics, and 
improved diagnostic tools for medicine.
    The small size of these components produces new properties not seen 
in larger-scale ``bulk'' materials. While nanomaterials promise many 
useful applications, very little is known about the environmental, 
health, and safety (EHS) risks associated with them. The safety or 
toxicity of nanomaterials can be determined only with well-understood 
materials and well-defined testing methods.
    The interagency National Nanotechnology Initiative (NNI) has 
designated NIST as the lead Federal agency to develop metrology tools 
and methods for measuring and characterizing nanomaterials. NIST has 
the interdisciplinary physical-science expertise and the facilities 
needed to develop accurate, validated methods for understanding the EHS 
properties of nanoscale materials.
    The proposed initiative funding will allow NIST to launch a three-
pronged approach to the problem:

  <bullet> create a classification scheme for determining the 
        characteristics of nanoparticles necessary for assessing 
        toxicity, including size, shape, and chemical composition;

  <bullet> develop detection and measurement methods for quantifying 
        the number and nature of nanoparticles with EHS impact in 
        biological and environmental samples; and

  <bullet> predict how modifications to nanoparticles will affect their 
        impact on the environment, health, and safety.

Measurements and Standards for the Climate Change Science Program 
        (+$5M)
    The climate is changing. Determining how fast it is changing and 
understanding the complex relationship between all the environmental 
variables to allow accurate predictions is part of the objective of the 
U.S. Climate Change Science Program. Some of the drivers of climate, 
such as the sun's output, may vary slowly over decades. As a result, 
climate predictions depend critically on developing absolute 
measurements of the sun's energy that can be compared accurately over 
decades from different sensors. Other important variables include the 
sizes, shapes, and chemical composition of particles or droplets 
(aerosols) in the atmosphere. Whether aerosols contribute to the 
warming or the cooling of the Earth depends upon their composition.
    With the funding provided through this initiative and in 
coordination with other agencies, NIST will develop:

  <bullet> an international irradiance measurement scale to be used in 
        rigorously calibrating satellite light intensity instruments 
        prior to launch to ensure sufficient accuracy to allow valid 
        comparisons among results from different instruments or from 
        data sets taken over different periods of time;

  <bullet> new instrument design strategies and quality assurance 
        programs to optimize accuracy and stability of satellite and 
        ground-based solar measurement systems;

  <bullet> techniques for generating specific types of aerosols in the 
        laboratory, measuring aerosol optical and physical properties, 
        and simulating aerosol properties that cannot yet be measured 
        in the laboratory; and

  <bullet> a database of critically evaluated data on aerosol 
        properties collected at NIST and elsewhere.

National Earthquake Hazards Reduction Program (+$3.3M)
    Within the United States, more than 75 million people are located 
in urban areas considered to be at moderate to high risk for 
earthquakes. Just the economic value of the physical structures within 
these regions--not including the potential loss of life and economic 
disruption--is valued at close to $8.6 trillion. A single large 
earthquake in the United States, like the one that struck Kobe, Japan, 
in 1995, can easily cause damage of $100 billion to $200 billion.
    A critical gap exists between the results produced by basic 
research and the implementation of that knowledge in the field. New 
construction materials, techniques, building codes, and standards do 
not reflect the current state of knowledge. Through the National 
Earthquake Hazards Reduction Program (NEHRP), NIST is tasked with 
conducting problem-focused research to bridge this gap and to promote 
its application by the private sector.
    At the proposed funding level, NIST will:

  <bullet> identify implementation gaps between basic research results 
        and design guidance and national model building code 
        provisions;

  <bullet> develop rational cost-effective, consensus-based seismic 
        design and analysis procedures for use in national model 
        building codes;

  <bullet> design guidelines for the testing and design of major 
        structural systems;

  <bullet> characterize fully the seismic capacities of typical older 
        building structural components and systems as they are built; 
        and

  <bullet> develop structural performance criteria, analytical models, 
        and cost-effective rehabilitation techniques for existing 
        buildings.

Disaster Resilient Structures and Communities (+$4M)
    For the past few years, natural hazards, including hurricanes, 
extreme winds, storm surge, wildland fires, earthquakes, and tsunamis, 
as well as terrorist actions, have been a continuing and significant 
threat to U.S. communities.
    The disaster resilience of our physical infrastructure and 
communities today is determined in large measure by the building 
standards, codes, and practices used when they were built. With few 
exceptions, these are oversimplified and inconsistent with current risk 
assessments. As construction and rebuilding costs continue to rise, 
there is increasing recognition of the need to move from response and 
recovery to proactively identifying and mitigating hazards that pose 
the greatest threats.
    NIST and the National Oceanic and Atmospheric Administration (NOAA) 
have coordinated their programs in this area. Initiative funding in FY 
2009 will allow NIST to develop:

  <bullet> standard methods to predict losses, evaluate disaster 
        resilience, and estimate cost-to-benefit of risk management 
        strategies at the community and regional scales as opposed to 
        the individual building scale;

  <bullet> decision support tools to modernize standards, codes, and 
        practices consistent with the risk;

  <bullet> a validated ``computational wind tunnel'' for predicting 
        extreme wind effects on structures; and

  <bullet> risk-based storm surge maps to be used in designing 
        structures in coastal regions and an improved hurricane 
        intensity classification scale.

    In addition, the funding will expand and accelerate research 
results for projects begun with funding in FY 2007 on prediction of 
fire hazards at the wildland/urban interface; and improved tools for 
designing and constructing earthquake-resistant structures.
Biometrics: Identifying Friend or Foe (+$2M)
    NIST has decades of experience improving human identification 
systems and currently is working with other Federal agencies, including 
the Department of Homeland Security, the Federal Bureau of 
Investigation, and the U.S. Department of State, to evaluate and 
improve the ability of biometrics to enhance border security. The USA 
Patriot Act and the Enhanced Border Security and Visa Entry Reform Act 
call for NIST to develop and certify a technology standard for 
verifying the identity of individuals and to determine the accuracy of 
biometric technologies, including fingerprint, facial, and iris 
recognition.
    Biometrics technologies, primarily fingerprints, are being used 
broadly in the United States for border security. New technologies 
under development, in particular, ``multimodal'' systems that combine 
two or more biometric technologies, such as fingerprint, facial, and 
iris, promise to bring significant improvements. But NIST studies have 
shown that the accuracy of today's facial recognition systems is 
relatively poor compared to fingerprints, and iris recognition needs 
more study and testing to determine its accuracy in operational 
environments.
    In conjunction with several other Federal agencies, including the 
FBI and Department of Homeland Security, private industry and 
universities, NIST is managing the Multiple Biometric Grand Challenge, 
which aims to reduce errors in both face and iris recognition systems. 
Also, NIST is performing large-scale evaluations of iris recognition to 
promote its standardization.
    NIST is also supporting the development of standards for 
interoperability between different fingerprint systems through large-
scale testing.
    With additional funding, NIST will:

  <bullet> enable facial recognition technologies to be used for border 
        security;

  <bullet> build on its testing program to determine the accuracy of 
        multimodal systems;

  <bullet> develop tests and guidelines to assure that future biometric 
        systems are interoperable, and work efficiently in real-time 
        applications by:

   <ctr-circle> improving the use of fingerprints with real-time 
            fingerprint readers;

   <ctr-circle> improve the interoperability, robustness, and usability 
            of fingerprint systems and facial recognition systems;

  <bullet> improve biometric systems by enabling simultaneous use of 
        facial recognition, fingerprint, and iris-scan technologies

    NIST will coordinate this work with other government agencies and 
the private sector while taking international standards developments 
into account.

II. Investing in Strategic and Rapidly Advancing Technologies (+$42.8M)
Measurements and Standards to Accelerate Innovation in the Biosciences 
        (+$10M)
    Inaccurate bioscience measurements sometimes make it hard to tell 
when treatments are healing or causing harm. They often increase costs 
and lower the quality of healthcare. The lack of reliable, quantitative 
measurements in the biosciences is also impeding progress in a number 
of promising life-science research areas. Compared to the measurements 
made in the physical sciences, medical tests and bioscience-based 
measurements need to be repeated and rechecked far too frequently. 
Today, even standard measurements on a limited number of blood proteins 
often yield variable results among expert laboratories.
    The research initiatives newly proposed in FY 2009 will focus on 
three intersecting areas of research:

  <bullet> make biological data more quantitative and reliable by 
        establishing methods, standards, and benchmark data for the 
        fundamental measurements that underpin the life sciences in 
        techniques such as mass spectrometry and molecular imaging;

  <bullet> devise new methods for simultaneously measuring hundreds to 
        thousands of molecules at a time by developing and validating 
        new technologies in areas such as microfluidics and live cell 
        imaging; and

  <bullet> help laboratories more easily compare and combine their 
        measurements and computer models with one another by developing 
        standards for the exchange of biological data and information.

Comprehensive National Cyber Security Initiative: Leap-Ahead Security 
        Technologies (+$5M)
    Many of today's tools and mechanisms for protecting against cyber 
attacks were designed with yesterday's technology in mind. Information 
systems have evolved from room-size computer workstations shut off from 
the rest of the world to ubiquitous mobile devices interconnected by a 
global Internet. In this diverse ecology of communication devices, no 
cyber security solution works on all operating systems and can protect 
every type of computer and network component. Operating systems are now 
composed of millions of lines of code, rather than thousands, and have 
many more potential holes.
    The NIST request is part of the Administration's Comprehensive 
Cyber Security Initiative. NIST is a recognized world leader in the 
field of cyber security. Working with other Federal agencies, NIST 
proposes an initiative in three essential elements of cyber security 
infrastructure:

  <bullet> create technical standards for generating, distributing, 
        using, storing and destroying secret numbers known as 
        cryptographic keys, commonly used to grant access to authorized 
        individuals on encrypted computer networks and systems. This 
        effort will be conducted in technical consultation with the 
        National Security Agency (NSA) and the Department of Defense 
        (DOD), as well as other government agencies and non-government 
        organizations;

  <bullet> nurture the development of ``multifactor authentication'' 
        methods. Such methods require users to verify their identities 
        through multiple methods, such as passwords and iris scans, 
        rather than just one. NIST will develop a standardized 
        framework that ensures these methods work across different 
        computer platforms and operating systems. The effort will be 
        coordinated with vendors and Federal departments, including the 
        Department of Homeland Security; and

  <bullet> extend the Federal Desktop Core Configuration, a set of 
        standard security settings that optimize security, to other 
        operating systems, applications, and network devices beyond the 
        existing support for Windows XP and Vista.

Going at Light Speed: Optical Communications and Computing (+$5.8M)
    As demand on the U.S. communications network continues to grow, a 
new generation of transmission and networking technologies is required 
to keep pace. Keeping pace is critical because communications 
fundamentally drives productivity gains and economic growth; it cradles 
innovation in many current and future industries, including 
telemedicine, entertainment, and security.
    This initiative will promote advances in light-scale communications 
ranging from the nanoscopic innards of an individual computer to the 
continent-spanning scale of the Nation's optical communications 
network. Already the world leader in measurements of high-speed devices 
and of hybrid optical and electronic devices, NIST will work closely 
with industry and expand its work to include research and development 
of:

  <bullet> new measurement capabilities to accommodate higher-speed, 
        next-generation communications networks;

  <bullet> measurements that diagnose and locate transmission problems 
        on data networks, and provide the information needed to 
        reconfigure and redirect traffic to match demand; and

  <bullet> new measurement techniques for analyzing computer circuits 
        that transmit light instead of electricity, enabling the 
        manipulation of light within computer chips, and 
        interconnecting very small electronic and optical devices.

Quantum Information Science (+$7M)
    NIST scientists are world leaders in the emerging field of quantum 
science. Three NIST scientists have won separate Nobel Prizes in the 
last 10 years based on their work in the field. Many of the best minds 
in physics today believe that applications of quantum science will 
transform the 21st century just as integrated circuits and classical 
electronics transformed the 20th century.
    Having developed potential components for quantum computers and 
demonstrated other advances, NIST is proposing to expand further its 
quantum science program in FY 2009. Several of the projects proposed 
under this initiative will be in collaboration with the Joint Quantum 
Institute established by NIST, the University of Maryland, and the 
National Security Agency. NIST will:

  <bullet> begin development of quantum ``wires'' that use 
        ``teleportation'' techniques to reliably transport information 
        between the components of a simple quantum computer based on 
        manipulation of atoms, other elementary particles, or solid-
        state quantum devices;

  <bullet> begin development of quantum memory analogous to the random 
        access memory of today's computers to allow more complex logic 
        operations;

  <bullet> begin development of methods for transferring quantum-based 
        information from one form (such as atoms) to another form (such 
        as photons);

  <bullet> develop an all-optical clock for more precise time and 
        frequency measurement; and

  <bullet> exploit the unusual quantum properties of ``coherence'' and 
        entanglement to provide exquisite physical science measurement 
        capabilities with improved sensitivity, accuracy, and speed.

Enabling Nanotechnology from Discovery to Manufacture (+$7M)
    In FY 2007, NIST began a major initiative to address the 
measurement barriers hindering rapid development of nanotechnologies. A 
new NIST Center for Nanoscale Science and Technology (CNST) has been 
established that combines both research and a state-of-the-art 
nanofabrication and nanometrology user facility.
    While a complementary NIST initiative will provide important 
groundwork in measuring environmental, health, and safety (EHS) risks 
of nanotechnology, this research initiative will build on recent NIST 
advances in developing nanoscale science and technology by:

  <bullet> devising ways to measure strength, stress, strain, optical, 
        and electronic properties of nanostructures to improve 
        processes and understanding of failure mechanisms;

  <bullet> creating three-dimensional, high-resolution imaging methods 
        that reveal details of structure, chemical composition, and 
        manufacturing defects and allow researchers to view 
        nanostructures as they interact with their environment;

  <bullet> simulating nanoscale phenomena with computer models to allow 
        economical development of production methods for complex 
        nanodevices; and

  <bullet> pushing existing computer technology to its ultimate limit 
        by developing measurements and standards that support 
        ``ultimate CMOS,'' or the development of current transistor 
        technology to its technological limit.

Innovations in Measurement Science (+$3M)
    As new science and technology areas emerge, NIST must quickly 
develop the measurement methods needed to support them. The Innovations 
in Measurement Science Program is one of NIST's primary mechanisms for 
keeping pace with the measurement requirements needed for innovation in 
U.S. industry.
    Established in 1979, the program supports high-risk, leading-edge 
research projects that anticipate industry needs and develop 
measurement science for the next generation of technology. At some 
point in their careers, all three of NIST's Nobel laureates have had 
their research funded by this program. Current NIST expertise in 
quantum information science, fuel cell science, three dimensional 
chemical imaging, and many other areas important to national priorities 
were launched with ``measurement innovations'' funding.
    This initiative will expand the scope and nature of projects 
selected for the Innovations in Measurement Science Program to allow 
this program to keep better pace with the evolving needs of industry 
and science. Emphasis will be placed on the development of 
multidisciplinary research areas with the greatest potential for 
fostering innovation.
    The NIST Laboratories carefully evaluate the technical merit, 
potential impact, and staff qualifications for detailed research 
proposals submitted by the NIST technical staff. Successful proposals 
are funded for 5 years--ensuring enough time for the innovative 
measurement science approach to be developed--and are reviewed 
throughout the program to ensure satisfactory progress.

Enabling the Use of Hydrogen as a Fuel (+$4M)
    Hydrogen offers the possibility of lowering the impact of motor 
vehicles on the environment, and reducing our Nation's dependence on 
foreign oil. While the burning of fossil fuels produces carbon dioxide 
and other emissions harmful to the environment, hydrogen fuel can be 
made from many energy sources, including renewables.
    Technical challenges need to be overcome to make hydrogen-powered 
vehicles more practical and economical. Hydrogen can embrittle metals 
and other container materials, is highly combustible, and requires 
storage containers larger than those for other fuels with equivalent 
energy. Moreover, the technical infrastructure must be developed to 
ensure safe production, storage, distribution, delivery, and equitable 
sale of hydrogen in the marketplace.
    Expansion of research efforts at NIST is essential to achieving 
widespread use of hydrogen as a fuel. NIST has been a leading provider 
of data on the chemical and physical properties of hydrogen for more 
than 50 years. It has statutory responsibility under the Pipeline 
Safety Act of 2002 to develop research and standards for gas pipeline 
integrity, safety, and reliability. It is the lead U.S. agency for 
weights and measures of vehicle fuels, and the distribution and sale of 
hydrogen will require entirely new systems for ensuring equity in the 
marketplace.
    NIST's Center for Neutron Research is a premier facility for real-
time, three-dimensional imaging of hydrogen in operating fuel cells. 
Using the unique resources developed at this NIST facility will help 
reduce technical barriers for efficient hydrogen production, storage, 
and use. NIST expertise will be essential for making fuel cells less 
costly and more reliable.

Manufacturing Innovation Through Supply Chain Integration (+$1M)
    America's large manufacturers are globally distributed enterprises 
that rely on a system of small manufacturers, parts suppliers, 
shippers, and raw materials producers organized in extended ``supply 
chains.'' Using the auto industry as an example, the average car has 
more than 15,000 parts coming from 5,000 manufacturers that are made to 
the precise specifications of the auto company and must arrive on time.
    Production costs are no longer the major cost component in these 
global supply chains--the dominant cost is in the engineering and 
business activities, which depend critically upon clear and error-free 
exchange of information among partners.
    Inefficiencies and needless roadblocks in the exchange of product 
design and business data in manufacturing and construction are 
estimated to cost the U.S. economy more than $25 billion per year. 
Small manufacturers are particularly hurt by these problems, but they 
affect the competitiveness of entire industries.
    In the 1980s NIST pioneered work in developing early open standards 
for data exchange. Under this initiative, NIST will conduct a much more 
extensive, wide-ranging, and technologically advanced program. Working 
closely with U.S. manufacturers to develop seamless data transactions 
throughout global supply chains, NIST will work to shorten the design-
to-manufacturing cycle, improve quality, and lower costs for large and 
small U.S. firms.
    Major goals will include:

  <bullet> creating ``roadmaps'' for the development of open standards 
        for enterprise integration in target industry sectors;

  <bullet> developing validation and conformance tests to help ensure 
        the performance of these standards as well as their proper use; 
        and

  <bullet> ensuring the standards are integrated and consistent with 
        developing international standards and easily available to 
        small and medium-sized U.S. manufacturers.

III. Construction of Research Facilities (CRF)
Boosting U.S. Science and Engineering Capacity and Capability (+$63.7M)
JILA Expansion: Preparing the Next Generation of Physicists (+$13M)
    Space has run out at one of the Nation's most valuable training 
grounds of top scientific talent. JILA, a joint institute of NIST and 
the University of Colorado at Boulder, has produced three Nobel 
Laureates and two MacArthur Fellows, all named in this decade alone. 
JILA researchers are leaders in atomic, molecular, and optical (AMO) 
science, a field that the National Academies says is ``key to training 
our best scientists, engineers, and technical professionals.''
    JILA is already over capacity, and the situation is getting worse. 
The existing group of 28 JILA research scientists could train 
approximately one-third more postdocs and student researchers, but 
there is literally no place for them to work. An expert external 
assessment of the JILA laboratories warned that this shortage of space 
threatened JILA's ability to retain and recruit world-class scientists.
    NIST proposes a limited expansion of the laboratory and office 
space at JILA. With the expansion costing an estimated $27.5M, NIST 
would contribute $13M in FY 2009 and an additional $9.5M in FY 2010. 
The University of Colorado will contribute $5M in funding, as well as 
land and infrastructure services such as electricity, chilled water, 
and steam.
    The funding would add approximately 4,610 square meters (49,600 
square feet) of new space. Improving the laboratory facilities at JILA 
will ensure that the current world-class research staff maximizes its 
potential for both training a new generation of scientists and 
producing the nanoscale manipulation tools needed to keep U.S. industry 
at the forefront of science. The expansion is expected to increase the 
number of AMO grad students at JILA by approximately 50 percent. 
Because JILA produces 5 to 10 percent of all AMO science Ph.D.s in the 
United States per year, this will step up significantly the Nation's 
production of scientists in this important field.

NIST Center for Neutron Research Expansion (NCNR) and Reliability 
        Improvements (+$2M, added to a previously funded initiative)
    Serving more scientists and engineers (over 2,100 annually) than 
all other U.S. neutron research facilities combined, the NIST Center 
for Neutron Research (NCNR) is the Nation's leading neutron facility. 
The NCNR is especially valued for its ``cold'' (low-energy) neutron 
source, which greatly increases the utility of the neutron beam, 
particularly in biotech and materials research.
    Although the NCNR is widely regarded as the most cost-effective and 
efficiently managed neutron facility in the United States, presently 
this critical research tool cannot possibly meet the demands placed on 
it.
    This is a planned increase in funding for the NCNR Expansion 
Initiative, begun in 2007. When completed, this five-year project will 
provide:

  <bullet> a new generation of world-class cold neutron instruments 
        directly supporting the needs of science and industry;

  <bullet> more than a 30 percent increase in the overall measurement 
        capacity;

  <bullet> the ability to serve at least 500 additional researchers 
        each year; and

  <bullet> increased operational efficiency.

    The FY 2009 funding request supports the next phase of the NCNR 
expansion to initiate installation, testing, and commissioning of the 
new neutron instruments (such as spectrometers). These instruments will 
bring new neutron measurement capability to U.S. researchers by either 
exceeding the capabilities of current instruments by more than a factor 
of a hundred, or by providing capabilities that are not currently 
available in the United States.
    In FY 2009, the project will focus on:

  <bullet> installation of new neutron spectrometers and neutron 
        beamlines;

  <bullet> modification of beamlines and beamline shielding;

  <bullet> modification of some existing instruments affected by new 
        beamlines; and

  <bullet> testing of new beamlines and instruments.

2-of-the-Art Laboratory Space at NIST's Boulder, Colorado Campus 
        Building 1 Extension (+$43.5M)
    The Building 1 Extension (B1E) will provide the environmental 
control needed to reliably measure and manipulate atomic-scale 
phenomena in order to further enable 21st-century technologies. 
Improvement in environmental conditions within NIST's Boulder, Colorado 
research laboratories is required to make further progress in 
measurements related to high-frequency electronics, advanced materials 
characterized at the atomic level, subcellular forces, timing accuracy, 
and other areas.
    As the final funding request for a three-year program, the $43.5M 
proposed in the FY 2009 budget will complete state-of-the-art 
laboratory space that will meet the stringent environmental conditions 
required for 21st-century scientific advances. With a total cost of 
$77.2M, the Building 1 Extension is the most cost-effective approach to 
enabling world-class measurement science in support of some of the 
country's most important economic sectors.
    Construction of the B1E will dramatically enhance NIST's 
measurement capability and will directly support the needs of industry 
and academia. Some of the anticipated impacts include the ability to:

  <bullet> make precision frequency measurements above 100 GHz (100 
        billion cycles per second), which are required for advanced 
        commercial electronics, military systems, and homeland 
        security;

  <bullet> measure and perform research on the properties of materials 
        at the single-atom level needed for the development of quantum 
        and nanotechnologies;

  <bullet> measure forces below 10-12 newtons (one billionth the weight 
        of a feather) to understand the inner workings of cells and to 
        apply this measurement capability to other physical systems; 
        and

  <bullet> make timing measurements with uncertainties reduced to one 
        part in 10-18 (the equivalent of 1 second in 30 billion years), 
        enabling whole new generations of position, navigation, and 
        guidance systems.

Safety, Capacity, Maintenance and Major Repairs (SCMMR) (+$5.2M)
    Aging and deteriorating buildings and infrastructure threaten 
NIST's ability to meet the needs of the Nation's scientific and 
industrial enterprise. NIST maintains about 50 specialized 
laboratories, offices, and support buildings at its two major sites in 
Gaithersburg, Maryland, and Boulder, Colorado, as well as critical 
infrastructure in Fort Collins, Colorado, and Kauai, Hawaii. Most of 
the Gaithersburg structures were built in the 1960s, and the Boulder 
facilities are a decade older.
    Since 1995, the Construction of Research Facilities (CRF) 
appropriation has funded building construction and the safety, 
capacity, maintenance, and major repairs (SCMMR) of NIST's physical 
plant. Although recent increases to SCMMR have led to improvements in 
these facilities and infrastructure, the current state of NIST 
facilities--whether measured in terms of safety, capacity, or state of 
repair--remains a serious impediment to NIST's mission. Funding for 
renovations has not kept pace with NIST needs. The failure rate of 
major building systems such as air-handling systems and piping systems 
has increased dramatically in the last 5 years. NIST's aging facilities 
and their extensive backlog of deferred maintenance and repairs have 
resulted in lost productivity and increased costs.
    These problems are not confined to the most advanced research and 
development projects. For example, the relatively straightforward NIST 
task of calibrating precision pressure gauges is the critical first 
step in a national measurement chain that ensures the accuracy of 
airplane altimeters and supports a wide variety of manufacturing 
sectors, including semiconductors and pharmaceuticals. However, 
carrying out this process has been limited by vibration problems, poor 
temperature control, and a pervasive black grit distributed by a 40-
year-old air-conditioning, ventilation, and heating system.
    Based on independent architectural and engineering reviews and in 
conjunction with the need to maintain world-class research facilities, 
NIST proposes to target the most critical SCMMR projects. These areas 
include repair and replacement of aging mechanical and electrical 
systems removal of hazardous material, including remediation of 
asbestos; structural repairs and replacements; and efforts to ensure 
accessibility in all NIST facilities.

Industrial Technology Services.
Hollings Manufacturing Extension Partnership (MEP) ($4.0M)
    The requested $4M provides the orderly end to Federal funding for 
the Hollings Manufacturing Extension Partnership (MEP) program. The 
elimination of Federal funds to the local centers may have to be 
compensated through a combination of increased fees derived from the 
benefits accrued by individual companies and cost-savings in the 
operations of the centers.

Technology Innovation Program (TIP) ($0)
    No funds for TIP are requested in the President's FY 2009 budget. 
Anticipated prior year recoveries will be sufficient to phaseout the 
program.

Summary
    For 107 years, NIST research has been critical to our Nation's 
innovation and competitiveness. The increased funding in the 
President's FY 2009 budget for the NIST core will directly support 
technological advances in broad sectors of the economy that will quite 
literally define the 21st century--as well as improve the safety and 
quality of life for all our citizens.
    Today, more than at any other time in history, technological 
innovation and progress depend on NIST's unique skills and 
capabilities. Helping the U.S. to drive and take advantage of the 
increased pace of technological change is a top priority for NIST.
    The new technologies that are determining the global winners in the 
early 21st century--including nanotechnology, information technology, 
and advanced manufacturing--rely on NIST-developed tools to measure, 
evaluate, and standardize. The technologies that emerge as a result of 
NIST's development of these tools are enabling U.S. companies to 
innovate and remain competitive.
    Technology-based innovation remains one of the Nation's most 
important competitive advantages, but that advantage is in danger of 
being lost. The American Competitiveness Initiative (ACI) and the 
enactment of the America COMPETES Act are bold initiatives to maintain 
this advantage. They have cast a spotlight on NIST's critical 
importance to U.S. economic competitiveness and innovation. To ensure 
that NIST programs deliver the highest impact, the Institute, working 
with our stakeholders in Congress, industry, academia, and other 
government agencies, will continue to identify the most critical 
measurement, standards, and technological challenges. We look forward 
to working with you, Mr. Chairman, and members of the Subcommittee, 
throughout this process.

    Senator Kerry. Thank you very much, Dr. Turner. Appreciate 
it. Appreciate each of your testimonies.
    Let me try to sort of sort through squaring, if we can, 
some of what you've talked about in terms of importance with 
where we find ourselves.
    Let me begin with the issue, Dr. Marburger, perhaps I 
direct this to you, at least initially, and also Dr. Turner to 
some degree. The Fiscal Year 2009 request for NIST is $638 
million. That's 15.6 percent below the Fiscal Year 2008 
appropriated level of $755.8 million and 27.5 percent below the 
Fiscal Year 2009 authorized level in the America COMPETES.
    The Fiscal Year 2009 request does not include any funding 
for TIP, even though appropriators provided $65.2 million in 
last year's budget for the program.
    Furthermore, the request only includes $4 million to 
provide for the shutdown of the Manufacturing Extension 
Partnership. That was funded at $89.6 million last year.
    Now I don't know if you're aware of it, I hope you are, 
Senator Conrad, in the Budget Committee resolution which is 
currently on the Floor, which I am confident will pass, has 
requested $87 million for TIP and the full authorization level 
of $122 million for the Manufacturing Extension Partnership in 
the budget resolution.
    So, let me just give you a quick take on it. In 
Massachusetts alone, the Manufacturing Extension Partnership 
clients we've surveyed, the program has had the following 
impact over the last 5 years: $499,600,000 in new or retained 
sales, $117,400,000 in new investments, $112 million in cost 
savings, 4,800+ jobs, almost 5,000 jobs, $187,450,000 in new 
profit.
    So, what's going on here? What is the rationale for this 
annihilation of a program that works which Congress wants to 
fund and will, and the lack of funding, adequate funding at the 
levels in America COMPETES for a program that you underfund?
    Dr. Marburger. The short answer to that question, Senator, 
is priorities. The NIST core budget funds absolutely essential 
activities of basic research and programs that directly support 
important industry efforts, like the Semiconductor Roadmap, and 
many other processes directly related to manufacturing and 
economic competitiveness.
    It's not the case that all of the technology transfer 
interaction with industry activities at NIST are concentrated 
in a single program, like MEP or TIP. These programs are not 
bad. It's just that they----
    Senator Kerry. Are not what?
    Dr. Marburger. They're not bad programs.
    Senator Kerry. Are they good?
    Dr. Marburger. They are good programs, but they simply do 
not have the same potential impact on our future economy as the 
programs in the NIST core budget.
    NIST is an extraordinary institution. Its employees have 
received three Nobel prizes in recent decades. They're honored 
throughout the world for their leadership in establishing 
standards in cutting edge technologies and these are our 
benefits that issue from funding the core programs, not from 
the relatively small impact, low impact, shorter-term 
activities that TIP and MEP are designed to foster.
    So, it's strictly----
    Senator Kerry. Well, is this a choice made--Doctor, I'm 
sorry to interrupt you, but let me just follow up. Thank you.
    Is this a choice made by you, given a fixed budget within 
which you have to try to fund all three of the key critical 
agencies under the ACI, or, go ahead.
    Dr. Marburger. I wish I had the--I wish I were the only one 
that could control these budgets. These choices are not made by 
me alone, but I certainly recommend the prioritization.
    Senator Kerry. But is that a priority you recommend if 
you're given a lump sum that's inadequate and you're forced to 
make the choice or is that a priority you'd make no matter 
what?
    In other words, Congress is making a different choice.
    Dr. Marburger. Yes.
    Senator Kerry. We're funding each of your core programs to 
a greater degree and funding that because we make another 
different set of choices about priorities.
    Dr. Marburger. The priorities are independent of how much 
money you have. The highest-impact activities at NIST are the 
ones in their so-called ``core budget.'' All of the other NIST 
programs have a lower impact, so with whatever amount of money 
is on the table, I would still prefer to support the NIST core.
    I believe that the NIST core budget is very substantially 
underfunded. I would like to see it significantly greater, even 
greater than the doubling that's been proposed under the ACI 
and COMPETES. Frankly, I think it's the most underfunded 
program in science and technology in our Nation.
    So, I am very strongly in favor of concentrating our 
resources as much as we can in the NIST core budget.
    Senator Kerry. Can you quantify in any way that's 
comparable to those two? For instance, the MEP figures I gave 
you, can you quantify core programs?
    Dr. Marburger. Only generally, because the--since the 
activities funded under MEP and TIP are shorter range, focused 
on industry and the immediate production of jobs, which are 
easier to count, it's easier to do the accounting for the 
impact on those types of programs than it is for the overall 
longer-term impact of the basic work that NIST does.
    However, economists have indicated very large--NIST, 
actually Commerce's own economists have indicated very large 
returns on the type of basic research that is conducted at 
NIST, and NIST activities are responsible for the capabilities 
of global positioning systems, for our ability to detect and 
reproducibly manipulate matter at the nano scale.
    There's just an extraordinary impact on almost every part 
of our economy from those core activities.
    Senator Kerry. Well, none of us are going to disagree. I 
mean, we obviously want to fund them to a greater degree, to a 
much greater degree than the administration, but at the same 
time in an economy that is painfully lagging in growth behind 
others and where there is a lot of pain being felt right now at 
the local level, it's very hard to turn your back on something 
that produces 5,000 jobs in one state in 5 years and a $187 
million of profit.
    Dr. Marburger. I agree, Senator, but I don't want to give 
up our long-term leadership----
    Senator Kerry. That's because it's being made either/or and 
what I'm saying is it shouldn't be and it's being made an 
either/or because you're given a smaller nut with which to make 
those choices.
    We are going to provide a budget which proves that you can 
do both. So, there is a different approach here, that is really 
what I'm trying to underscore, that I don't think you should be 
put, I'm not sitting here to, you know, suggest I know how it 
works and I know you're not the person who makes the final cut 
here, we've had this debate before, but the bottom line the 
Committee wants to underscore is that the budget that we're 
going to vote on on the Senate Floor does both, and provides a 
greater degree of funding for your core and I think that's 
pretty critical.
    I might further add this for both you, Dr. Marburger and 
Dr. Turner. As I mentioned, the NIST total is 15.6 percent 
below the appropriated levels of last year, which raises a lot 
of questions. Even though you're getting more money, I agree 
and you can sort of characterize it as moving further down the 
road, but it's below the 2008 appropriated level and, as I 
said, almost 30 percent, 27.5 percent below the authorized 
level.
    Both of you emphasize the importance of research and 
development and how the fruits of that affect science, 
technology, engineering, mathematics, et cetera. We all 
understand that.
    How does cutting those two programs I talked about 
previously affect us competitively in your judgment?
    Dr. Marburger. In my judgment, their impact on 
competitiveness is negligible or very minor compared with the 
impact that the core budget has, and I would like to point out 
that the core budget request for NIST is greater than the 
Fiscal Year 2008 authorized enacted amount. My figures indicate 
that the 2008 Omnibus had $605 million for NIST core and the 
President's 2009 request is $634 million, an increase of $29 
million above the Omnibus and that's not----
    Senator Kerry. For NIST?
    Dr. Marburger. For NIST.
    Senator Kerry. I think it was $638 million but anyway $4 
million. It's government work.
    Dr. Marburger. I think the $4 million is for the MEP part 
of the program. So, I'm just----
    Senator Kerry. I see. Fair enough. OK. I accept that.
    Dr. Marburger. So, there is an increase in the President's 
request relative to last year, consistent with the priorities.
    Senator Kerry. Last year, the appropriated level was $755 
million.
    Dr. Marburger. For the total?
    Senator Kerry. For the total, yes.
    Dr. Marburger. Yes, I'm only referring to the high-
leverage, long-term impact of NIST core activities which I 
think is absolutely crucial for our long-term competitiveness.
    Dr. Turner. Can I address the----
    Senator Kerry. Please.
    Dr. Turner. In 2008, MEP was funded at a level of about $89 
million. In 2008, TIP was funded at a level of about $65 
million, and then there were about $80 million in one-time 
Federal--I mean Congressionally-directed activities and so when 
you take those out, that's the apparent difference between the 
two, why there is an apparent decrease, because if you back 
those programs out, you do have the 22 percent increase.
    I also would like to take a moment to address MEP and TIP, 
sir. First of all, I've been at NIST now a little bit less than 
a year and one of the things that I've done is gone out to 
visit MEP centers and to talk to MEP clients and I agree, it is 
a good program, but that wasn't the issue. The issue was, as 
Dr. Marburger mentioned, priorities and limited resources and 
so that's why the decisions were made that were made.
    As far as TIP is concerned, we are moving forward 
aggressively with having an 2008 competition. The rule for TIP 
is now out for public comment and we are working very hard to 
make sure that the 2008 competition for TIP is in fact 
successful, but again, the core programs affect entire sectors 
of the economy and they literally create new industries in and 
of themselves and that's one of the things that led to the 
prioritization given for the core programs.
    Senator Kerry. Fair enough. I understand that, and I can 
understand the point of view if I were in your shoes. I don't 
think you ought to be in your shoes. So that's the distinction 
here.
    Dr. Turner. Well, sir, if I may add, too, that NIST 
supports manufacturing in a variety of ways. It's very 
important to us and it's in our mission to support innovation 
and competitiveness and so our labs do it in several ways, in 
advancing nanotechnology, advanced manufacturing techniques, 
advanced materials, standards calibrations, laboratory 
accreditations. So, we are doing a lot of things that impact 
manufacturing.
    Senator Kerry. No question, no question about it. 
Everything that you do in that regard in terms of the 
measurements, accountability, standardization, all those things 
are a critical element of our economy and the measurements by 
which people can make judgments and money flows. We understand 
that, we applaud it, and we want you to be able to do more, and 
the problem is that we're in a voracious, intensive competition 
with other people who seem to have a better sense of their 
priorities and that's the struggle here.
    Obviously the Congress has a slightly different point of 
view here than the Administration about how significantly we 
should be committing to this and in our judgment it shouldn't 
be either/or. It should be all of the above because this is 
perhaps the most important critical sector in terms of 
preparing a workforce for the future as well as creating the 
high value-added jobs which are going to grow our economy and 
our tax base and strengthen us competitively.
    So, you're a key player in it and this sector, this 
Committee believes, is perhaps the most critical in terms of 
the nature of the playing field as it is evolving and changing.
    Let me pick up on that a little bit, if I can. Then I want 
to let Senator Klobuchar have a chance to have a round here, 
then we'll come back.
    This issue of climate change is something, and I'm not 
going to focus the whole hearing on it, I want to come back to 
some of the other areas, but for 20 years now, this committee 
has had a leadership role. Senator Gore and I held the first 
hearings on climate change in this committee in 1987. The next 
year, Jim Hanson made his announcements and then 5 years later, 
we all went down to Rio, President George Herbert Walker Bush 
took part in that, and here we are in 2008 still debating 
whether or not we ought to respond to something that we entered 
into an international treaty on in 1992.
    So, our commitment to this is critical and the science, 
whether you listen to, you know, John Holdren up at Harvard and 
Woods Hole or Bob Corell down here in Washington or a whole 
host of people all over the country who are weighing in on this 
or the IPCC folks, is that it's becoming more urgent, not less. 
The science is becoming more firm, not less. The evidence of 
damage is becoming greater, not less. I mean, you run through 
every sequence of measurement.
    Notwithstanding that, we are still waiting. In August of 
2007, a Federal judge found that the Bush Administration 
violated the Global Change Research Act by failing to produce a 
National Assessment of Climate Change Science which was due in 
November of 2004, and, you know, we're hoping this is going to 
be delivered by the court's deadline, but OSTP staff has 
indicated that the Administration believes that the 21 ongoing 
assessment reports, only four of which have been completed, 
comply with the law and with the court's decision.
    So, we've got a conflict brewing here about what science is 
going to be provided and what kind of report is going to be 
provided. The assessment that those assessment reports comply 
with the 2005 GAO assessment runs contrary to the current plan 
and requirement to provide a single comprehensive national 
assessment.
    So, my question to you is will a national assessment be 
delivered by May 31st deadline, and is it going to take the 
form of a single integrated comprehensive report?
    Dr. Marburger. Yes, Senator, I'm very pleased to report 
that the Climate Change Science Program is making good 
progress. The court order that you referred to required a 
summary of the revised research plan to be published in the 
Federal Register for public comment prior to March 1st. That 
plan was published in the Federal Register in December of last 
year and the comment period is now closed.
    The full revised research plan is due by May 30th and the 
scientific assessment that you referred to that is due by May 
31st have--are in process. I have seen drafts of both reports. 
They're very substantial and I'm pleased that they're making 
this progress, and I obviously appreciate the patience of this 
committee as we get these important documents out.
    Senator Kerry. Well, that's excellent, and we obviously 
will look forward to receiving that and hope that it will be 
really comprehensive and perhaps help to resolve some 
questions. So, we look forward to that.
    One thing I do note is that the budget was presented as a 
lump sum rather than broken down in terms of agency 
distribution and makes it very difficult to figure out how you 
draw the line between climate science and climate technology 
and so forth.
    There's $2 billion point something in that. Is there some 
way to get that breakdown? Could you submit that to us?
    Dr. Marburger. I would be glad to submit a breakdown to the 
extent that it's possible. I believe it can be broken down in a 
much finer way.
    [The information referred to follows:]


----------------------------------------------------------------------------------------------------------------
                                                              FY 2007       FY 2008       FY 2009     Change in
                                                              Actual        Enacted      Proposed       Budget
                          CCSP 1                              Budget        Budget        Budget      Authority
                                                             Authority     Authority     Authority    2008-2009
----------------------------------------------------------------------------------------------------------------
Department of Agriculture

  Agricultural Research Service                                     40            39            37            -2
  Cooperative State Research, Education and Extension                2             4             6             2
   Services
  Economic Research Service 2                                        0             0             0             0
  Forest Service--Forest and Rangeland Research                     19            22            19            -3
----------------------------------------------------------------------------------------------------------------
    Subtotal--USDA 3                                                61            65            62            -3
----------------------------------------------------------------------------------------------------------------
Department of Commerce

  National Oceanic and Atmospheric Administration--                229           254           239           -15
   Operations, Research, and Facilities4
  National Oceanic and Atmospheric Administration                    7             7            81            74
   Procurement, Acquisition, and Construction 4 5
  National Institute of Standards and Technology (NIST) 6           --             5             5             0
----------------------------------------------------------------------------------------------------------------
    Subtotal--DOC 3                                                236           266           325            59
----------------------------------------------------------------------------------------------------------------
Department of Energy

  Science--Biological & Environmental Research 3 7                 126           128           146            18
----------------------------------------------------------------------------------------------------------------
Department of Health and Human Services

  National Institutes of Health 3                                   47            47            47             0
----------------------------------------------------------------------------------------------------------------
Department of the Interior

  U.S. Geological Survey--Surveys, Investigations, and              27            34            31            -3
   Research 3
Department of Transportation

  Federal Highway Administration--Federal-Aid Highways 3             0             1             0            -1
   8
  Federal Aviation Administration--Research, Engineering,            0             0             2             2
   and Development 9
  Federal Transit Administration--Research and University            0             0             0             0
   Research Centers 10
----------------------------------------------------------------------------------------------------------------
    Subtotal--DOT 3                                                  1             1             2             1
----------------------------------------------------------------------------------------------------------------
Environmental Protection Agency

  Science and Technology 3                                          16            20            16            -4
----------------------------------------------------------------------------------------------------------------
National Aeronautics and Space Administration 11
  Science, Aeronautics, and Exploration 3                        1,084         1,078             0        -1,078
  Science                                                            0             0         1,204         1,204
----------------------------------------------------------------------------------------------------------------
    Subtotal--NASA                                               1,084         1,078         1,204           126
----------------------------------------------------------------------------------------------------------------
National Science Foundation

  Research and Related Activities 3                                207           205           221            16
----------------------------------------------------------------------------------------------------------------
Smithsonian Institution

  Salaries and Expenses 3                                            6             6             6             0
----------------------------------------------------------------------------------------------------------------
U.S. Agency for International Development

Development Assistance 3                                            14            14            20             6
----------------------------------------------------------------------------------------------------------------
      Total 3                                                    1,825         1,864         2,080           216
----------------------------------------------------------------------------------------------------------------
\1\ All data supersede numbers released with the 2009 President's Budget. Budget Authority provided in millions
  of dollars. Discrepancies resulted from rounding and improved estimates.
\2\ Funding for the Economic Research Service is less than $500,000 for all years shown.
\3\ Agency subtotals and table total may not add due to rounding.
\4\ NOAA previously reported its climate research activities to CCSP, which were included under its Office of
  Oceanic and Atmospheric Research (OAR) line office and the National Marine Fisheries Service (NMFS) line
  office starting in FY 2006. For FY 2008, NOAA made a decision to report activities for the NOAA climate
  strategic goal, as defined in the NOAA strategic plan (2005), to ensure consistent reporting and provide the
  most accurate picture of its climate funding to date. The climate goal includes both research and operations
  funding under the following offices: OAR, NMFS, the National Weather Service, and the National Environmental
  Satellite, Data, and Information Service.
\5\ Past reports have erroneously presented all of NOAA's CCSP funding in the Operations, Research, and
  Facilities (ORF) account. Climate-related activities have been and continue to be funded in both the ORF
  account and the Procurement, Acquisition, and Construction (PAC) account.
\6\ 2008 funding is for new measurement and standards-related activities that NIST will undertake to support
  CCSP.
\7\  The majority of the 2009 increase is due to increased climate modeling efforts. Examples include testing
  new convection and cloud parameterization schemes, research on effects of improved initialization of coupled
  model components on decadal predictability of climate, and understanding the role of cryospheric processes in
  the climate system.
\8\ The 2006, 2007 and 2009 funding for Federal Highway Administration--Federal-Aid Highways was less than
  $500,000.
\9\ The 2006, 2007 and 2008 funding for Federal Aviation Administration--Research, Engineering, and Development
  was less than $500,000.
\10\ Federal Transit Administration--Research and University Research Centers is FTA's support for DOT's Center
  for Climate Change. The 2006 through 2009 funding amounts for this program are less than $500,000.
\11\ NASA has revised the set of programs and projects it counts as supporting CCSP goals. Beginning in 2006,
  the funding levels presented do not include the Ground Network and Research Range assets or Congressional
  interest items but comprise activities not previously counted, including the NPOESS Preparatory Project,
  portions of the Landsat Data Continuity Mission (LDCM), and the Gravity Recovery and Climate Experiment
  (GRACE), as well as portions of the High-End Computing and Scientific Computing projects.


----------------------------------------------------------------------------------------------------------------
                                                              FY 2007       FY 2008       FY 2009     Change in
                                                              Actual        Enacted      Proposed       Budget
                          CCTP 1                              Budget        Budget        Budget      Authority
                                                             Authority     Authority     Authority    2008-2009
----------------------------------------------------------------------------------------------------------------
Department of Agriculture

  Natural Resources Conservation Service--Carbon Cycle               1             1             1             0
  Forest Service R&D--Inventories of Carbon Biomass                  1             1             1             0
  Agricultural Research Service--Bioenergy Research                  2             2             2             0
  Cooperative State Research, Education and Extension                3             8            27            19
   Service--Biofuels/Biomass Research, Formula Funds,
   National Research Initiative 2
  Forest Service--Biofuels/Biomass, Forest and Rangeland             2             2             2             0
   Research
  Rural Business Service--Renewable Energy Program                  23            36             0           -36
  Rural Business Service--Value Added Producer Grants                3             5             0            -5
  Rural Business Service--Biomass R&D, Section 9008 Farm            14             0             0             0
   Bill 3
  Office of the Chief Economist--Methane to Markets 4                0             0             0             0
  Research Education, Economics Area--Bioenergy and                 --            50            50             0
   Biobased Products Research Initiative (mandatory
   funding) 5 6
  Forest Service--Forest Wood to Energy (mandatory                  --            15            15             0
   funding) 5 7
  Rural Business Service--Renewable Energy Systems and              --            50            50             0
   Energy Efficiency Grants (mandatory funding) 5 8
  Rural Business Service--Renewable Energy Systems and              --            21            21             0
   Energy Efficiency Loans (mandatory funding) 5 8
  Rural Business Service--Biomass R&D, Section 9008                 --            15            15             0
   (mandatory funding) 5 9
    Subtotal--mandatory funding 10                                  14           151           151             0
    Subtotal--discretionary funding 10                              34            54            33           -21
----------------------------------------------------------------------------------------------------------------
      Subtotal--USDA 10                                             48           205           184           -21
----------------------------------------------------------------------------------------------------------------
Department of Commerce

  National Institute of Standards and Technology (NIST)--            6             6             6             0
   Scientific and Technological Research and Services
  NIST--Industrial Technical Services, Advanced                     16             0             0             0
   Technology Program 11
  International Trade Administration--Operations and                 0             2             2             0
   Administration 12
----------------------------------------------------------------------------------------------------------------
    Subtotal--Commerce 10                                           22             8             8             0
----------------------------------------------------------------------------------------------------------------
Department of Defense

  Research, Development, Test and Evaluation, Army                  69            74            16           -58
  Research, Development, Test and Evaluation, Navy                  13            39            11           -28
  Research, Development, Test and Evaluation, Air Force             13            36           104            68
  Research, Development, Test and Evaluation, Defense-               6             0             0             0
   wide--DARPA 14
  Research, Development, Test and Evaluation, Defense-               0             0             0             0
   wide--Office of the Secretary of Defense
----------------------------------------------------------------------------------------------------------------
    Subtotal--DOD 10 13                                            101           150           131           -19
----------------------------------------------------------------------------------------------------------------
Department of Energy

  Energy Efficiency and Renewable Energy 15 16                   1,411         1,722         1,255          -467
  Electricity Delivery and Energy Reliability 15                   120           130           122            -7
  Nuclear Energy 17                                                513           685           879           194
  Fossil Energy R&D--Efficiency and Sequestration 18               493           611           744           133
  Science--Fusion, Sequestration, and Hydrogen 19                  487           499           833           334
  Innovative Technology Loan Guarantee Program 20                    7             5             0            -5
  Departmental Administration--Climate Change Technology             1             1             2             1
   Program Direction 21
----------------------------------------------------------------------------------------------------------------
    Subtotal--DOE 10                                             3,032         3,652         3,835           183
----------------------------------------------------------------------------------------------------------------
Department of Transportation

  National Highway Traffic Safety Administration 22                  1             1             0            -1
  Research and Innovative Technology Administration--                1             1             1             0
   Research and Development
  Federal Transit Administration--Research and University           16            18            19             1
   Research Centers and Formula and Bus Grants 23
----------------------------------------------------------------------------------------------------------------
    Subtotal--DOT 10                                                17            19            20             1
----------------------------------------------------------------------------------------------------------------
Environmental Protection Agency

  Environmental Programs and Management                             92            90            87            -3
  Science and Technology                                            13            18            11            -7
----------------------------------------------------------------------------------------------------------------
    Subtotal--EPA 10                                               105           108            98           -10
----------------------------------------------------------------------------------------------------------------
National Aeronautics and Space Administration 24
  Science, Aeronautics, and Exploration                            139           139           117           -22
----------------------------------------------------------------------------------------------------------------
National Science Foundation

  Research and Related Activities                                   21            21            23             2
----------------------------------------------------------------------------------------------------------------
      Total 10                                                   3,485         4,303         4,416           114
----------------------------------------------------------------------------------------------------------------
\1\ All data supersede numbers released with the 2009 President's Budget. Budget Authority provided in millions
  of dollars. Discrepancies resulted from rounding and improved estimates.
\2\ The FY 2008 level includes increased funding for research in cellulosic ethanol.
\3\ Though initially run through the Natural Resources Conservation Service, the Biomass R&D, Section 9008 Farm
  Bill program was transferred at the end of FY 2006 to the Rural Business Service. The program activities,
  historical funding levels, and treasury account number remain the same.
\4\ The Methane to Market partnership is a new initiative for the Office of the Chief Economist in FY 2008.
\5\ These are mandatory programs proposed in the Administration's Farm Bill. The Farm Bill has not been enacted
  for 2008, however funding is included in this column assuming the Administration's Farm Bill is passed in
  2008.
\6\ This new program will advance scientific knowledge for the improved production of renewable fuels and
  biobased products.
\7\ This new program will be used to accelerate development and use of new technologies to more productively
  utilize low-value woody biomass resources, offsetting the demand for fossil fuels and improving forest health.
\8\ The discretionary funding for the renewable energy program has historically been and continues to be
  included in this report. The program is proposed for reauthorization in the 2007 Farm Bill proposals and the
  associated mandatory funding has been included here.
\9\ The discretionary funding for the Biomass R&D program has historically been and continues to be included in
  this report. The program is proposed for reauthorization in the 2007 Farm Bill proposals and the associated
  mandatory funding has been included here.
\10\ Agency subtotals and table total may not add due to rounding. All data supersede numbers released with the
  2009 President's Budget. Discrepancies resulted from rounding and improved estimates.
\11\ The 2007 Budget authority, obligations, and outlays for NIST's Advanced Technology Program are less than
  $500,000. The program has been proposed for elimination in 2008.
\12\ The Department of Commerce provided funding in this account for the Asia-Pacific Partnership on Clean
  Development and Climate beginning in 2008.
\13\ The 2008 enacted budget authority funding represents Congressional action on the 2008 budget and includes
  earmarks that are not proposed for extension in the 2009 President's Budget request.
\14\ The reduction in DARPA funding from 2007 to 2008 represents the natural conclusion of an R&D program to
  investigate the use of waste materials to produce electricity for military installations.
\15\ In 2008, Congress enacted a new account structure. In 2007, funding for these programs was provided in the
  Energy Supply and Conservation account. 2008 and 2009 funding is provided in the new accounts listed.
\16\ The Reduction from 2008 Enacted to the 2009 Budget level is largely due to the elimination of Congressional
  earmarks and other terminations and redirections, including a reduction in facilities construction funding.
\17\ Funding levels do not include the MOX facility. The 2009 Budget includes increases in funding over the 2008
  enacted levels for the Advanced Fuel Cycle Initiative/Global Nuclear Energy Partnership and Nuclear Power 2010
  programs. The 2008 Budget includes increases in funding over the 2007 enacted levels for the Generation IV
  Nuclear Energy Systems Initiative and Nuclear Power 2010 programs.
\18\ This activity supports research, development and demonstration of technologies that capture and store
  carbon dioxide and improve efficiency to reduce greenhouse gas emissions at coal power plants and industrial
  coal facilities.
\9\ The increases in funding from 2008 to 2009 in Science--Fusion, Sequestration, and Hydrogen reflect increased
  support for programs that are all included within the American Competitiveness Initiative, and are for the
  most part also included within the Advanced Energy Initiative, including increases to the international ITER
  fusion project, and for areas identified in the ``Basic Research Needs'' for energy technologies series of
  workshops.
\20\ This is a new program in 2007. Administrative expenses are reported to establish a loan guarantee office.
  In 2009 and thereafter, administrative costs will be fee funded, so there is no net cost to the government.
\21\ The increase in 2009 reflects additional funding for modeling and analysis improvements.
\22\ The 2009 Funding for the National Highway Traffic Safety Administration was less than $500,000.
\23\ Section 3045 of the Safe, Accountable, Flexible, Efficient Transportation Equity Act: a Legacy for Users
  (SAFETEA-LU) establishes a National Fuel Cell Bus Technology Development Program (NFCBP). The NFCBP's goal is
  to facilitate the development of commercially viable fuel cell bus technologies and related infrastructure to
  reduce fossil fuel dependence and emissions from bus transportation. These grants were funded for the first
  time in 2006.
\24\ NASA's 2006 funding level increased markedly from the 2006 level reported in the last report due to
  Congressional direction to increase the budget for the Fundamental Aeronautics Program budget, NASA's major
  contributor to CCTP funding. The drop from the 2007 enacted level to the 2008 proposed level reflects
  differences of opinion between the Congress and Administration concerning the level at which the Fundamental
  Aeronautics Program should be funded.


----------------------------------------------------------------------------------------------------------------
                                                              FY 2007       FY 2008       FY 2009     Change in
                                                              Actual        Enacted      Proposed       Budget
            Summary of Climate Expenditures 1                 Budget        Budget        Budget      Authority
                                                             Authority     Authority     Authority    2008-2009
----------------------------------------------------------------------------------------------------------------
Climate Change Science Program (CCSP)                            1,825         1,864         2,080           216
----------------------------------------------------------------------------------------------------------------
Climate Change Technology Program (CCTP) 2                       3,485         4,303         4,416           114
----------------------------------------------------------------------------------------------------------------
International Assistance 3                                         188           202           657           455
----------------------------------------------------------------------------------------------------------------
Energy Tax Provisions That May Reduce Greenhouse Gases 4         1,520         1,520         1,440           -80
 5
----------------------------------------------------------------------------------------------------------------
Total 3 6                                                        7,004         7,875         8,573           699
----------------------------------------------------------------------------------------------------------------
\1\ Data supersede numbers released with the President's 2009 Budget. Budget Authority provided in millions of
  dollars. Discrepancies resulted from rounding and improved estimates.
\2\ As comparable 2001 funding has not been generated for the CCTP, the 2001 amount shown for CCTP reflects
  estimated data for DOE and EPA only.
\3\ The International Assistance total contains funds that are also counted in the Climate Change Science
  Program total. Table total line excludes this double-count.
\4\ Tax incentives related to climate change included in this report are currently projected at about $6.0
  billion over five years (2009-2013).
\5\ Tax expenditures are estimates of the revenue losses due to a tax preference. While not exactly equivalent
  to budget authority, obligations or outlays, tax expenditure estimates have been included in all columns for
  completeness.
\6\ Table total may not add due to rounding.


----------------------------------------------------------------------------------------------------------------
                                                              FY 2007       FY 2008       FY 2009     Change in
                                                              Actual        Enacted      Proposed       Budget
                International Assistance 1                    Budget        Budget        Budget      Authority
                                                             Authority     Authority     Authority    2008-2009
----------------------------------------------------------------------------------------------------------------
Department of State

  Diplomatic and Consular Affairs                                    3             4             4             0
  Economic Support Fund 2 3                                         32            32            37             5
  International Organizations and Programs                           6             5             5             0
----------------------------------------------------------------------------------------------------------------
    Subtotal--State 4                                               41            41            46             5
----------------------------------------------------------------------------------------------------------------
Department of the Treasury 5
  Debt Restructuring--Tropical Forestry Conservation                20            20            20             0
  Global Environment Facility 6                                     26            26            26             0
  Clean Technology Fund                                              0             0           400           400
----------------------------------------------------------------------------------------------------------------
    Subtotal--Treasury 4                                            46            46           446           400
----------------------------------------------------------------------------------------------------------------
U.S. Agency for International Development 2
  Andean Counterdrug Initiative 7                                    0             0             0             0
  Assistance for Eastern Europe and the Baltic States                3            11            11             0
  Assistance for the Independent States of the Former                5            15            15             0
   Soviet Union
  Development Assistance                                            89            81           130            49
  Economic Support Fund                                              0             7             7             0
  International Disaster Assistance                                  2             2             2             0
  P.L.-480 Title II Food Aid                                         0             0             0             0
----------------------------------------------------------------------------------------------------------------
    Subtotal--USAID 4                                              100           115           165            50
----------------------------------------------------------------------------------------------------------------
      Total 4                                                      188           202           657           455
----------------------------------------------------------------------------------------------------------------
\1\ All data supersede numbers released with the 2009 President's Budget. Budget Authority provided in millions
  of dollars. Discrepancies resulted from rounding and improved estimates.
\2\ USAID is currently restructuring its planning, budgeting and reporting methods and electronic applications.
  Strategic Objectives that were reported for FY 2006 may not track consistently into elements reported for FY
  2007, FY 2008, and FY 2009. Estimates for global climate change (GCC) program funding (as a subset of total
  element funding) are reported here and may change as the restructuring and reform process is completed. Some
  GCC program activities may not appear in this table at this time and may be added in future accounting.
\3\ The increase in the Economic Support Fund in 2007 reflects funding for the Asia-Pacific Partnership on Clean
  Development and Climate.
\4\ Agency subtotals and table total may not add due to rounding.
\5\ The 2007 President's Budget included funding for climate-related activities through the Asian Development
  Bank. That funding was not appropriated in this account. Therefore, that account has been deleted.
\6\ The 2009 Budget provides $80 million for GEF. Of this amount, a portion will be allocated to programs
  related to climate change.
\7\ The Andean Counterdrug Initiative account was added in the Fiscal Year 2004 report to reflect new counter-
  deforestation activities in Peru.


                                                 Energy Tax Provisions That May Reduce Greenhouse Gases
                                                           [Fiscal Years--Dollars in Millions]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                  2007     2008     2009     2010     2011     2012     2013   2009-2013
--------------------------------------------------------------------------------------------------------------------------------------------------------
New technology credit (without coal) 1                                             410      800      990    1,020    1,000      990      960     4,960
--------------------------------------------------------------------------------------------------------------------------------------------------------
Tax credit and deduction for clean-fuel burning vehicles                           260      150      130      -20      -50      -60      -50       -50
--------------------------------------------------------------------------------------------------------------------------------------------------------
Exclusion of utility conservation subsidies                                        120      120      120      110      110      110      110       560
--------------------------------------------------------------------------------------------------------------------------------------------------------
Credit for holding clean renewable energy bonds                                     20       40       70       70       70       70       70       350
--------------------------------------------------------------------------------------------------------------------------------------------------------
Allowance of deduction for certain energy efficient commercial building            190      170       90       30        0        0        0       120
 property
--------------------------------------------------------------------------------------------------------------------------------------------------------
Credit for construction of new energy efficient homes                               20       30       20       10        0        0        0        30
--------------------------------------------------------------------------------------------------------------------------------------------------------
Credit for energy efficiency improvements to existing homes                        380      150        0        0        0        0        0         0
--------------------------------------------------------------------------------------------------------------------------------------------------------
Credit for energy efficient appliances                                              80        0        0        0        0        0        0         0
--------------------------------------------------------------------------------------------------------------------------------------------------------
Credit for residential purchases/installations of solar and fuel cells              10       10       10        0        0        0        0        10
--------------------------------------------------------------------------------------------------------------------------------------------------------
Credit for business installation of qualified fuel cells 2                          30       50       10      -10      -10      -10      -10       -30
--------------------------------------------------------------------------------------------------------------------------------------------------------
    Total                                                                        1,520    1,520    1,440    1,210    1,120    1,100    1,080     5,950
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Estimates of revenue loss from coal provisions have been removed from the tax expenditure estimate in the budget.
\2\ Estimates of revenue loss from the micro-turbine provision have been removed from the tax expenditure estimate in the budget.


    Senator Kerry. It'd be very helpful to us to have a better 
understanding of how that's going to be allocated.
    Dr. Marburger. I agree.
    Senator Kerry. Thank you very much, Doctor. I'll come back 
afterwards.
    Senator Klobuchar, welcome.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman. Thank 
you to our panelists.
    I want to thank you for being here for this important 
hearing. Just last Spring, the subcommittee heard from the 2006 
Nobel Prize winners in the Sciences and as you know, this year 
for the first time in 20 years, all of the Nobel Prize winners 
in the sciences were United States citizens. Such an 
achievement is no doubt a result of their own hard work, but 
it's also, I believe, a testament to our country's historic 
investment and commitment and global leadership in education, 
research and technology.
    Without the support and the leadership, as we heard from 
those Nobel Prize winners, they would not have had the funding 
to do their research to do their groundbreaking work, and as 
they told us last year, their fear was that U.S. technological 
leadership may now be slipping. As Senator Kerry has mentioned, 
it is increasingly threatened by the other countries around us 
that are putting a bigger focus on this and we need to change 
in a new direction.
    My questions were, first of all, about how it once was and 
that was that the U.S. once relied on major industrial 
laboratories for significant amounts of research in innovation, 
like the AT&T Labs and General Electric, IBM, RCA, and they no 
longer exist or the funding has been so depleted that they can 
no longer be the research powerhouses that they once were, and 
can government-supported research serve as a replacement for 
these industrial laboratories?
    Dr. Marburger?
    Dr. Marburger. Well, I knew a lot about the old Bell Labs 
and it would be hard to replace it, but times have changed and 
it's true that those labs have lost a good bit of their basic 
research flavor.
    So, the mantle has fallen to government labs and 
university-based facilities and the three agencies that have 
been highlighted in the American Competitiveness Initiative and 
the America COMPETES Act all operate facilities that have some 
similarities to the function of the old Bell Labs.
    So, for example, NIST operates one of the premier neutron 
research facilities, a user facility, that's used by thousands 
of people, including industry, especially industry, to do their 
materials work. The Department of Energy operates a number of 
laboratories with facilities and now nanotechnology and 
materials centers that do in fact perform some of the functions 
that Bell Labs and other industrial group research labs of the 
past used to fill.
    I believe this is an important function of the Federal 
Government and I believe that funding of these competitiveness 
initiatives is very important to foster the growth of these 
labs and their quality and ability to compete with other 
countries.
    Senator Klobuchar. But if we believe this, why aren't we 
putting the funding into it?
    Dr. Marburger. Well, the President has requested funding 
for these facilities for the NIST core budget, for the National 
Science Foundation, for the Department of Energy, Office of 
Science, for 2 years now. This is the third year, but 
unfortunately for reasons I think that are certainly beyond my 
control, the Congress has failed to fund the budgets of these 
important agencies at the levels requested.
    I think it is important. I know this committee has--it's 
not the fault of this committee. This committee has been very 
supportive of these increases and I look forward to working 
with this committee to try to make it a positive change in the 
future.
    Senator Klobuchar. Do you think the America COMPETES Act is 
also important? As we talk to these Nobel Prize winners, they 
talked about how their education early on was so important to 
them and their Congress authorized $115 million, but the 
President only put forward $11.6 million, as I understand it, 
in his 2009 budget.
    Dr. Marburger. It's certainly true that the--well, first of 
all, yes, I believe the COMPETES Act is important, and I 
believe that it establishes important principles and priorities 
that need to be addressed now and in the future.
    With respect to the President's request, the President is 
requesting substantial amounts and the President's request for 
2009 would fund the authorization levels of the COMPETES Act at 
a higher percentage than the 2008 Omnibus bill did.
    Senator Klobuchar. And what percentage would that be of 
$115 million?
    Dr. Marburger. I think I actually had the numbers here. The 
President's budget funds 85 percent of the authorized level and 
in the Omnibus bill, the Congress funded the Act at 82 percent 
of the authorized level.
    Senator Klobuchar. But how come the President would put 
right when this bill passed and he supported it in the 2009 
budget only $11.6 million?
    Dr. Marburger. Well, there is often a difference between 
appropriated levels and authorized levels. The authorized 
levels tend to be more ambitious and I think appropriately so. 
When all of the dust settles on the budget, when the capacity 
of the discretionary budget to fund programs is assessed and 
the budget finally comes out, it has these realities built into 
it.
    I do think it's significant that increases for these key 
agencies are very substantially above the entire growth of the 
discretionary budget and even other parts of the science 
budget. So, I think the President is acting in good faith here 
and doing everything he can to get funds into these facilities.
    Senator Klobuchar. But Dr. Marburger, just to give these 
statistics, I'm sure you're familiar with, in 2004, China 
graduated more than 600,000 engineers and India graduated over 
350,000 engineers and in our great country, we only produced 
70,000 engineers.
    Do you think the President's funding priorities do anything 
to remedy that situation?
    Dr. Marburger. Absolutely. I think the President's requests 
under the America COMPETES Act and the American Competitiveness 
Initiative do address those issues by investing in science and 
investing not only in the facilities and in the basic research 
that's attractive and that draws people into this area but also 
in a number of other areas, including education, immigration 
policy, and tax incentives for industry to invest in these 
areas.
    Senator Klobuchar. For instance, China and South Korea have 
boosted their government research by 10 percent or more 
annually. Are we doing enough to maintain? When we look at 
what's going on around the world and how we seem to be losing 
out with some of these technological developments, whether it 
be scientific research, with stem cell research that the 
President has a different view on than many in this Congress, 
or whether it is about looking at this kind of research?
    I look at some of the things we've seen in our own state 
and I have seen a change in the kind of research funding. We've 
lost several researchers to other countries because of the lack 
of funding.
    Dr. Marburger. Well, the President is requesting a 14 
percent increase for the National Science Foundation and a 22 
percent increase for NIST core operations compared with the 
previously enacted budget.
    I don't think--I think these compare favorably with 10 
percent increases, and I hope that Congress is able to pass 
these appropriations bills that fund the request.
    There's no question that the President wants to invest 
aggressively and in accordance with priorities that are clear 
to preserve our competitiveness far into the future.
    Senator Klobuchar. And then I had a few questions for you, 
Dr. Bement. As you may know, the legendary Seymour Cray, the 
father of supercomputing, founded Cray Research in my state of 
Minnesota in 1972, and today Cray, although based in Washington 
state, maintains a strong presence in Minnesota and they 
continue to build large supercomputers for the government.
    What has the National Science Foundation done in the last 
few years to strengthen the role of supercomputing as a key 
enabler for advancing the frontiers of science and engineering?
    Dr. Bement. Thank you. Senator, first of all, we have 
provided ongoing support for three national supercomputing 
centers under our major program for that purpose, but we're now 
recognizing the need to go to a much higher level of 
computation. We're investing in teraflop-type machines and also 
petaflop. Now that's the number of operations per second. We're 
talking about trillions of operations per second.
    We recognize that we also have to replace machines that are 
becoming obsolete. So, in addition to soliciting proposals for 
new centers, we're also keeping existing centers up to date.
    We now have an award to develop a petaflop machine at the 
University of Illinois. We have an award at Texas for a ranger-
type machine that will operate high in the teraflop regime and 
also one at Oak Ridge through the University of Tennessee.
    These machines rank very, very high relative to the very 
high-end machines in the world today. Most of these are in the 
top 10. We're well ahead of the Japanese machine that created a 
big stir about 5 years ago.
    So, first of all, I think we're keeping up in the 
technology. I think we're serving the broad science and 
engineering community at large, and I think we're also coupled 
very well with industry, especially the supercomputing 
industry, in pushing the technology envelope to be sure that 
that industry remains competitive.
    Senator Klobuchar. Thank you very much. Appreciate it.
    Dr. Bement. You're welcome.
    Senator Klobuchar. Senator Kerry.
    Senator Kerry. Thank you very much. There is also not one 
area of ocean in the world that is not suffering consequences 
of development, pollution, change of one kind or another. Every 
major fishery in the world is in extremis and we face enormous 
challenges with respect to the ocean ecosystem.
    Most of the money, as I can determine it, in the proposed 
Climate Change Science Program budget seems to be directed at 
space-observing systems.
    I wonder if you could share with us your thinking about the 
focus, the priority, what priority is CCSP putting on ocean 
research at this point?
    I might add, as a 20-year whatever plus veteran of this 
committee and I served at one point as the Ocean Subcommittee 
Chairman, the great struggle in producing adequate fisheries 
laws in our own country is lack of adequate science and the 
captains and the fisheries are all complaining that there isn't 
adequate science knowledge on stocks and so forth.
    So, help us, if you would, to understand how we square this 
space versus ocean research.
    Dr. Marburger. Well, both space-based and land- or ocean-
based instrumentation are important to do the science. The 
advantage of space-based observations is that they do enable 
you to see everything and scientists are becoming more and more 
clever in how they can extract information from space-based 
observations, such as looking at the color of the water and 
detailed measurements of height and wavelength properties and 
various radiations from the ocean.
    But it is necessary to have instrumentation out there and 
there has been an effort to provide more ocean-based 
instrumentation. NOAA has a program on this. Dr. Bement might 
be interested in commenting on what NSF is doing there, but it 
is true that you have to have both. In a way, it's less 
expensive to put buoys and various other kinds of equipment in 
the ocean, but it only samples a very small fraction of the 
ocean environment. So, both are important.
    The President is funding some critical earth-observing 
systems in his proposal. These are systems that have been well 
planned and I think likely to be very successful in achieving 
their scientific objectives. The president is also asking for, 
as I mentioned in my remarks, a $102 million for ocean science 
and research at the three agencies, NOAA, NSF and USGS.
    I'd be glad to provide more detail on that in written 
testimony, but there is an effort to cover these areas in this 
budget request, and I certainly agree with the importance of 
these programs for climate science.
    [The information requested to follows:]

                           Earth Observations
Research and Development Funding in the President's FY 2009 Budget

    The U.S. supports space-based, airborne and ground-based 
instruments to observe, monitor and measure a multitude of the Earth's 
characteristics around the globe. The President is committed to 
optimizing these scientific efforts by developing sustained and 
integrated Earth Observation systems for the Nation and by making these 
systems an integral part of a global system. The 2009 Budget includes:

  <bullet> Funds to sustain the highest priority climate measurement 
        capabilities that once were part of the tri-agency National 
        Polar-orbiting Operational Environmental Satellite System 
        (NPOESS) program (but were removed or ``de-manifested'' during 
        the 2006 restructuring of NPOESS in response to significant 
        NPOESS cost over-runs). This operational climate sensor package 
        will be supported with $74 million in FY 2009 funds requested 
        by the Department of Commerce's National Oceanic and 
        Atmospheric Administration (NOAA).

  <bullet> $103 million in FY 2009 (with a total of $910 million over 5 
        years) for the National Aeronautics and Space Administration 
        (NASA) to embark on a series of space-based Earth observing 
        missions that the National Research Council's recent ``decadal 
        survey'' ranked as the top priorities for Earth sciences, 
        including: (1) SMAP (Soil Moisture Active/Passive), which will 
        enable global soil moisture mapping with unprecedented 
        resolution, sensitivity, area coverage, and revisit times; and, 
        (2) ICESat (Ice, Cloud, and land Elevation Satellite), the 
        benchmark Earth Observing System mission for measuring ice 
        sheet mass balance, cloud and aerosol heights, and land 
        topography and vegetation characteristics. NASA will also 
        continue ongoing work to develop and launch seven new Earth 
        observing missions in the next several years while operating 
        fourteen missions presently on orbit.

  <bullet> $139 million for NASA to procure the LandSat Data Continuity 
        Mission to continue the 35-year record of land imagery from 
        space critical to Earth Observations data continuity.

  <bullet> $2 million for the U.S. Geological Survey (USGS) to 
        establish a National Land Imaging Program office to ensure 
        long-term continuity of multi-spectral imaging of the Earth's 
        surface, consistent with the recommendation of the Interagency 
        Working Group on the Future of Land Imaging.

  <bullet> $126 million for NASA to launch the Global Precipitation 
        Measurement (GPM) mission core spacecraft no later than 2013.

  <bullet> $21 million to support the NOAA-led Integrated Ocean 
        Observing System and a total of $10.5 million for the National 
        Science Foundation's (NSF) Ocean Observatories Initiative.

  <bullet> Improvement of U.S. earthquake monitoring and prediction 
        capabilities by NSF and USGS through EarthScope at $26.3 
        million and the Advanced National Seismic System at $8 million.

    Senator Kerry. What I'd like to ask, if I may, is that you 
provide as a component of the May Climate Change Assessment, if 
you would include in that a section on the oceans in terms of 
the ecosystem understanding as it is today in terms of climate 
and so forth.
    Dr. Marburger. I think there is a provision for that and 
I'll check.
    Senator Kerry. OK. Dr. Bement, do you want to add to that?
    Dr. Bement. Yes, I can briefly characterize NSF's 
contributions to climate change.
    Our overall budget is about $221 million in the 2009 
request, but it doesn't include everything. In our major 
facilities programs, we have five major facilities that are 
contributing to global climate change research and if you wish, 
I can go over those, but I could also provide it for the 
record.
    We're quite active in ocean drilling, primarily because by 
drilling down into the ocean bottom, we can track weather back 
five million years and look at cyclical events due to the 
various ice ages and other disruptions.
    A lot of our program is focused in the polar regions, 
primarily because there is more fresh water that is going into 
both the Southern Ocean from Antarctica but also from the 
Arctic Ocean in the Arctic Region.
    This fresh water not only affects the ecosystem and also 
fish migration but it especially affects the overturning 
circulation from the equatorial regions to the northern 
latitudes and so it could lead to disruptive weather events in 
the future.
    In addition to that, we're quite concerned about the ice 
sheets in Greenland and also in the Antarctic. These are cold 
sinks for the earth. They do regulate and moderate the upper 
and lower temperate regions. But those ice sheets are receding. 
We need to understand that. And a lot of our research is in 
cooperation with NASA. NASA does earth-sensing. We do ground 
truth. We try to help them calibrate and validate their 
results.
    One measurement that we're very much interested in is being 
able to measure volumetric change in these ice sheets. NASA 
does have the ability to help us with those measurements and so 
this is another joint effort with NASA.
    We work very closely with NOAA and the Ocean Research 
Priorities Plan, and you mentioned some of the areas of 
concern. We are interested in the health of coral reefs because 
of the acidification of the oceans. We are interested in the 
impact of violent storms on coastal regions. We're developing 
advanced sensor technology and advanced observational systems 
that will assist in ocean measurements and these are just but a 
few of the things that we're doing in the general area of ocean 
science but also in climate change research.
    Senator Kerry. Do you feel as if there is an adequate 
budgeting and effort being made with respect to the ground-
based/ocean-based research effort itself?
    Dr. Bement. We have consistently increased our effort in 
this area. I think that we're hitting most of the grand 
challenges at the present time.
    I might indicate that the work that we have supported over 
the years in climate modeling, especially at NCAR but also at 
other universities, was recognized by the Nobel Peace Prize 
this year through the Intergovernmental Panel on Climate 
Change. So we have some very good people working in this field.
    Senator Kerry. But is it adequate?
    Dr. Bement. I think it's adequate at the present time, yes.
    Senator Kerry. Could you please include for the Committee 
record those five areas and the breakdown of that current level 
of effort? I think it would be helpful. I would appreciate it 
very much.
    [The information requested to follows:]

                      National Science Foundation
Five Major Efforts on Ground-based Ocean Research, Especially as 
        Related to the Effects of Climate Change

              Major Efforts in Ground-based Ocean Research Related to the Effects of Climate Change
----------------------------------------------------------------------------------------------------------------
                                                                                        Estimated     Estimated
                                                                                         FY 2008       FY 2009
----------------------------------------------------------------------------------------------------------------
Integrated Ocean Drilling Program (IODP)                                                    $46 M         $54 M
  Operations, Management and Science Support
----------------------------------------------------------------------------------------------------------------
Remote Sensing of Ice Sheets                                                             $23.75 M      $23.75 M
Ocean Research Priorities Program (ORPP)                                                     $5 M         $17 M
  Support for 4 Near-Term Priorities:

  Sensors for marine eco-system observations
  Comparative analysis of marine eco-system observations
  Atlantic Meridiolan Overturning Circulation
  Coastal Eco-system Response to Extreme Events
----------------------------------------------------------------------------------------------------------------
Ocean Acidification: Biological & Chemical Effects                                           $3 M          $3 M
----------------------------------------------------------------------------------------------------------------
Impact of Violent Storms in Coastal Regions                                               $1.25 M       $1.25 M
  in addition to ORPP support
----------------------------------------------------------------------------------------------------------------

    These five major ground-based efforts in ocean research, described 
below, will observe and provide insight into the effects of climate 
change on the oceans.

Integrated Ocean Drilling Program
    The Integrated Ocean Drilling Program is an international research 
program that explores the Earth's history and structure as recorded in 
seafloor sediments and rocks. IODP seeks to enhance understanding of 
the deep biosphere, environmental change processes and effects, and the 
solid earth and geodynamics.

Observation and Remote Sensing of Ice Sheets
    The Intergovernmental Panel on Climate Change (IPCC) identified the 
response of ice sheets to climate change as one of the largest unknown 
factors in sea-level change. Often in collaboration with other 
agencies, NSF supports extensive efforts to understand the causes and 
implications of changes in the earth's great ice sheets in Greenland 
and Antarctica. NSF's Arctic Observing Network is being implemented in 
coordination with other countries' efforts to better understand the 
ocean's role In Arctic climate change.

Ocean Research Priorities Plan
    Under the leadership of the Joint Subcommittee on Ocean Science and 
Technology, recommendations for a ``coordinated and comprehensive 
national ocean research plan serving societal needs'' were developed--
the Ocean Research Priorities Plan (ORPP). Initial ORPP support is 
directed toward four near-term priorities: sensors for marine ecosystem 
observations, comparative analysis of marine ecosystem observations, 
Atlantic meridional overturning circulation, and the coastal ecosystem 
response to extreme events.

Ocean Acidification
    As the concentration of carbon dioxide in the: atmosphere 
increases, CO<INF>2</INF> is absorbed by the world's oceans resulting 
in acidification of the water. NSF supports research to understand the 
impacts of this shift in water chemistry, which has the potential to 
significantly impact many marine organisms including corals.

Impact of Violent Storms on Coastal Regions
    As seen with Hurricane Katrina, violent storms can have tremendous 
impacts on coastal regions. NSF is supporting efforts to both 
understand and mitigate against the impacts of storms on our coasts.

    Senator Kerry. With respect to the appropriations 
themselves, let me just comment on one thing, Dr. Marburger. 
Incidentally, just for the record, while Congress ``didn't 
provide the funding,'' I want to assure you they wanted to and 
it was the President's refusal to go along with it and the 
threat of the veto and so forth that precluded those numbers 
from being added. So, the record needs to show that, you know, 
Congress was prepared to do more but again the administration 
chose a lower level and, indeed, I want to follow up on that a 
little bit.
    We had votes in the last session in the House and the 
Senate on this appropriations bill and we put the funding level 
at or above the President's 2008 budget request for NSF. NSF 
received, I think, $364 million below the President's request.
    So, it's my understanding that as a result, a number of 
activities are not going to proceed that we would have 
proceeded with, obviously, and I know you expect the impact of 
those cuts to be somewhere in the vicinity of a thousand fewer 
research grants awarded, 230 fewer graduate research fellows 
hired, and several major solicitations delayed for at least a 
year, including in the areas of computer science, cyber-
infrastructure, mathematics and physical sciences.
    So, can you summarize, give a little color and describe 
sort of the impact of these reductions in terms of those 
particular programs, NSF programs?
    Dr. Bement. Let me touch on the workforce issues. The 
demand for highly trained STEM graduates for not only industry 
but national laboratories and aerospace, is growing at the rate 
of about 5 percent a year. Degree production is only growing at 
the rate of 1.5 percent a year.
    A recent article indicated that in the aerospace industry 
alone, 60 percent of the workforce is over the age of 45 and 
we're now entering an era where the baby-boomers are beginning 
to retire. So, we're at risk of hollowing out our major defense 
industries and some of our major Federal laboratories of very 
top talent, especially in the physical sciences and 
engineering, but most critically in computer science and 
engineering.
    There are many other opportunities for those graduates in 
the private sector. So, when you focus on our research budget, 
it's important that we all recognize that it's through research 
that we train our graduate students. They do the research and 
then they go out into the private sector and they become the 
entrepreneurs, they become the scientific and engineering 
workforce necessary to support our economy.
    So, when you look at a thousand research grants that aren't 
going to be funded, it's not just a thousand ideas that aren't 
going to be explored that could be very transformative, it's 
the 1,500 graduate students and undergraduate students that are 
not going to be supported. It's the younger faculty members 
that are just getting started in their career that are not 
going to be supported. That is the major impact.
    Yes, there are programs that had to be cut back. There are 
programs that have to be delayed or deferred. There are some 
impacts at some of our major university centers where they're 
having reductions in force, but the critical thing is looking 
ahead over the next 10 years and providing the national STEM 
workforce that we critically need.
    Senator Kerry. So, we're sort of choking off the future in 
a sense.
    Dr. Bement. I think that's the concern.
    Senator Kerry. What's your attitude, all of you, about the 
possibility of a supplemental to try to restore the ACI levels?
    Dr. Bement. I think it's critically important.
    Dr. Turner. And Senator, may I add, too, that there were 
some significant impacts at NIST, also, and they fell into 
three different categories.
    One was lost opportunities. There were things that we 
wanted to do to advance, measurements in detection of things 
that industry could use to fully exploit nanotechnology that we 
were not able to do.
    We were not able to do work in developing quantum computing 
which would take us to the next generation of computer use.
    We also had an initiative in climate change that we were 
unable to do.
    In addition, there was work on earthquake mitigation in 
disaster resilient communities and in communities to help 
reduce the risk and the consequences of communities impacted by 
hurricanes, floods, wildfires, and so forth. We were unable to 
do all of that and in areas like the nanotechnology that gave 
our competitors abroad a year to close the gap between us and 
them.
    We were also unable to bring on 300 researchers who were 
going to implement those programs.
    Second, we were unable to keep up with salaries and 
benefits for our scientists and so what that amounted to was 71 
positions that we were unable to fill as people left or 
retired.
    We also had to reduce funding for R&D for the next 
generation of computer chips and semiconductors. We also had to 
cancel the program that would deal with cancer detection and, 
finally, we had to curtail work on industrial control systems 
which would help protect our infrastructure, things like 
communications, electric power, and so forth.
    And finally in the construction area, in order to keep the 
construction projects at the Neutron Center and at Boulder on 
track, we had to cut back on the maintenance for our decaying 
infrastructure, both in Gaithersburg, where the campus is 40 
years old and in Boulder the campus is 50 years old.
    So, again I wanted to assure you that there were some very 
significant impacts at NIST, also.
    Senator Kerry. I'm not sure I feel good about being assured 
of that but glad to have the record clear on it. I appreciate 
your comments.
    Dr. Marburger, you wanted to comment?
    Dr. Marburger. And I can speak for the Department of 
Energy, it's not under the purview of this committee, but there 
were also serious impacts at Department of Energy, Office of 
Science, laboratories, layoffs, curtailment of projects, 
curtailment of operation of key facilities for the Nation's 
research infrastructure, and these are serious.
    Senator Kerry. You know what I'd like to ask each of you to 
do is to submit to us, if you would, for the record an honest 
and best judgment of the reality of these impacts, so that I 
could help use those with the full committee in order to try to 
figure out how we might proceed with respect to the process in 
the next months here.
    [The information referred to follows:]


                       National Science Foundation
                 [Impacts of the FY 2008 Appropriations]



NSF Request:
                                          $6,429.00 million
Difference:
                                           $-364.00 million
NSF Appropriation:
                                          $6,065.00 million
Major Reductions from the FY 2008
 Request:

  Research & Related Activities account        $310 million      (-6.0%)
  Education and Human Resources account         $25 million    (-093.3%)
  Major Research Equipment and                  $24 million    (-099.8%)
   Facilities Construction
  account
Major Impacts:

  <bullet> 1,000 fewer new research
   grants

  <bullet> 230 fewer Graduate Research
   Fellowships

  <bullet> 3,000 fewer people (senior
   faculty researchers, graduate
   students, post-docs and undergrads)
   involved in NSF activities

  <bullet> Several major solicitations
   and new facilities delayed for at
   least a year, and some existing
   facilities reduced

  <bullet> Participation in the
   interagency Ocean Research Priorities
   Plan reduced by $12 million (to a
   total of $5 million)

  <bullet> The Major Research
   Instrumentation program reduced by
   more than $20 million (to $94
   million)

  <bullet> Startups of several planned
   centers and activities deferred,
   including McMurdo operations and
   maintenance and South Pole Station
   upgrades


                                 ______
                                 
FY08 Omnibus ACI Research Cut Impacts
    DOE Office of Science: Increased funding provided in President's 
ACI request was cut by 91 percent, or $548 million, after removing 
earmarks
  <bullet> Impact on Scientists, Engineers and Education

   <ctr-circle> Layoffs of about 210 Ph.D.'s and 40 graduate students 
            at National Labs.

   <ctr-circle> Roughly, an additional 520 Ph.D.'s and 240 graduate 
            students will not be hired or supported at National Labs 
            because the request to fund competitiveness was denied.

   <ctr-circle> Eliminates funding proposed for 700 peer-reviewed 
            energy research grants related to a secure energy future, 
            hydrogen storage, solar energy, superconductivity, advanced 
            nuclear energy systems, etc.

   <ctr-circle> Impact on DOE Science

  <bullet> Zeroes U.S. contribution to ITER, the largest, highest 
        visibility international collaboration in science, designed to 
        be an essential step toward practical carbon-free power 
        generation from nuclear fusion and major long-term solution to 
        climate change.

   <ctr-circle> Reduces operations by 20 percent of all light and 
            neutron facilities, and nanoscale science research centers, 
            critical to discovery in energy, nanotechnology, 
            biotechnology, health, and materials science.

   <ctr-circle> Delays completing instruments at the Spallation Neutron 
            Source and Linear Coherent Light Source, jeopardizing U.S. 
            global competitiveness in materials S&T in energy, 
            telecommunications, manufacturing, transportation, 
            information technology, biotechnology, and health.

   <ctr-circle> Slows construction of the National Synchrotron Light 
            Source-II, preventing capability of new X-ray measurements 
            that will enable new discovery and innovation.

   <ctr-circle> Reduces International Linear Collider funding by 75 
            percent, undermining the credibility of the U.S. as a 
            potential site and particle physics leader, and severely 
            damaging the high energy physics program.

   <ctr-circle> Prevents basic research essential to advanced nuclear 
            power systems and reprocessing.
    NSF: Increased funding provided in the President's ACI request was 
cut by 77 percent, or $397 million

  <bullet> Impact on Scientists, Engineers and Education

   <ctr-circle> 230 fewer student scientists supported by Graduate 
            Research Fellowship program.

   <ctr-circle> 1,000 fewer basic research projects.

  <bullet> Impact on NSF Science

   <ctr-circle> Nanotechnology research cut $12 million below FY 2007.

   <ctr-circle> Supercomputing and advanced networking cut $64 million 
            below President's request.

   <ctr-circle> Climate Change Science Program cut below FY 2007.

    NIST: Increased lab funding provided in the President's ACI request 
was cut by 65 percent, or $67 million, after removing earmarks
  <bullet> Impact on Scientists, Engineers and Education

   <ctr-circle> Removes 300 positions for new scientists and engineers 
            working at NIST and throughout the Nation.

  <bullet> Impact on NIST Science

   <ctr-circle> Eliminates proposed funding for advanced measurement 
            and characterization tools needed by industry to fully and 
            safely exploit the tremendous potential of nanotechnology, 
            which will impact in materials, electronics, 
            pharmaceuticals, the chemical industry, aerospace, and 
            healthcare.

   <ctr-circle> Significantly cuts proposed funding for quantum 
            computing research that will fundamentally alter a number 
            of fields including secure communications (relevant to both 
            the national security and financial communities) and 
            supercomputing.

   <ctr-circle> Curtails improvement of the accuracy of climate change 
            predictions, providing policymakers with accurate 
            information about the advantages and consequences of 
            various policy options.

   <ctr-circle> Denies proposed increases for development of improved 
            building standards, codes, and hazard and forecasting 
            metrics for our national infrastructure to proactively 
            reduce disaster-imposed losses (estimated at $52 billion a 
            year from hurricanes, tornadoes, storm surges, fires, 
            earthquakes, and tsunamis).

    And let me just ask you. If that money were to be restored, 
how fast can you get back up to speed? Is it possible to meet 
those expenditure levels and those grant levels in the 2008 
cycle?
    Dr. Bement. Senator, let me respond this way. I much prefer 
ramp functions than step functions.
    Senator Kerry. Say that again.
    Dr. Bement. I much prefer ramp functions.
    Senator Kerry. Ramp-up.
    Dr. Bement. Ramp-up, yes, than step functions. To keep on 
the doubling path, the 13 percent increase or 14 percent 
increase represents a very big step. It would be much better 
and would be a much more stable way of investing those funds if 
it were a ramp function, if we did it in two steps rather than 
one.
    Since we----
    Senator Kerry. Meaning what specifically about the 2008 
cycle? Translate that.
    Dr. Bement. That means if there was an emergency 
supplemental, it would come at the right time to keep 
continuity in our programs.
    Senator Kerry. Fair enough.
    Dr. Bement. We're an agency that does not do its own 
research. Ninety-five percent of all of our funds go to the 
universities and we're very agile. We could get a lot of grants 
funded because we have a lot of proposals coming in all the 
time.
    The reason that's critically important is that with the 
2008 Omnibus appropriation, it represents about the fifth year 
in a row that overall funding for colleges and universities in 
the United States has declined. It's the first time in 25 
years. I think it's critically important we turn that around 
and get it back up on a positive slope.
    Senator Kerry. I couldn't agree with you more, and we'll 
certainly commit to trying to do everything we can to see if we 
can turn that around.
    As you know, the Noyce Teacher Scholarship Program 
authorized significant increases, we did anyway, for that 
program.
    Tell us about the less-than-robust increases in that 
program measured against the rhetoric regarding the STEM 
Education.
    Dr. Bement. Senator, we like the Noyce Program. First of 
all, I was a personal friend of Robert Noyce, so I like it for 
that reason. But we also like it because under the America 
COMPETES Act, it is designed after the UTeach Program that we 
initiated some years ago. So, we're very familiar with the 
provisions under the COMPETES Act.
    It's a relatively young program. It started--it was first 
authorized in 2002, I believe. We got our first grants out a 
year later, and we started immediately in developing a 
measurement system and also a baseline assessment program to 
assess the program in 2005. That assessment has been underway 
over the past 3 years. We expect to see the results in December 
of 2008.
    As you may know under the Deficit Reduction Act of 2005, we 
set up the American Competitiveness Council. One of the 
provisions in the Act was that there needed to be more 
rationalization of all the math and science programs among the 
various agencies to eliminate overlap, but more importantly, 
every program has to be assessed to be effective through an 
independent rigorous assessment before the funding can be 
increased. So, we're limited by that provision.
    Senator Kerry. Limited in the amount it could be increased 
now?
    Dr. Bement. We can't----
    Senator Kerry. Despite the authorization? I mean, we 
authorized spending something like a $115 million and you all 
have only funded it up to $11 million. This is the Noyce-
specific----
    Dr. Bement. No, that's the reason why it isn't funded up to 
that level, because it hasn't been fully assessed yet. It 
hasn't been shown to be effective yet.
    We will reach that point near the end of the year and we'll 
be able to also carry out some pilots in 2008 against the 
America COMPETES Act, so we'll be in a much stronger position 
to ramp that program up substantially in the 2010 budget.
    Senator Kerry. Well, that's good to hear. I mean, do you 
think it would get then to the authorized level in representing 
the kind of commitment we really ought to be making to that? I 
mean, I gather from your comments you would agree that that's 
certainly one of the most important things we can do, is get 
these K-12 and, you know, educators in a position where they 
can take those STEM----
    Dr. Bement. Well, we'll certainly advocate for it as 
strongly as we can and, as you point out, one factor that has 
been shown most effective in improving performance in math and 
science education is having teachers who are well versed in the 
subject matter.
    It's important for us to understand under the Noyce Program 
whether taking STEM graduates and teaching them pedagogy or 
taking students in education and giving them formal training in 
STEM actually achieves what we hope to achieve through the 
program, and whether it does in fact improve performance in 
math and science. I'm very optimistic that it will, but we 
don't have the evidence yet.
    Senator Kerry. What proportion of this budget is being 
dedicated specifically to the National Nanotechnology 
Initiative?
    Dr. Marburger. I have, Senator, I have some numbers 
associated with that. The National Nanotechnology Initiative 
overall budget is approximately $1.5 billion in this request. I 
don't know what--I can't calculate right away what fraction of 
the research budget that would be. It's distributed among the 
various categories of basic and applied. It's distributed among 
a number of different agencies, but it is an important priority 
program and it is one of the programs that would benefit from 
the funding under the COMPETES Act and the American 
Competitiveness Initiative.
    The agencies that have been singled out under this 
initiative are key agencies. NSF is actually the lead agency in 
that initiative and it's doing well.
    Senator Kerry. Dr. Bement, do you know specifically how 
much is dedicated toward researching the environmental health 
and safety risks that some people are now talking about with 
respect to nanotechnology?
    Dr. Bement. Yes, in our budget, we've always designated 7 
percent of our total budget to focus on education health and 
safety issues as well as ethical issues associated with 
nanotechnology.
    In both our 2008 and our 2009 requests, we increased the 
funding for those areas because we now have additional centers 
that are focused on education health and safety and we also 
have cross-cutting interagency cooperations with regulatory 
agencies, like EPA and also with the National Institutes of 
Health.
    So, in our 2009 request, the amount in that account is 
somewhere on the order of $30 million for education health and 
safety.
    Senator Kerry. $30 million?
    Dr. Bement. About $30 million.
    Senator Kerry. Dr. Marburger, both of you perhaps or all 
three of you. What kind of concern is there, what kind of 
effort is being made with respect to that? Are these increasing 
questions that are being raised with respect to health, safety, 
the environment, et. cetera, legitimate in your judgment? Do 
they concern you, and does it require greater effort perhaps to 
understand the synergy between those impacts and the products 
themselves?
    Dr. Marburger. Sir, these issues do concern me. I do think 
they're important. We have to pay attention to them and try to 
bring the field along at a rapid rate so that these issues can 
be addressed appropriately.
    This is a high-profile issue not only with health and 
environmental advocates but also within our administration and 
in the industry because they see potential of public concern 
about nanotechnology-based products as possibly leading to 
public non-acceptance of some of these products. So, there is a 
great deal of interest in doing this.
    One of the important features of research on health impacts 
particularly, but also environmental impacts, is our ability to 
characterize the nanoparticles that are being made either as 
byproducts or as components of products and this is one of the 
reasons that NIST contributions are so important. We do rely on 
NIST to establish standards and techniques for measuring 
nanoparticles and nanomaterials and the absence of techniques 
for doing this does slow the pace at which the health research 
can be done.
    So, I know people have called on more aggressive funding 
for this area. I believe that it's the most rapidly expanding 
part of the National Nanotechnology Initiative and that's 
healthy, but it has to grow together with our knowledge of how 
to manipulate these materials.
    So, I'm satisfied it's getting the attention that it 
deserves. I wish it could go even faster, but we have to let it 
grow. I don't know what the percentage is over the entire 
program, but it certainly is growing very rapidly.
    Dr. Turner. I'd like to--thank you. And I'd like to thank 
Dr. Marburger for mentioning NIST's role in this. You will 
notice that one of our initiatives for 2009 is increased 
funding for this specific mission of ES&H studies of 
nanotechnology and so our role is going to be to not only 
establish measurement techniques but also to establish the ways 
that you measure, characterize with respect to length, size, 
purity and so forth of nanoparticles.
    We put out standard reference materials for nanotechnology 
and so we've been working very closely with an interagency 
group, with agencies such as NIH and FDA and OSHA--I'm sorry--
EPA, rather, to be able to turn over to them, ways that they 
can characterize these particles so that then when they do 
their studies of potential health impacts, they will be able to 
say, with certainty that, it was because of this or that or 
yes, that something is safe, but the point is--before you can 
study something, you need to have a rigorous definition of what 
it is that you're looking at and we're providing that.
    Senator Kerry. Yes, sir?
    Dr. Bement. I can't help but take advantage of Jim being 
here to indicate that we have a joint program with NIST in the 
area of characterization.
    It's very important to understand surface activity of these 
particles in order to understand how they might interface with 
living systems, but having now focused on synthetic 
nanoparticles, it's also critically important to understand the 
activity of natural nanoparticles as well because some natural 
particles, due to soot, dust and other sources, can actually 
have more chemical activity, more surface activity than 
synthetic nanoparticles. So, it's important to do the 
comparative studies as well as just focusing on the synthetic 
nanoparticles.
    Senator Kerry. Well, that makes sense. I appreciate that. 
The authorization expires at the end of this year which raises 
the great likelihood we're going to confront the 
reauthorization before too long here.
    Any thoughts as the Committee does that, besides the safety 
issue, what we might want to be thinking about? Dr. Marburger?
    Dr. Marburger. This is a program that's received a lot of 
attention and there is good bipartisan support for it. The 
agencies are not reluctant to spend their budget money, what 
they do have, on this area, and it has a structure, committee 
structure, that allows for interagency participation.
    In fact, there are quite a lot of structure, reporting 
requirements and so forth associated with this program because 
of the interest and I think my plea would be to not to add 
additional structure, that if changes are made to the structure 
they be made in a way so as not to increase the reporting 
requirements and the complexity but either to decrease it or 
make changes that may be appropriate and would be recommended 
in hearings and testimony and so forth.
    Senator Kerry. Well, we may look to you further as we get 
into that process. We look forward to it.
    Last question, perhaps a couple. Dr. Bement, your budget, 
as we mentioned, falls $472 million short of the target 
established under the COMPETES Act.
    Can you tell us what programs as authorized under the 
COMPETES Act were deemed as expendable under the request as it 
has been met by the administration?
    Dr. Bement. If I understand the----
    Senator Kerry. Well, what makes up the gap? What 
constitutes the gap in the $472 million, $479 million, I guess, 
$470?
    Dr. Bement. Well, OK, let me go back to last summer after 
the COMPETES Act was enacted. We started immediately 
establishing working groups to determine how quickly we could 
comply with many of the sections and provisions under the Act. 
Some of those we are in compliance now that had to do with 
practices and policies.
    Others, we need to discuss with the National Science Board, 
but with regard to the new programs and also the largely 
expanded programs, such as Noyce, it will take us some time to 
do the planning and also to test some of these programs to see 
the extent to which we can either incorporate them as part of 
our ongoing programs or leverage them with some of our ongoing 
programs, especially our scholarship program, and we have pilot 
plans--pilot programs planned for fiscal 2008 and going into 
2009 to test some of these concepts.
    We want to be sure that when we scale them up to the level 
of the COMPETES Act, that they're effective, that they will 
have good outcomes, and that they will, to the greatest extent, 
leverage off of ongoing programs, so that we can get the 
largest output or the largest outcome from the investment.
    So, we take the America COMPETES Act quite seriously. We're 
moving quite aggressively, but as I indicated earlier, I tend 
to favor more ramp functions than step functions and we're 
trying to do this in a systematic way.
    Senator Kerry. Well, I don't blame you for that. I think 
obviously having administrated an agency before, smaller, much, 
much smaller, but I remember as we got our budget increases, it 
certainly makes a difference to be able to manage them 
effectively, both in terms of personnel as well as policy. So, 
I understand that.
    I do, however, reiterate, as I think most of the members of 
this Committee do, that we want all of these agencies and our 
country to be ramping up at a faster rate and the ramp can be 
steeper and it's clear that this is sort of dangerously 
exposing a gap between the rhetoric and the reality of the 
challenge and I think that's where a lot of people are 
increasingly frustrated.
    I'm sure you all agree with that, so I'm not going to 
belabor it. Our hope is to be able to try to find ways to 
augment this over the course of the year. I am pleased that the 
chairman of the Budget Committee's budget at least frames a 
budget resolution that will help us do that. Hopefully the 
appropriators will follow through that in the appropriate way 
afterwards.
    So, this is a must do for us, as you all know better than 
anybody, and I know you're preaching that and I don't need to 
preach to the choir, but it just can't be reiterated enough how 
critical this is to our long-term economic status.
    So that said, we really appreciate your being here today. 
Thank you for highlighting these areas of the budget. Thank you 
for your candor about those areas that will be impacted. We 
look forward to getting from you the detailed sort of analysis 
of that because it will help us greatly to be able to go at the 
budgeters and do the work we need to do.
    So, I'm grateful to you. We'll leave the record open for a 
couple weeks here for colleagues on the Committee who may have 
questions or any additional questions, and we thank you for 
your cooperation very, very much.
    We stand adjourned.
    [Whereupon, at 11:45 a.m., the hearing was adjourned.]

                            A P P E N D I X

    Prepared Statement of Hon. Ted Stevens, U.S. Senator from Alaska

    Mr. Chairman, thank you for holding this hearing today on the 
important role of basic research.
    The importance of basic research cannot be underestimated. Each 
day, our global interconnectivity increases through competition in the 
marketplace. In order to remain competitive, the United States must 
continue its efforts to lead in the field of innovation. By maintaining 
our role as a leader in technology and innovation, we ensure better 
jobs and a higher standard of living for all Americans. Basic research 
remains a key component to continued innovation and increasing the 
United States' competitiveness in today's economy.
    Because of groundbreaking basic research at NSF, NIST, the 
Department of Defense, and many other Federal agencies, technologies 
that could only once be imagined, are now realities that we use every 
day. In each case, basic research investment by the Federal Government 
was an essential prerequisite. This type of research is crucial in 
laying the groundwork for the private sector to develop the innovative 
products that have revolutionized how we live on a day-to-day basis.
    Last August, the President signed into law the America Competes 
Act. This law shares the goals of the President's American 
Competitiveness Initiative (ACI), a comprehensive strategy to keep 
America the most innovative nation in the world by strengthening our 
scientific education and research, improving our technological 
enterprise, attracting the world's best and brightest workers, and 
providing 21st century job training. I am proud to have been an 
original cosponsor of that important piece of legislation.
                                 ______
                                 
Prepared Statement of Alan I. Leshner, Ph.D., Chief Executive Officer, 
   American Association for the Advancement of Science and Executive 
                           Publisher, Science

Introduction
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to submit written testimony on the President's Fiscal Year 
(FY) 2009 research and development (R&D) budget request.
    The American Association for the Advancement of Science (AAAS) is 
the world's largest multidisciplinary scientific society and publisher 
of the journal, Science. AAAS was founded in 1848, and includes some 
262 affiliated societies and academies of science, representing 10 
million individuals.
    For more than 30 years, the AAAS R&D Budget and Policy Program has 
strived to be a comprehensive, reliable, and impartial source of 
information on the Federal investment in research and development. AAAS 
recently released its analysis of R&D in the FY 2009 budget request, 
and the numbers presented in this statement reflect that analysis.

Overview
    AAAS believes strongly in the importance of a broad, balanced 
portfolio of R&D investments. The need for strong support across all 
scientific fields comes both from the increasing interdependence of 
engineering, physical, biological, behavioral, and social sciences, and 
from the importance of all these fields to innovation and the growth of 
the economy, as well as to the improvement of the health and quality of 
life of all Americans.
    The President's FY 2009 budget proposal would increase funding for 
three key physical science agencies as part of the American 
Competitiveness Initiative (ACI), and we are pleased by the continued 
emphasis on investing in basic physical science research. However, we 
are at the same time concerned that funding would stay constant or even 
decrease in other agencies and disciplines, like the biological, 
behavioral and social sciences, which also are critically important to 
innovation, the economy and the quality of life of all Americans.
    The overall Federal investment across all fields of R&D would 
increase $4.9 billion or 3.5 percent over FY 2008 levels to $147.4 
billion (see Table 1). However, this is driven primarily by increases 
in development funding for defense weapons and NASA spacecraft. Federal 
investment in basic and applied research, the vital feedstock for 
innovation in the U.S. economy, would in fact decline 0.3 percent to 
$57.3 billion.
    The proposed FY 2009 budget continues to provide increases for the 
three physical sciences agencies as part of the administration's ACI 
vision of doubling between 2006 and 2016 the budgets of the National 
Science Foundation (NSF), the Department of Energy (DOE) Office of 
Science, and the National Institute of Standards and Technology (NIST) 
laboratories. These three agencies lead the pack in R&D gains, followed 
closely by proposed gains for development programs in DOE, NASA and the 
Department of Defense.
    The increases for those key agencies, however, are partly offset by 
flat funding for biomedical research and cuts to key environmental and 
agricultural R&D agencies. Looking at the funding pictures in longer-
term perspective, in inflation-adjusted terms, total Federal investment 
in basic and applied research would fall for the fifth year in a row 
for a decline of 9 percent between 2004 and 2009.

Agency Analyses
    In this section, AAAS will highlight a few key points in the budget 
request for agencies under the subcommittee's jurisdiction:
    National Science Foundation (NSF): Overall, AAAS is very pleased 
with the proposed increase for NSF's programs in FY 2009, a 13.6 
percent increase that would bring the total budget to $6.9 billion. 
NSF's R&D investments (excluding education, human resources, and 
overhead spending) would total $5.2 billion, a 15.5 percent increase, 
and an all time high in real terms.
    The 2009 NSF request clearly favors the physical sciences (see 
Figure 1), with requested increases approaching 20 percent for three 
key directorates: Mathematical and Physical Sciences (MPS, up 20 
percent), Engineering (ENG, up 19 percent), and Computer and 
Information Science and Engineering (CISE, up 20 percent). The 
Biological Sciences (BIO) directorate would increase 10 percent, 
Geosciences (GEO) 13 percent, and the Social, Behavioral and Economic 
Sciences (SBE) 9 percent. NSF's education and human resources (EHR) 
programs would gain 9 percent to $790 million. Although the latter 
increases are still substantial, we hope that the differential between 
them and those for the physical sciences does not reflect a 
misunderstanding of the critical importance of biological, behavioral 
and social science and of science education to the Nation's 
innovativeness and the future of America's children.
    AAAS would like to emphasize that the NSF is unique among all the 
R&D agencies in that its purpose is to support fundamental research 
across all scientific fields--not only the physical sciences--
illustrating the interdependence of physical, biological, behavioral, 
and social sciences. While it is certainly appropriate for the 
remaining mission-oriented agencies to focus their research portfolios 
in related fields, a successful, innovative future will draw upon 
contributions and interactions from a broad spectrum of fields of 
inquiry, and robust support is needed for all of them. NSF's critical 
role includes serving as a bridge that unites all these interdependent 
fields.
    National Aeronautics and Space Administration (NASA): The FY 2009 
budget proposes a 2.9 percent increase in the total NASA budget, 
growing $497 million to $17.6 billion. However, the entire increase and 
more would go to two human space programs. The Constellation Systems 
program to develop the next generation human spacecraft could receive 
$3 billion, an increase of 23.3 percent, which includes $1 billion each 
for the Crew Exploration Vehicle and the Crew Launch Vehicle. The 
International Space Station would receive $2.1 billion, a 13.6 percent 
increase.
    Over the last several years, NASA support of research (the ``R'' 
part of R&D) has declined dramatically as the costs of the 
Constellation Systems and the Space Station have escalated. The 2009 
budget would continue this disturbing trend. The Science portfolio 
would fall 5.6 percent to $4.4 billion, with especially steep cuts for 
the Astrophysics (down 13 percent) and Heliophysics (down 31 percent) 
portfolios because of the end of a number of large missions (e.g., 
Hubble Space Telescope). Planetary Science and Earth Science would 
receive boosts of 7 percent each, however, with a special emphasis on 
new earth science missions. Aeronautics research funding would continue 
to tumble with a 13 percent cut to $447 million (see Figure 2).
    The NASA R&D portfolio would increase 4.9 percent to $12.8 billion 
(see Table 1), with the entire increase and more coming from 
Constellation Systems and the Space Station.
    National Institute of Standards and Technology (NIST): We applaud 
the FY 2009 budget's continuing commitment to the intramural laboratory 
research programs at NIST, which provide crucial support for the 
physical sciences that underlie much of U.S. innovation. NIST 
intramural research would significantly increase 16 percent to $447 
million. Once again, however, the budget request would dramatically 
scale back funding for NIST's external programs. As in previous years, 
the budget proposes to eliminate the valuable Technology Innovation 
Program and provide only $4 million for the Hollings Manufacturing 
Extension Partnership to close out the program.
    National Oceanic and Atmospheric Administration (NOAA): NOAA's 
funding of oceanic and atmospheric research, including crucial research 
on climate change and fisheries, would increase 7.5 percent in FY 2009, 
but that is only after one takes out the Congressionally-designated 
earmarks that would be included in the final FY 2008 budget. If one 
calculates the NOAA budget with the 2008 earmarks then its budget would 
fall slightly to $576 million.

Impact of FY 2008 Budget
    While there is much to be pleased about in the FY 2009 budget 
request, it is important to consider the FY09 request in light of the 
FY 2008 omnibus appropriations. The final omnibus bill was a 
disappointment to scientists optimistic about potential increases 
related to the ACI. Despite House and Senate votes that were at or 
above the President's FY08 budget request, the final omnibus allocated 
NSF $364 million less than the request. This is having a negative 
impact on thousands of faculty researchers, graduate students, 
undergraduates and post-docs. NSF will award 1,000 fewer new research 
grants (15 percent below request) and 230 fewer graduate research 
fellowships (8 percent below request) this year.
    Several major program solicitations will be delayed for at least a 
year, including new programs directly focused on the development of a 
competitive scientific workforce. Many core research programs will have 
to scale back planned activities and several planned centers will not 
be funded in 2008. Likewise, critical maintenance and planned equipment 
upgrades will suffer in numerous operations throughout NSF's portfolio.
    NIST, another ACI agency under this committee's jurisdiction, was 
set to receive a significant boost of $65 million for its labs in FY08 
but that shrunk to $6 million in the final omnibus.

Conclusion
    The ACI and the America COMPETES Act have done much to recognize 
that the U.S. economy, now and in the future, will depend on our 
ability to innovate, and that maintaining the U.S. lead in innovation 
relies on a strong foundation of Federal investment in research and 
education. We appreciate and share that recognition. In spite of that 
acknowledgment, however, actual Federal research investments are 
shrinking as a share of the U.S. economy, just as other nations are 
increasing their investments. China and South Korea, for example, are 
boosting government research by 10 percent or more annually.
    Robust research funding is necessary in order for the Nation to 
craft solutions to pressing issues, ranging from a greater 
understanding of and technological options for combating global climate 
change, to safely using nanotechnology, to ensuring sustainable oceans 
and fisheries, to ensuring critical improvements to health and the 
quality of life of all Americans.
    In an increasingly technology-based economy that relies on 
federally funded research as the seed corn for technology-based 
innovation, the Federal Government needs a sustained commitment to a 
robust, fully balanced research portfolio that recognizes the 
interdependence and critical role of all scientific disciplines to a 
future innovative society.

                               Appendix A

American Association for the Advancement of Science (AAAS)
    The American Association for the Advancement of Science (AAAS) is 
the world's largest general scientific society, and publisher of the 
journal, Science (www.sciencemag.org). AAAS was founded in 1848, and 
includes 262 affiliated societies and academies of science, serving 10 
million individuals. Science has the largest paid circulation of any 
peer-reviewed general science journal in the world, with an estimated 
total readership of one million. The non-profit AAAS (www.aaas.org) is 
open to all and fulfills its mission to ``advance science and serve 
society'' through initiatives in science education, science policy; 
international programs; and an array of activities designed both to 
increase public understanding and engage the public more with science.
    Every year since 1976, AAAS has published an annual report 
analyzing research and development (R&D) in the proposed Federal budget 
in order to make available to the scientific and engineering 
communities and to policymakers timely and objective information about 
the Administration's plans for the coming fiscal year. At the end of 
each congressional session, AAAS also publishes a report reviewing the 
impact of appropriations decisions on research and development. AAAS 
has also established a Website for R&D data on which we now post 
regular updates on budget proposals, agency appropriations, and outyear 
projections for R&D, as well as numerous tables and charts. The address 
for the site is www.aaas.org/spp/rd.
AAAS Analysis of R&D in the FY 2009 Budget

                                  Table 1.--R&D in the FY 2009 Budget by Agency
                                    [budget authority in millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                        FY 2007     FY 2008     FY 2009       Change FY 08-09
                                                     -----------------------------------------------------------
                                                        Actual     Estimate     Budget      Amount      Percent
----------------------------------------------------------------------------------------------------------------

---------------------------------------Total R&D (Conduct and Facilities)---------------------------------------
----------------------------------------------------------------------------------------------------------------
Defense (military)                                       79,009      77,782      80,688       2,906        3.7%
  S&T (6.1-6.3 + medical)
                                                         13,518      13,215      11,669      -1,546      -11.7%
  All Other DOD R&D                                      65,490      64,567      69,019       4,452        6.9%
Health and Human Services
                                                         29,621      29,816      29,973         157        0.5%
  Nat'l Institutes of Health                             28,350      28,676      28,666         -10        0.0%
  All Other HHS R&D                                       1,271       1,140       1,307         167       14.6%
NASA
                                                         11,582      12,188      12,780         592        4.9%
Energy
                                                          9,035       9,661      10,519         858        8.9%
  Atomic Energy Defense R&D                               3,649       3,718       3,825         107        2.9%
  Office of Science                                       3,560       3,574       4,314         740       20.7%
  Energy R&D                                              1,826       2,369       2,380          11        0.5%
Nat'l Science Foundation                                  4,440       4,479       5,175         696       15.5%
Agriculture                                               2,275       2,309       1,952        -357      -15.5%
Commerce
                                                          1,073       1,138       1,152          14        1.2%
  NOAA                                                      557         581         576          -5       -0.9%
  NIST                                                      487         521         546          25        4.7%
Interior
                                                            647         676         618         -59       -8.7%
  U.S. Geological Survey                                    574         586         546         -41       -6.9%
Transportation                                              767         820         902          81        9.9%
Environ. Protection Agency                                  557         548         541          -7       -1.3%
Veterans Affairs                                            819         891         884          -7       -0.8%
Education                                                   327         321         324           3        0.9%
Homeland Security                                           996         992       1,033          41        4.1%
All Other                                                   786         819         821           2        0.2%
                                                     ------------------------------------

    Total R&D                                           141,933     142,441     147,361       4,920        3.5%

Defense R&D                                              82,658      81,500      84,513       3,013        3.7%
Nondefense R&D                                           59,276      60,941      62,848       1,907        3.1%
Basic Research                                           28,168      28,682      29,656         974        3.4%
Applied Research                                         28,599      28,751      27,626      -1,125       -3.9%
                                                     ------------------------------------

    Total Research                                       56,766      57,433      57,282        -151       -0.3%

Development                                              81,363      80,567      85,363       4,796        6.0%
R&D Facilities and Equipment                              3,804       4,442       4,716         275        6.2%
----------------------------------------------------------------------------------------------------------------
Source: AAAS, based on OMB data for R&D for FY 2009, agency budget justifications, and information from agency
  budget offices.
Note: The projected inflation rate between FY 2008 and FY 2009 is 2.0 percent.
FY 2008 figures exclude pending supplementals.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
Prepared Statement of Dr. Charles M. Vest, President, National Academy 
    of Engineering, President Emeritus, Massachusetts Institute of 
                               Technology

    Mr. Chairman and Committee Members,
    I am Charles M. Vest, President of the National Academy of 
Engineering, and President Emeritus of the Massachusetts Institute of 
Technology.
    I am grateful for the opportunity to submit this testimony. My 
purpose is to respectfully urge you to initiate strategically increased 
Federal investment in basic science and engineering research and 
education by providing the full funds authorized by the America 
COMPETES Act that have already been delayed by a year. My reason is 
that these investments are key to our ability to compete and prosper in 
the global, knowledge-based economy of this century.
    In the 20th century, U.S. science, engineering, and medicine nearly 
doubled our life span; enhanced our Nation's security; fueled most of 
our economic growth; sent us to the moon; fed the planet; brought world 
events into our living rooms; gave us freedom of travel by air, sea, 
and land; established instant worldwide communications; enabled 
ubiquitous new forms of art and entertainment; and uncovered the 
workings of our natural world. It was a century of speed, power, and 
new horizons. We have come to take all this for granted.
    The opportunities and challenges of the 21st century will be very 
different. And nothing can be taken for granted. To grasp the great 
opportunities of our times and to meet our great challenges--from 
economic competitiveness to global change, from healthcare to 
education, from security to transportation--Federal policy and action 
must be informed and enabled by a vibrant science and technology 
enterprise. Indeed our national comparative advantage is a strong S&T 
base coupled to a free market economy and a diverse, democratic 
society. The full force of global competition will soon be felt. Jobs 
will follow innovation wherever in the world it is found, and 
innovation will follow basic research wherever it is conducted.
    Last August, the America COMPETES Act was passed by the U.S. 
Congress, garnering unanimous consent of the Senate and passing with 
only 57 dissenting votes in the House of Representatives. This 
authorizing legislation had strong bipartisan support. Its primary 
features include initial investments to improve K-12 STEM education, 
especially through transformed teacher preparation, and substantial 
multi-year increases in funding for basic research in the National 
Science Foundation (NSF), the Department of Energy (DOE), and the 
National Institute of Standards and Technology (NIST). This agenda was 
strongly and actively supported by numerous leaders of American 
industry and generally reflected recommendations proposed by the 
National Academies, the Council on Competitiveness, the Presidents 
Council of Advisors on Science and Technology (PCAST), and virtually 
every other group that has studied what America must do to prosper in 
the rapidly emerging global, knowledge-based economy.
    Despite the fact that both the Congress, through the America 
COMPETES Act, and the President, through his American Competitiveness 
Initiative, proposed support for the increased research funds for 
physical science and engineering, this funding was not forthcoming when 
the FY 2008 Omnibus Appropriations Bill was passed. In my view, the 
systems failure that led to this funding situation will have long-term 
negative implications for our nation, and funding must, at minimum, be 
fully restored in the FY 2009 Federal Budget.
    The America COMPETES Act, based on bipartisan leadership from this 
Committee, authorized a budget of $7.326 billion for the NSF in FY 
2009. This Committee proposed an increase of $450 million more than the 
Administration's FY 2009 request in February of $6.85 billion, to allow 
NSF to sustain and expand its research and education programs. At a 
minimum, the Congress should match the Administration's proposal, a 13 
percent increase, to keep NSF on track with the Administration's 
proposal to double its funding over the coming decade.
    The failure to appropriate FY 2008 funds for the NSF at that level 
currently is resulting in a long list of real and immediate damage, 
including: the loss of 1,000 research grants; cutbacks in planned 
graduate research fellowships; over 3,000 research projects reduced; 
undergraduate research programs reduced; the program for advanced 
supercomputing and advanced networking for needed new scientific 
infrastructure reduced by $64 million; new program initiatives put off 
in computer science, climate change studies, cyber-physical systems; 
and new centers in materials, engineering, physics and mathematical and 
biological sciences interface delayed. Not only is NSF basic research 
funding not moving forward, it is moving backward, having declined 
slightly in real dollars since FY 2004.
    Similarly, I strongly support strong science funding levels for the 
other science agencies included in the COMPETES Act, at least at the 
President's recommended budget level, for NIST and the DOE Office of 
Science, which likewise suffered significant FY08 cutbacks from 
authorized and requested levels.
    The real and immediate damage to our science and engineering 
enterprise done by the failure to fund the America COMPETES Act in FY 
2008 did not just slow research progress; it interrupted the working of 
our Nation's innovation system. This system is the flexible and 
collaborative partnership of government, academia, and industry that 
produces new knowledge and technology through research and educates 
young men and women to further develop knowledge and technology and 
move them to the marketplace as new products and services.
    Mr. Chairman and members of the Committee, much of the rest of the 
world has studied our innovation system and its success during the last 
half century. Their goal is to beat us at our own game. They are moving 
aggressively to prepare their young people and speed their innovation 
through investment in basic research to create the jobs of the future. 
A trip to China, India, or many other countries will show the level of 
their commitment, resolve, and early successes. Observing the amazing 
economic transformation of nations like Finland, Ireland, and Singapore 
shows that it can happen and happen fast when there is a strong 
national commitment to research and education. We have driven our 
economic growth on our innovation prowess since the end of the Second 
World War, and this has made us the strongest economy in the world. Yet 
our comparative and competitive advantage built on innovation is not 
necessarily eternal--others can grasp and emulate the same model. That 
is what we are now starting to see. We have a choice: we can respond 
with renewed energy and dynamism or we can drift. In FY 2008 I fear we 
drifted.
    I understand that you face many immediate demands, but if our 
national complacency about the real driving forces of today's and 
tomorrow's economy, health, and security continues, our children and 
grandchildren will suffer the consequences. I ask that you reassert the 
bipartisan leadership from this Committee that led to the America 
COMPETES Act to assure that your legislation receives the critical 
funding you authorized. It is important, as you understand well, to get 
on with the job of strategically increasing investment in our research 
system, infrastructure, and people.
    The place to begin this leadership journey is by fully funding the 
programs of the America COMPETES Act.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Maria Cantwell to 
                   Hon. John H. Marburger III, Ph.D.

    Question. Dr. Marburger, I appreciate your work on and support for 
the America COMPETES Act. I am also aware that for several years now, 
you and the OMB director have called on Federal agencies to continue to 
advance and coordinate investments in supercomputing. With the new 
legislation and your directive, can you tell us how agencies have 
responded in the area of supercomputing? What additional steps do you 
think the Administration should take to make sure agencies get the full 
benefit of supercomputing for science and engineering advances?
    Answer. The budget requests from the Administration for high-end 
computing, or supercomputing, have risen substantially over the last 
several years as agencies have prioritized this important area of 
research in the Networking and Information Technology R&D (NITRD) 
Program. There are now several agencies that are bringing unprecedented 
computational performance to bear on problems of national importance, 
including traditional leaders such as the Department of Energy's 
National Nuclear Security Administration and its Office of Science, as 
well as the National Science Foundation and NASA. Agencies are 
collaborating on the development of new HEC technologies through 
interagency programs such as DARPA's High-Productivity Computing 
Systems (HPCS); DOE's Innovative and Novel Computational Impact on 
Theory and Experiment (INCITE) activities; and the High-End Computing 
University Research Activities program. All these programs involve 
multiple agencies coordinating their investments or activities to push 
the state-of-the-art in high-end computing. In addition, smaller 
agencies such as NIST and NOAA are obtaining access to the Nation's 
highest performance supercomputers to conduct leading-edge 
computational science.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                        Dr. Arden L. Bement, Jr.

    Question 1. Dr. Bement, with regard to the Ocean Observatories 
Initiative and other project(s) in the Major Research Equipment and 
Facilities Construction (MREFC) account, understand you are requiring 
another level of review--the Final Design Review (FDR).
    What assurances can you provide that there will be sufficient 
funding and adequate guidance at the outset of the reviews to ensure 
that the review process can be completed successfully in 2008?
    Answer. GEO/OCE continues to provide funding in FY 2008 to support 
the Ocean Observatories Initiative (OOI) Project Team as it prepares 
for the final design review (FDR) currently planned for late 2008. The 
FY 2009 request for GEO/OCE includes fully sufficient funding for OOI 
Project Team work through and beyond the FDR phase. This robust funding 
stream will sustain an effective team and allow the project to maintain 
progress on final design work.
    NSF's Large Facilities Office (LFO) has developed general criteria 
for FDR, and is working with GEO to map those general criteria onto the 
specific objectives and needs of OOI. While NSF cannot guarantee the 
outcome of the FDR process, we are working with the OOI Project Team in 
development of the final FDR criteria and the Charge to the Review 
Panel.
    Assuming the FDR is completed and acceptable, it is important to me 
that the projects begin construction promptly in 2009. This is 
important to keep costs from escalating because of delays and to keep 
teams in place.

    Question 2. What assurances can you provide that there will be no 
further administrative delays that would impede progress toward 
construction?
    Answer. It is vitally important that we follow our new project 
management and budgetary processes if we are to begin delivering every 
MREFC project on cost, scope, and schedule. If the critical FDR phase 
is fully and successfully completed, I would be prepared to recommend 
that the National Science Board approve the obligation of the MREFC 
funds already appropriated by Congress in FY 2008.

    Question 3. Dr. Bement, can you tell me what steps NSF has taken to 
implement the America COMPETES Act, especially with respect to 
supercomputing? How do you see supercomputing helping the U.S. maintain 
Its leadership in science and engineering?
    Answer. The America COMPETES Act calls for the Foundation to 
conduct long-term basic and applied research on high-performance 
computing and networking. Several Foundation activities are responsive 
to this and are directly related to Section 7024--High-Performance 
Computing and Networking of the ACA. The relevant sections have been 
annotated in the text below.
    The investments include the deployment of leadership-class 
computing systems for science and engineering research, most recently 
at the University of Texas, the University of Tennessee and the 
University of Illinois [7024 C, D, F, G]. These systems are typically 
early versions, at extremely large-scale, of technology that the vendor 
subsequently intends to market more broadly [7024 B]. There are large 
technical challenges associated with implementing system-level software 
and libraries on systems of this scale so that they realize their full 
potential. Partnerships between vendors and the NSF awardees allow 
vendors to tap the expertise of academic researchers to address these 
challenges, facilitating the subsequent use of this class of systems by 
U.S. industry.
    Access to world-class, state-of-the-art, supercomputing resources 
is important to maintaining the strong leadership position of the U.S. 
in science and engineering [7024 C]. Simulation and modeling is 
recognized as complementing theory and experimentation in scientific 
exploration. NSF's funding of the TeraGrid provides sustained access by 
the research community throughout the United States to supercomputing, 
storage and networking systems that are among the most advanced in the 
world in terms of performance in solving scientific and engineering 
problems, including provision for technical support for users of such 
systems.
    Through programs such as the High-End Computing University Research 
Activity (HECURA), Strategic Technologies for Cyberinfrastructure 
(STCI), and Accelerating Discovery in Science and Engineering through 
Petascale Simulations and Analysis (PetaApps), NSF is supporting the 
development of new types of system software to improve the movement and 
storage of data in high-end computing, as well as research and 
development of software required to address Grand Challenges, 
sophisticated numerical tools for scientific and engineering use in 
areas as diverse as nanotechnology research and the study of the 
climate [7024 A, D, G]. Taken together with the many activities funded 
through domain-focused programs across the Foundation, the latter help 
establish a portfolio of computational science and engineering research 
on mathematical modeling and algorithms for applications in a broad 
cross-section of fields of science and engineering [7024 F]. 
Developments of algorithms and software in these areas offer many 
downstream benefits, such as the capability to screen rapidly potential 
pharmaceuticals for their ability to moderate disease, the design of 
novel nano-materials for manufacturing and construction, and the 
prediction of potential changes in regional water availability. These, 
together with some of the research on networking and cybersecurity 
mentioned below, result in the funding of widely dispersed efforts to 
increase software availability, productivity, capability, security, 
portability, and reliability (7024 D).
    Research on high-performance networking is supported primarily 
through the Networking and Technology Systems program (NeTS) and 
elements of the Strategic Technologies for Cyberinfrastructure program, 
while international network connections, including a new connection 
that will allow U.S. researchers to link with collaborators in 
Pakistan, are supported through the International Research Network 
Connections (IRNC) program [7024 E]. Through both NeTS and the Cyber 
Trust program, NSF supports basic research related to advanced 
information and communications technologies that will contribute to 
enhancing or facilitating the availability and affordability of 
advanced communications services for all people of the United States 
[7024 I].
    Education and training are typically integrated into NSF's larger 
research and infrastructure awards. The expansion of activities in the 
areas described above and in the research that will be funded through 
the new Cyber-enabled Discovery and Innovation (CDI) activity will 
expand the education and training of undergraduate and graduate 
students in software engineering, computer and information science and 
engineering, computer and network security, applied mathematics, and 
computational science. In addition, programs such as Integrative 
Graduate Education and Research Traineeships (IGERT) and targeted 
educational and training programs supported by CISE and MPS advance 
this goal of the America COMPETES Act [7024 H].
    The America COMPETES Act became law in August 2007, just before the 
beginning of FY 2008. Under the omnibus budget resolution passed by 
Congress for FY 2008, NSF received an increase well below the request. 
While NSF has been aggressively pursuing research in high-performance 
computing and networking with the resources that it has, the growing 
potential of supercomputing and networking in both industry and society 
at large, means that there are many more opportunities for advanced 
research in this area that are yet to be exploited.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
